           U.S. Department of Housing
              and Urban Development

          Office of Inspector General




 Semiannual Report
        to Congress
                        i
October 1, 2006, through March 31, 2007
Profile of Performance
                                                Audit Profile of Performance
                                  for the period, October 1, 2006, through March 31, 2007
     Results

    Recommendations That Funds Be Put to Better Use                                                              $755,037,441
    Recommended Questioned Costs                                                                                  $18,987,476
    Collections from Audits                                                                                       $14,535,322
    Administrative Sanctions                                                                                              6

                                            Investigation Profile of Performance
                                  for the period, October 1, 2006, through March 31, 2007
     Results

    Funds Put to Better Use                                                                                       $42,225,372
    Recoveries/Receivables                                                                                        $190,176,284
    Indictments/Informations                                                                                            694
    Convictions/Pleas/Pretrial Diversions                                                                               562
    Civil Actions                                                                                                        31
    Administrative Sanctions1                                                                                          1,050
    Personnel Actions                                                                                                    24
    Arrests2                                                                                                            1,777
    Search Warrants                                                                                                      30
    Weapons Seized                                                                                                        7
    Subpoenas Issued                                                                                                    433

                                               Hotline Profile of Performance
                                  for the period, October 1, 2006, through March 31, 2007
     Results
    Funds Put to Better Use                                                                                        $2,516,206
    Recoveries/Receivables                                                                                           $179,820


1
 Personnel actions include reprimands, suspensions, demotions, or terminations of the employees of Federal, state, or local governments, or of
Federal contractors and grantees, as the result of OIG activities. In addition, this reporting category includes actions by Federal agencies to
suspend, debar, or exclude parties from contracts, grants, loans, and other forms of financial or non-financial transactions with the government,
based on findings produced by the OIGs.
2
    Included in the arrests is our focus on the nationwide Fugitive Felon Initiative.
Inspector General’s Message
                                      It is with pride that I present the U.S. Department
                                  of Housing and Urban Development (HUD), Office
                                  of Inspector General (OIG), Semiannual Report that
                                  outlines OIG's activities for the first half of fiscal year
                                  2007.

                                      HUD OIG provides constant oversight of the
                                  administration of HUD programs through audits of
                                  HUD's financial statements and internal control
                                  reviews. In addition, OIG is a strong deterrent
                                  through its criminal and administrative investigations
                                  of white-collar crime and program abuse. OIG actively
                                  pursues these efforts, finding partners in its drive to
                                  uncover housing-related crimes in public housing and
                                  HUD's economic development programs.

     During the past 6 months, HUD OIG has partnered with the U.S. Department of
Justice (DOJ) on the National Procurement Fraud Task Force, the purpose of which is
to promote the early detection, prevention, and prosecution of procurement fraud
associated with government programs. In addition, OIG is participating in the DOJ
Public Housing Safety Initiative (PHSI), a crime prevention and community
development effort designed to assist in the investigation, prosecution, and prevention
of violent crimes and drug offenses in public housing. OIG is actively participating in
10 major PHSI sites across the country. A recent PHSI initiative in the Dallas/Ft. Worth
area netted 69 arrests, 36 administrative actions, and $592,992 in funds put to better
use.

    HUD OIG continues to check the crime of Section 8 rental subsidy fraud. A recent
action in New York City, "Operation Heat 2," conducted by OIG in cooperation with
the New York City Housing Authority, led to the arrest of 30 individuals charged with
defrauding the Section 8 program of more than $1.2 million in housing subsidies.

   HUD OIG has been a strong voice for strengthening the integration of the Federal
Housing Administration's financial management systems to the enhance lender
accountability and effectively deal with program abusers.

    The destruction and aftermath of Hurricanes Katrina, Wilma, and Rita continue to
be a focus and challenge for HUD OIG. To deal with the enormous task of enforcement
and oversight, OIG has established a new, discrete regional office, headquartered in
New Orleans, LA. OIG audit, investigative, and inspections staff provide a continuing
and comprehensive review of the expenditure of funds and their administration. Weekly
Gulf Coast newspapers herald arrests and convictions of those who would seek to
defraud the government.



Inspector General’s Message                                                               iii
    HUD OIG's major accomplishments for this period are highlighted in this report.
During the 6-month reporting period, audit reports related to the single-family housing,
public and indian housing, multifamily housing and community planning and
development program areas questioned more than $18.7 million in costs and made
$755 million in recommendations to the Department on how funds could be put to
better use. During this semiannual reporting period, OIG completed 60 audits.

    HUD OIG's investigative workload continues at a steady pace. During this
timeframe, OIG opened 79 investigative cases and closed 111 cases in the single-family
program area, resulting in 142 indictments; 134 arrests; and 113 convictions, pleas, or
pretrial diversions.

    In closing, I want to acknowledge the extraordinary efforts of the auditors,
investigators, inspectors, and support personnel who form the core of HUD OIG and
to thank them for their dedication and service to the American taxpayers and their
commitment to eliminating waste, fraud, and abuse.




     Kenneth M. Donohue
     Inspector General




iv                                                             Inspector General’s Message
                                 Audit Reports Issued by Program

                                     Other                            Single-Family
                                    Programs                             Housing
                                      12%                                  13%
      Community                                                                           Multifamily
       Planning &                                                                          Housing
      Development                                                                            10%
          17%




                                                                                   Public and Indian
                                                                                       Housing
                                                                                          48%



                         Monetary Benefits Identified by Program

                                          Multifamily            Public & Indian
                                           Housing                  Housing
                                             5%                        7%
                                                                                          Community
                                                                                           Planning &
                                                                                          Development
                                                                                               1%




           Other Programs
                87%



                     Monetary Benefits Identified in Millions of Dollars


           700

           600                                                                 $671.1

           500

           400

           300

           200
                                                        $54.8
               100         $1.7          $37.4                       $9.0
                0
                        Single     Multifamily   Public &       Community      Other
                       Family       Housing       Indian         Planning &   Programs
                       Housing                   Housing        Development




Audit Charts                                                                                            v
              Investigation Cases Opened by Program (Total: 635)

          Community Planning                Other/GNMA
            & Development                     8% (48)                           Single-Family
              16% (101)                                                            Housing
                                                                                  12% (79)




      Multifamily
       Housing
       8% (49)                                                          Public and Indian Housing
                                                                                56% (358)




          Investigation Recoveries by Program (Total: 190,176,284)


     180,000,000
     160,000,000
     140,000,000
     120,000,000
     100,000,000
     80,000,000
                                                           7%
     60,000,000         91%                1%                              1%            0%
                                                      ($13,188,916)
     40,000,000    ($173,875,616)     ($1,457,213)                    ($1,649,655)     ($4,884)
     20,000,000
              0       Single        Multifamily                 Community             Other
                                                     Public &
                     Family          Housing          Indian     Planning &          Programs
                     Housing                         Housing    Development




vi                                                                                        Investigation Charts
Acronyms List
AIGA            Assistant Inspector General for Audit
AIGI            Assistant Inspector General for Investigations
ARIGA           Assistant Regional Inspector General for Audit
ASAC            Assistant Special Agent in Charge
ATFE            Bureau of Alcohol, Tobacco, Firearms, and Explosives
CAS             Computer Audit Specialist
CDBG            Community Development Block Grants
CID             Criminal Investigation Division
CPD             Community Planning and Development
DAIGA           Deputy Assistant Inspector General for Audit
DAIGI           Deputy Assistant Inspector General for Investigation
DEA             Drug Enforcement Administration
DHS             Department of Homeland Security
DIG             Deputy Inspector General
DoD             Department of Defense
DOE             Department of Education
DOJ             U.S. Department of Justice
DROD            Disaster Relief Oversight Division
DUI             Driving Under the Influence
EIV             Enterprise Income Verification
FBI             Federal Bureau of Investigation
FDIC            Federal Deposit Insurance Corporation
FEMA            Federal Emergency Management Agency
FFMIA           Financial Management Improvement Act of 1996
FHA             Federal Housing Administration
FIRMS           Facilities Integrated Resources Management System
FISMA           Federal Information Security Management Act of 2002
FY              Fiscal Year
GAO             Government Accountability Office
HHS             U.S. Department of Health and Human Services
HOME            Home Ownership Made Easy
HOPWA           Housing Opportunities for Persons with AIDS

Acronyms List                                                          vii
HUD         U.S. Department of Housing and Urban Development
ICE         Immigration and Customs Enforcement
IG          Inspector General
IRS         Internal Revenue Service
KDHAP       Katrina Disaster Housing Assistance Program
MTW         Moving to Work
NAHRO       National Association of Housing and Redevelopment Officials
OA          Office of Audit
OI          Office of Investigation
OIG         Office of Inspector General
OMB         Office of Management and Budget
OTND        Officer/Teacher Next Door
PCIE/ECIE   President’s Council on Integrity and Efficiency/Executive Council on
            Integrity and Efficiency
PFCRA       Program Fraud Civil Remedies Act
PHA         Public Housing Authorities
PHSI        Public Housing Safety Initiatives
PIH         Office of Public and Indian Housing
REO         Real Estate Owned
RHIIP       Rental Housing Integrity Improvement Project
RIGA        Regional Inspector General for Audit
SA          Special Agent
SAC         Special Agent in Charge
SBA         Small Business Administration
SFA         Supervisory Forensic Auditor
SSA         Social Security Administration
SSN         Social Security Number
TSA         Transportation Security Administration
USAO        U.S. Attorney’s Office
USDA        U.S. Department of Agriculture
USMS        U.S. Marshals Service
USPS        U.S. Postal Service
USPIS       U.S. Postal Inspection Service
VA          U.S. Department of Veterans Affairs



viii                                                                Acronyms List
Table of Contents
Executive Highlights                                                    1
Chapter 1 - HUD’s Single Family Housing Programs                        7
     Audits                                                             8
     Investigations                                                    13
Chapter 2 - HUD’s Public and Indian Housing Programs                   31
     Audits                                                            32
     Investigations                                                    45
Chapter 3 - HUD’s Multifamily Housing Programs                         73
     Audits                                                            74
     Investigations                                                    78
Chapter 4 - HUD’s Community Planning and Development Programs          83
     Audits                                                            84
     Investigations                                                    89
Chapter 5 - Hurricane Relief Oversight                                 97
     Introduction and Background                                       99
     Audits                                                           105
     Investigations                                                   107
Chapter 6 - Other Significant Audits and Investigations/OIG Hotline   115
     Audits                                                            116
     Investigations                                                   120
     OIG Hotline                                                      121
Chapter 7 - Outreach Efforts                                          123
     Housing Outreach                                                 124
     Public Housing and Rental Assistance Programs                    128
     Community Planning and Development                               134
     Outreach to Law Enforcement Partners                             139
Chapter 8 - Review of Policy Directives                               143
     Proposed Legislation                                             144
     Proposed Rules                                                   145
     Proposed Notices                                                 145
Chapter 9 - Audit Resolution                                          147
     Significant Management Decision with Which OIG Disagrees         149
     Federal Financial Management Improvement Act of 1996             150
Appendix 1 - Audit Reports Issued                                     151
Appendix 2 - Tables                                                   157
Appendix 3 - Index                                                    177
HUD OIG Operations Telephone Listing                                  181




Table of Contents                                                      ix
Reporting Requirements
    The specific reporting requirements as prescribed by the Inspector General Act of
         1978, as amended by the Inspector General Act of 1988, are listed below:
Source/Requirement                                                                    Pages
Section 4(a)(2)-review of existing and proposed legislation and regulations.            143-146
Section 5(a)(1)-description of significant problems, abuses, and                  1-123, 143-146
deficiencies relating to the administration of programs and operations
of the Department.
Section 5(a)(2)-description of recommendations for corrective action with                 7-123
respect to significant problems, abuses, and deficiencies.
Section 5(a)(3)-identification of each significant recommendation      Appendix 2, Table B
described in previous semiannual report on which corrective action has
not been completed.
Section 5(a)(4)-summary of matters referred to prosecutive authorities                    7-123
and the prosecutions and convictions that have resulted.
Section 5(a)(5)-summary of reports made on instances where information            No Instances
or assistance was unreasonably refused or not provided, as required by
Section 6(b)(2) of the Act.
Section 5(a)(6)-listing of each audit report completed during the                  Appendix 1
reporting period, and for each report, where applicable, the total dollar
value of questioned and unsupported costs and the dollar value of
recommendations that funds be put to better use.
Section 5(a)(7)-summary of each particularly significant report                           7-123
and the total dollar value of questioned and unsupported costs.
Section 5(a)(8)-statistical tables showing the total number of              Appendix 2, Table C
audit reports and the total dollar value of questioned and
unsupported costs.
Section 5(a)(9)-statistical tables showing the total number of audit        Appendix 2, Table D
reports and the dollar value of recommendations that funds be put
to better use by management.
Section 5(a)(10)-summary of each audit report issued before the             Appendix 2, Table A
commencement of the reporting period for which no management
decision had been made by the end of the period.
Section 5(a)(11)-a description and explanation of the reasons for                 No Instances
any significant revised management decisions made during the
reporting period.
Section 5(a)(12)-information concerning any significant management                          149
decision with which the Inspector General is in disagreement.
Section 5(a)(13)-the information described under section 05(b) of the                       150
Federal Financial Management Improvement Act of 1996.

x                                                                      Reporting Requirements
Executive Highlights
Strategic Initiative 1
HUD Strategic Goal: Increase Homeownership Opportunities
    OIG Strategy: Contribute to the Reduction of Fraud in Single-Family
    Insurance Programs through

    - Audits uncovering single-family and loan origination abuse
    - Audits of the U.S. Department of Housing and Urban Development's (HUD) internal
      policies to determine whether controls are adequate
    - Regional single-family mortgage fraud task forces
    - Inspections and evaluations of program areas
    - Outreach to industry and consumer groups and the Department

    Highlights: Results or Impact of Significant OIG Work
    - Recommended that mortgage companies hold HUD harmless for improperly page 9
      underwritten loans
    - Recommended administrative action/civil monetary penalties against      page 11
    First Magnus for Federal Housing Administration (FHA) loans originated
      by its net branches that operated in violation of HUD requirements
    - Reviewed HUD's oversight of 20-year loans and concurred with the change page 12
      for processing these loans, which resulted in decreased defaults
    - $11.6 million forfeited and more than 5 years imprisonment imposed in   page 14
      a loan origination scam
    - More than $7.5 million in restitution awarded to HUD and victims of     page 14
    manufactured homes mortgage scam
    - Foreclosure company owner sentenced to more than 37 months              page 25
    imprisonment as a result of a $2 million bankruptcy fraud scam
    - Advocated changes to the seller-funded downpayment assistance programs page 145

    Emerging Issues: Areas of OIG Interest

    - FHA modernization program: risk and fraud potential
    - Downpayment assistance: seller-funded downpayments
    - Control of loan case binders: policy and procedure deficiency
    - Risk involved in zero downpayment




Increasing
Homeownership Opportunities
2                                              HUD’s Management and Performance Challenges
Strategic Initiative 2
 HUD Strategic Goal: Promote Decent Affordable Housing
 OIG Strategy: Contribute to the Reduction of Erroneous Payments in Rental
 Assistance Programs through

  - Audits of Section 8 Housing Choice Voucher program activities
  - Investigative initiative against corruption in the management of troubled public
    housing authorities (PHA)
  - Section 8 Fraud Initiatives in each Office of Inspector General (OIG) region
  - Investigative Rental Assistance Overpayment Initiatives in each region
  - Public Housing Fugitive Felon Initiative: locate and remove
  - Sex Offender Initiative: locate and remove
  - U.S. Department of Justice (DOJ) Public Housing Safety Initiative
  - Inspections and evaluations of program areas
  - Public and department-wide outreach initiatives

 Highlights: Results or Impact of Significant OIG Work
  - Housing choice voucher schemes result in indictments and prosecution          page 31
  - Identified excessive assistance payments due to payments for units not        page 35
    meeting minimum housing quality standards (HQS), errors in tenant files,
    and lack of controls
  - Expensive toys and $1.2 million home for sale as result of $3.5 million       page 46
    embezzlement scam
  - You can run but you cannot reside: HUD OIG works with U.S. Marshals           page 69
    Task Force, arrests 545 fugitive felons; 291 in HUD-assisted housing, 50
     sex offenders

 Emerging Issues: Areas of OIG Interest

  - Nursing homes: equity skimming
  - Adequacy of HQS inspections
  - Public corruption and mismanagement
  - Enterprise Income Verification System (EIV): long-term effectiveness
  - HUD oversight of performance-based contract administrators
  - Overpayments in Section 8 due to “Overhousing”: providing more bedrooms than
    needed




Promote
Decent Affordable Housing
HUD’s Management and Performance Challenges                                                 3
Strategic Initiative 3
    HUD Strategic Goal: Strengthen Communities
    OIG Strategy:
    - Promote Integrity, Efficiency, and Effectiveness of Programs
    - Contribute to the Reduction of Fraud, Waste, and Abuse through

    - Audits of the Community Development Block Grant (CDBG), Supportive Housing
      Program, and HOME program
    - Investigative initiative against corruption in administration of State or local community
      planning and development programs in each OIG region
    - Investigative initiative against corruption in FHA multifamily corruption
    - Hurricane Relief Fraud program
    - National plan to involve all regions in prevention of fraud in CDBG program funds in
      five Gulf Coast States
    - Inspections and evaluations of program areas
    - Public dissemination of HUD OIG activities and outreach activities with State and
      local government agencies
    - Department liaison

    Highlights: Results or Impact of Significant OIG Work
    - Initiated total agent training program for community planning and                 page 75
      development and multifamily fraud and corruption investigations
    - Health care official causes HUD loss of more than $4.4 million                    page 79
    - City employees indicted for theft of government funds                             page 80
    - Owner of three apartments pleads guilty to stealing more than $1.9 million        page 82
       from HUD
    - Advocated HUD controls over grantees to ensure that grant funds are used          page 86
      in accordance with grant agreements
    - Minister to face judgment day for theft of funds                                  page 90
    - Shelter directors using funds for vacations, vehicles, tuition, and Federal       page 90
      income tax: arrested and charged
    - Katrina scheme unravels                                                          page 109

    Emerging Issues: Areas of OIG Interest

    - Community planning and development performance monitoring
    - Liens on real property purchases with Federal assistance
    - Matching funds: grantee misuse of Federal funds
    - Gulf Coast hurricane assistance fraud




Strengthen
Communities
4                                                HUD’s Management and Performance Challenges
Strategic Initiative 4
 HUD Strategic Goal: Embrace High Standards of Ethics,
 Management, and Accountability

 OIG Strategy:
 - Be a Relevant and Problem-Solving Advisor to the Department
 - Contribute to Improving HUD's Execution and Accountability of Fiscal
   Responsibilities through
  - Audits of HUD's financial statements
  - Audits of HUD's information systems and security management
  - At the request of members of Congress, investigation of remarks attributed to the
    HUD Secretary, specifically, and possible political influence on the HUD contracting
  - Implementation of DOJ Procurement Fraud Task Force at HUD
  - FedRent data match operation: Identifying Federal employees improperly receiving

 Highlights: Results or Impact of Significant OIG Work
  - Encryption of OIG computers                                                 page 118
  - Elimination of material weaknesses and HUD’s removal from General           page 144
    Accountability Office (GAO) high-risk list

 Emerging Issues: Areas of OIG Interest

  - Ethics and accountability in contracting
  - Security and data integrity
  - Management of human capital
  - Risks in information technology: vulnerabilities and security




Embrace High Standards of Ethics,
Management, and Accountability
HUD’s Management and Performance Challenges                                                5
     Chapter 1




HUD’s Single-Family
 Housing Programs
    The Federal Housing Administration’s (FHA) single-family programs provide
mortgage insurance to mortgage lenders that, in turn, provide financing to enable
individuals and families to purchase, rehabilitate, and construct a home. In addition
to the audits and investigations described in this chapter, OIG has also conducted
numerous outreach efforts. (see chapter 8, page 124)

Audits

                Strategic Initiative 1: Contribute to the Reduction of Fraud
                           in Single-Family Insurance Programs
     Key Program Results              Questioned Costs            Funds Put to Better Use
Audit            8 Audits                 $524,000                       $1.1 Million
                  page 9         - Mortgagees, Loan Corresponents, and Direct
                                   Endoresement Lenders
     Our
    Focus         page 11        - Single-Family Real Estate Owned Property Sales
                  page 12        - HUD’s Oversight of 20-Year Insured Loans




            Chart 2.1: Percentage of OIG Single-Family Housing Audit Reports
                               During this Reporting Period
                                                                                        Region 1
                                                                                       Boston 12%

                                               Region 5               Region 2
                                              Chicago 13%           New York 0%
                          Region 7-8
                        Kansas City 37%




                                                                                      Region 3
                                                                                  Philadelphia 12%




        Region 9-10                                                       Region 4
      Los Angeles 13%                                                    Atlanta 13%
                                                  Region 6
                                               Fort Worth 0%




8                                                           HUD’s Single-Family Housing Programs
Mortgagees, Loan Correspondents, and Direct
Endorsement Lenders
    Audits to uncover single-family lenders and loan origination abuses continued to
be a priority during this semiannual period. Lenders are targeted for audit through the
use of data mining techniques, along with prioritizing audit requests from outside
sources. During this period, the U.S. Department of Housing and Urban Development
(HUD) OIG reviewed four FHA single-family mortgage lenders. While OIG's
objectives varied by auditee, the majority of the reviews were to determine whether the
mortgage lender complied with HUD's regulations, procedures, and instructions for
the underwriting of FHA loans and to determine whether the mortgage lender's quality
assurance plan met HUD's requirements. The following section illustrates the audits
conducted in the single-family mortgage lender area.

    HUD OIG audited loans that Pine State Mortgage Company, a nonsupervised
direct endorsement lender, underwrote at its Atlanta, GA, branch office. Pine State
improperly underwrote 21 of the 108 loans reviewed, thereby placing the FHA
insurance fund at risk for nearly $152,000 in questioned costs and more than $713,000
in funds to be put to better use. Pine State also did not maintain proper quality
controls over its underwriting process, placing HUD's insurance fund at risk for an
additional 15 loans. These loans involved material violations affecting the loans'
insurability that were not recognized by Pine State and reported to HUD, thereby
exposing HUD's insurance fund to unnecessary risk of default, claims, and foreclosure.

    OIG recommended that HUD take appropriate administrative action against Pine
State. This action should, at a minimum, require Pine State to reimburse or hold HUD
harmless against any losses for the 21 improperly underwritten loans and any of the 15
loans that involved material violations. (Audit Report: 2007-AT-1002)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   HUD OIG audited Colony Mortgage Corporation, Fairview Park, OH, a
supervised lender approved to originate, underwrite, and submit insurance
endorsement requests under HUD's single-family direct endorsement program.

    Of 22 FHA loans reviewed, Colony approved nine that did not meet HUD's
requirements. Further, Colony incorrectly certified to the integrity of the data
supporting the underwriting deficiencies or to the due diligence used in underwriting
the loans. Colony's quality control plan did not fully comply with HUD's requirements,
and its quality control reviews were not adequately performed. For the loans in
question, the risk to the FHA fund was increased.

    OIG recommended that HUD require Colony to reimburse HUD for any future net
loss once the associated properties are sold, reimburse HUD nearly $199,000 for the
loss incurred on four loans already sold and for one overinsured loan, improve its
existing procedures and controls to ensure that its underwriters follow HUD's
underwriting requirements, implement its revised quality control plan, and ensure that
quality control reviews are performed in accordance with its revised plan. OIG also


HUD’s Single-Family Housing Programs                                                 9
recommended that HUD determine legal sufficiency and if legally sufficient, pursue
remedies under the Program Fraud Civil Remedies Act against Colony and/or its
principals for the nine incorrect certifications identified. (Audit Report: 2007-CH-
1006)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited Plains Capital McAfee Mortgage, Lubbock, TX, because its
2-year default rate for loans with amortization dates between December 2003 and
November 2005 exceeded HUD's national average by 44 percent. In addition, the
percentage of current defaults and claims was 88 percent higher than HUD's national
average.

    McAfee Mortgage did not follow HUD regulations when underwriting 11 of the 35
loans reviewed. As a result, HUD insured 11 loans with original mortgage amounts of
more than $1 million, placing the FHA insurance fund at unnecessary risk. McAfee
Mortgage submitted 821 loans from unregistered branch offices, circumventing HUD's
oversight controls and placing the FHA insurance fund at unnecessary risk for nearly
$75 million in loans.

    OIG recommended that HUD require McAfee Mortgage to indemnify it for the 11
improperly underwritten loans and seek civil money penalties for all loans originated
from unregistered branches from December 1, 2004, to the present. (Audit Report:
2007-KC-1003)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   HUD OIG audited Wells Fargo Home Mortgage, West Des Moines, IA, to
determine whether it originated, sponsored, or purchased Title II manufactured
housing loans in accordance with HUD requirements and whether the insured loans
met HUD permanent foundation requirements specific to Title II manufactured
housing loans.

   Of 11 FHA-insured loans reviewed, one was not eligible for insurance because the
property's foundation did not meet HUD requirements, and Wells Fargo did not
provide HUD with all required certifications when submitting the loan for insurance.
As a result, HUD incurred a loss of almost $65,000. OIG recommended that HUD
require Wells Fargo to reimburse it for the loan. (Audit Report: 2007-KC-1002)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited Mortgage Amenities Corporation, Lincoln, RI, a nonsupervised
mortgage company approved by HUD to originate, underwrite, and service FHA
single-family insured loans.

    Mortgage Amenities approved one loan that was not eligible for FHA insurance
because of questionable citizenship and/or immigration status. It also charged
ineligible document preparation fees to borrowers and did not establish or operate its
branches in accordance with HUD requirements. In addition, a significant number of
mortgage records in HUD's Single-Family Insurance System were not accurate for loans

10                                                    HUD’s Single-Family Housing Programs
originated or sponsored by Mortgage Amenities. Further, Mortgage Amenities did not
establish or implement a quality control plan that met all of HUD's requirements. This
noncompliance increased the risk to the FHA insurance fund and the public.

    OIG recommended that HUD require Mortgage Amenities to (1) indemnify HUD
against future losses for the ineligible FHA-insured loan, (2) refund the ineligible
closing fees, (3) terminate its branches that do not comply with HUD requirements,
(4) review HUD's mortgage records and update them accordingly, and (5) update and
fully implement its quality control plan. OIG also recommended that HUD refer
Mortgage Amenities to the Mortgagee Review Board for consideration of
administrative sanctions and/or civil money penalties for the violations identified. (Audit
Report: 2007-BO-1002)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   HUD OIG audited the branch office operations of First Magnus Financial
Corporation, Scottsdale, AZ, primarily the branch doing business as Great Southwest
Mortgage.

    First Magnus violated HUD requirements by allowing officers to enact noncompete
clauses, requiring net branch managers to indemnify branch-related losses, allowing
nonexclusive employment, and failing to execute office leasing agreements and
equipment lease agreements in First Magnus' name. As a result of this noncompliance,
HUD's insurance funds and the public were exposed to an increased risk.

    OIG recommended HUD impose civil money penalties against First Magnus for
FHA-insured loans originated by its net branches that were operated in violation of
HUD requirements and require First Magnus to either discontinue operations of all
net branches or bring them into compliance with HUD requirements. (Audit Report:
2007-LA-1002)

Single-Family Real Estate Owned Property Sales
    HUD OIG audited HUD's single-family sales to owner-occupant purchasers under
the jurisdiction of its Philadelphia, PA, Homeownership Center to determine whether
HUD's policy for single-family home sales to owner-occupant purchasers was followed
and adequately monitored.

    HUD's policy for single-family home sales to owner-occupant purchasers was
followed and adequately monitored to prevent multiple purchases by owner-occupant
purchasers within a 24-month period. However, for 15 of 51 owner-occupant purchases
audited, owner-occupant purchasers did not comply with the 12-month residency
requirement.

    OIG recommended that HUD evaluate the 12-month residency requirement to
determine whether it is needed since enforcement of the requirement is not practical
and violations do not constitute a monetary loss to HUD. If HUD concludes that the
12-month residency requirement is essential, it should monitor compliance and enforce
the requirement. (Audit Report: 2007-PH-0001)


HUD’s Single-Family Housing Programs                                                     11
HUD's Oversight of 20-Year Insured Loans
   HUD OIG reviewed HUD's oversight of 20-year insured loans to determine whether
HUD has adequately addressed the increased risk associated with 20-year loans
approved by an automated underwriting system.

    HUD has adequately addressed the increased risk associated with these loans. In
December 2004, it changed the way it processes the loans. Since this change, the
default rate has decreased dramatically to less than 3 percent for loans closed in fiscal
year (FY) 2006.

     OIG did not recommend corrective action. (Audit Report: 2007-KC-0001)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




12                                                     HUD’s Single-Family Housing Programs
Investigations
    Some of the investigations discussed in this report were conducted jointly with
Federal, State, and local law enforcement agencies. The results of OIG’s more
significant investigations are described below.



               Strategic Initiative 1: Contribute to the Reduction of Fraud
                          in Single-Family Insurance Programs
   Key Program             Cases                  $                  Convictions/Pleas/          Admin/Civil
     Results               Closed             Recovered                  Pretrials                 Actions
  Investigations              111            $22 Million                       113                      114
                           page 14       - Loan Origination Fraud
                          page 22        - Identity Fraud
     Our Focus
                          page 22        - False Social Security Number
                          page 25        - Bankruptcy Fraud
                           page 27       - Other Single-Family Fraud




    Chart 2.2: Percentage of OIG Single-Family Housing Closed Investigation
                      Cases During this Reporting Period*
                                                                                                       Region 1
                                                                                                      Boston 3%

                                                        Region 5                    Region 2
                                                       Chicago 21%                New York 11%
                            Region 7-8
                          Kansas City 14%




                                                                                                     Region 3
                                                                                                 Philadelphia 15%




      Region 9-10                                                                         Region 4
    Los Angeles 11%                                                                      Atlanta 9%
                                                           Region 6
                                                        Fort Worth 17%


* This does not include cases where funds misused came from Congress for the hurricane relief.
(see chapter 6 for these cases)




HUD’s Single-Family Housing Programs                                                                                13
Loan Origination Fraud
    Gary Konstantin, the former branch manager and loan officer at Brucha Mortgage
Bank, was sentenced in U.S. District Court, Brooklyn, NY, to 63 months incarceration
and 3 years probation, ordered to pay HUD $708,378 and Stewart Title $440,387 in
restitution and forfeit $11.6 million, and fined $6,100 for his earlier conviction of
conspiracy, money laundering, and wire and insurance fraud. Konstantin and others
conspired with nonprofit entities to secure FHA-insured mortgages by performing
minimal property renovations and submitting false loan documents and appraisals, then
flipped the properties and skimmed construction funds. HUD realized losses of $11.6
million after numerous mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Donald W. Gupton, owner and president of Dynasty Homes of Henderson,
Superior Housing Center, Creative Real Estate, Manufacturing Housing Sales Center,
M&G Properties II, Inc., and CRE Properties, LLC, was sentenced in U.S. District Court,
Greenville, NC, for his earlier guilty plea to conspiracy to commit mail and wire fraud,
false statements, bank fraud, and money laundering. Gupton was sentenced to 75
months incarceration and 5 years supervised release and ordered to pay HUD more
than $7.5 million in restitution, including $160,000 to 20 victims. In addition, Gupton
agreed to forfeit $11 million in property, an aircraft, and additional assets belonging to
the businesses identified above. From 1999 to 2002, Gupton and other conspirators
bought and sold more than 150 manufactured mobile homes, some including land, and
assisted unqualified borrowers in obtaining $15 million in FHA-insured mortgages by
verifying fictitious trade-ins, providing cash or fabricated gift letters, or falsely
inflating values and certifying land ownership. HUD realized losses of $7.5 million after
numerous mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Patrick Singletary, a former owner of Sunshine Mortgage and Universal Title; Peter
Russo, the current owner of Sunshine Mortgage; and Robert Singletary and Clifford
Shaw, former owners of Tropical Mortgage Company and Cal Investments, each pled
guilty in U.S. District Court, Atlanta, GA, to conspiracy, false statements to HUD, and
bank and wire fraud. The above defendants purchased then resold HUD Real Estate
Owned (REO) properties to unqualified borrowers obtaining FHA-insured and
conventional mortgages. HUD realized losses in excess of $7 million after
approximately 120 FHA-insured mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Real estate investors Doug Hastings and Phil Miskimon, along with Jeffrey Meyer,
Shawn Fleming, Price Brooks, and Julie Smith, were sentenced in U.S. District Court,
Rockford, IL, for their earlier guilty pleas to conspiracy, false statements, and false
statements to HUD. Collectively, the above defendants were sentenced to more than
11 years incarceration and 15 years supervised release and ordered to pay HUD more
than $2 million and private lenders $228,259 in restitution. The defendants and others


14                                                     HUD’s Single-Family Housing Programs
                     Copyright, 2006. The Rockford Register Star- Rockford, IL. Reprinted with permission.


acted as straw buyers or provided false credit letters, verifications of employment, or
gift letters to assist unqualified borrowers in obtaining more than 50 FHA-insured
mortgages. HUD realized losses in excess of $3.1 million after more than 40 mortgages
defaulted.

                                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    In a civil judgment filed in U.S. District Court, Los Angeles, CA, real estate
investor Morteza Eghbal and his wife, Marilyn Trujillo, were ordered to pay HUD more
than $5.7 million and civil penalties and litigation costs of $148,500 for their earlier
convictions on false statements and conspiracy to defraud HUD. Eghbal and Trujillo
purchased then resold properties and provided downpayment funds for unqualified
borrowers obtaining FHA-insured mortgages. HUD realized losses of more than $2.4
million when 62 properties defaulted.

                                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Appraiser Kahala Hickoff was charged in an information filed in U.S. District Court,
Los Angeles, CA, with making a false statement. Hickoff allegedly completed and
submitted fraudulent FHA-insured property appraisals but signed the appraisals
using the names of others. HUD realized losses in excess of $2.7 million after 31
FHA-insured mortgages defaulted.

                                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Ricardo Medina, a former realtor with William E. Mendez Team, Inc., at Remax
100 in Lakewood, CO, was sentenced in U.S. District Court, Denver, CO, to 8 months
home detention and 60 months probation and ordered to pay HUD $126,420 in
restitution for his earlier guilty plea to wire fraud. Medina and others assisted
unqualified undocumented immigrants in obtaining more than 300 FHA-insured
mortgages. HUD realized losses of $2.4 million after 51 mortgages defaulted.

                                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


HUD’s Single-Family Housing Programs                                                                         15
    James L. Boyle, a former loan
officer at RBC and Irwin
Mortgage, was indicted in U.S.
District Court, Rockford, IL, for
mail fraud, false statements, and
false statements to HUD. In
addition, Frank J. Mazzarese, a
loan officer at RBC Mortgage;
Marie Caltagerone, owner of
Caltagerone Accounting; and
Israel Quintero and Raul
Raygoza, employees of Friends
Furniture, each pled guilty to
conspiracy. Boyle allegedly
and Mazzarese, Caltagerone,
Quintero, and Raygoza admittedly         Copyright, 2007. The Rockford Register Star- Rockford, IL.
provided fraudulent financial,                                          Reprinted with permission.
employment, and other documents
to assist unqualified borrowers in obtaining FHA-insured mortgages. HUD losses
exceeded $2 million after more than 40 mortgages defaulted.

                                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Greg Leigh Buzarde, a former HUD-approved appraiser, was indicted in U.S.
District Court, Los Angeles, CA, for conspiracy, false statements, and mail fraud.
Buzarde and others allegedly prepared and submitted HUD appraisal reports
certifying fewer than actual units in properties obtaining FHA-insured mortgages. HUD
losses are estimated at $1.9 million after 37 mortgages defaulted.

                                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Norvel Brown, owner of Mississippi Valley Title (MVT), pled guilty in U.S. District
Court, St. Louis, MO, to wire fraud and employee pension benefit plan theft. From
2000 to 2005, Brown and MVT, while under contract with HUD's Home Ownership
Center in Denver, CO, and performing as the closing agent for all HUD properties in
Missouri, failed to wire approximately $1.8 million in escrow funds to HUD and $990,000
to commercial lenders. Brown also embezzled employee pension account funds.

                                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    World Wide Financial Services (WWFS), doing business as Loan Giant, and Jack
Wolfe, president of WWFS, were named in a $3.4 million civil complaint filed in U.S.
District Court, Detroit, MI. Wolfe and WWFS allegedly created and submitted false
documents to secure FHA insurance on 10 mortgage loans, causing HUD losses in
excess of $1.4 million.

                                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




16                                                        HUD’s Single-Family Housing Programs
    Trudy M. Peters, a former Ticor Title Agency escrow
officer; Larry M. Smith and John M. Soto, former service
representatives at Wells Fargo Home Mortgage; and Maria
A. Felix and Tony S. Vasquez, HUD-certified counselors, were
each indicted in U.S. District Court, Phoenix, AZ, on
numerous counts of conspiracy or mail and wire fraud.
Peters, Smith, Soto, Felix, Vasquez, and previously indicted
Edward Carrillo, owner of Sahara Investments in Scottsdale,
AZ, allegedly conspired to defraud HUD's "preforeclosure"
program by submitting fraudulent appraisals, falsifying
counseling certification forms, or concealing additional
mortgages encumbering properties. HUD losses are
estimated at more than $1.8 million.

                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Emmitt Cotton Sr., a former loan officer at Mid-America
Mortgage, Fast Trac Mortgage, and Mortgage Executives;
Linda Edwards, a realtor at Affable Realty; and LaDonna
Mullins, a realtor at LaDonna's Realty and Management, were
each indicted in U.S. District Court, Denver, CO, for wire
fraud, false statements, false use of a Social Security number
(SSN), false statements to a financial institution, or money
laundering. In addition, Linda Carnagie, a former loan officer
at Highland Mortgage Financial Group; Stafford Hilaire, a loan
officer and president of Catalina Century Mortgage; and
Sandra Lindsey, an FHA-insured mortgagor, were each
convicted of wire fraud, false statements, or conspiracy. From
February 1999 to July 2004, Cotton, Edwards, and Mullins
were allegedly and Carnagie, Hilaire, and Lindsey were found
guilty of submitting or causing the submission of FHA loan
files containing fraudulent documentation and information
                                                                  Copyright, 2007. The Arizona
for more than 100 unqualified borrowers obtaining FHA-                 Republic - Phoenix, AZ.
insured mortgages. HUD realized losses in excess of $1.2            Reprinted with permission.
million after 40 mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Stacey Marrero, a former Neighborhood Mortgage Bankers underwriter previously
sentenced in U.S. District Court, Newark, NJ, for her earlier guilty plea to theft by
deception, was suspended from procurement and nonprocurement transactions as a
participant or principal with HUD and throughout the Executive Branch of the
Federal Government. Marrero and others assisted unqualified borrowers in obtaining
FHA-insured mortgages by submitting false loan documentation and appraisals. HUD
realized losses in excess of $1.2 million after 33 mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




HUD’s Single-Family Housing Programs                                                        17
    Paul and William Peterson, owners of Peterson Land and Development, were each
sentenced in U.S. District Court, Los Angeles, CA, to 18 months incarceration and 3
years supervised probation and ordered to pay HUD more than $1.2 million in
restitution, jointly and severally, for their earlier convictions on false statements. Paul
and William Peterson submitted false gift letters and other documents to assist
unqualified borrowers in obtaining FHA-insured mortgages. HUD realized losses in
excess of $1.1 million after 43 morgtgages defaulted.

                                  ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Louay M. Kahale, owner of Marquee Mortgage and a former loan officer at Charter
West Mortgage, LLC, was charged in an information filed in U.S. District Court,
Denver, CO, with wire fraud. Kahale allegedly originated 37 FHA-insured loans at
Marquee Mortgage and 384 FHA-insured loans at Charter West Mortgage, LLC,
containing false income and employment documentation; the estimated value of the
FHA-insured loans containing false documents is approximately $66.8 million. HUD
losses have not yet been determined.

                                  ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Lawrence Lynch, James Smith, Pasquale Romeo, Mark McCarthy, Kathryn Zepka,
Michael Bergdoll, and Elliott Beals, mortgage or real estate brokers doing business as
Affordable Mortgage, Tiffy Corporation, Springfield Mortgage, Ivy Mortgage, Metro
Mortgage, Inc., or B&V Properties; Theodore Jarrett, the former branch manager of
Equicredit Corporation; Joseph Sullivan, an appraiser doing business as Sullivan
Appraisals; Anthony Matos, an investor doing business as New England Wholesalers,
First Empire Realty, and Elite Auto Center; and Wilfred Changasie were each sentenced
in U.S. District Court, Springfield, MA, for their earlier guilty pleas to wire fraud, money
laundering, false statements to Federal agents, or aiding and abetting. Collectively, the
above defendants were sentenced to more than 26 years incarceration, 37 years
probation, and 1,000 hours
community service; fined
$15,000; and ordered to
pay numerous financial
institutions more than $1.4
million and 16 victims
$68,858 in restitution.
Changasie was also ordered
deported to South America
after completion of his
prison term. The above
defendants and others
purchased and flipped
more than 70 HUD REO
properties and assisted
unqualified borrowers in
obtaining FHA-insured
mortgages valued in excess                          Copyright, 2006. The Republican - Springfield, MA.
                                                                               Reprinted wit permission.

18                                                          HUD’s Single-Family Housing Programs
of $5.9 million by processing fraudulent loans containing false information and
documentation. HUD realized losses of $834,795 after 31 mortgages defaulted.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Naomi LaBrie, formerly doing business as Rehablers, Inc., was sentenced in U.S.
District Court, Kansas City, KS, to 4 months incarceration, 4 months home detention,
and 12 months supervised release and ordered to pay HUD $500,893 in restitution for
her earlier guilty plea to bank fraud. LaBrie purchased distressed properties,
fabricated property rehabilitation, and provided fraudulent documents to assist
unqualified borrowers in obtaining FHA-insured mortgages. HUD realized losses of
$688,770 after 20 mortgages defaulted.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Sharon Blake, a former loan processor at Sunset Mortgage Company, and real
estate speculators Earl Ginter, Ronald Fruth, and David Walsh were sentenced in U.S.
District Court, Harrisburg, PA, for their earlier guilty pleas to false statements and
aiding and abetting. Blake was sentenced to 12 months confinement and Ginter, Fruth,
and Walsh were each sentenced to 24 months supervised probation and ordered to
pay HUD $511,253 in restitution, jointly and severally. In addition, Deborah Black, the
former branch manager and loan officer at Sunset Mortgage Company, was charged in
an information with false statements and aiding and abetting. Blake originated 40
fraudulent FHA-insured mortgages valued at $1.2 million, knowing that Ginter, Fruth,
and Walsh provided downpayment funds or paid delinquent debts for the
borrowers. Black allegedly conspired with the above defendants and provided
borrowers with fictitious gift letters used to obtain FHA-insured mortgages. HUD
realized losses of $511,253 after 10 mortgages defaulted.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Jean Lindor, a former loan consultant and employee of American Redevelopment
Corp, was sentenced in U.S. District Court, Miami, FL, to 6 months home detention
and 3 years probation, fined $10,000, and ordered to pay HUD $180,929 in restitution
for his earlier conviction of conspiracy. From 1997 through 1999, Lindor conspired
with others to create fictitious documents and provide downpayment funds for
unqualified borrowers obtaining FHA-insured mortgages. HUD realized losses of about
$443,000 after 17 mortgages defaulted.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Mario Izquiero, an assistant loan officer at First Capital Mortgage and Pacific
Network Funding, was sentenced in U.S. District Court, Los Angeles, CA, to 6 months
home detention and 3 years probation and ordered to pay HUD $313,340 in restitution
for his earlier conviction of false statements. Izquiero purchased false employment
documents from previously convicted Maggie Cuevas to assist unqualified borrowers
in obtaining FHA-insured mortgages. HUD realized losses of $441,556 after 14
mortgages defaulted.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


HUD’s Single-Family Housing Programs                                                 19
    Straw buyers John and Caridad Prados were each indicted in U.S. District Court,
Newark, NJ, for conspiracy to defraud HUD for using a false SSN to secure an FHA-
insured loan. In addition, former AMS Mortgage loan officer Kenneth DiPrenda and
former Weichart realtor Mario Mendoza, both previously sentenced for their earlier
guilty pleas to conspiracy to submit false statements to HUD, were each debarred from
procurement and nonprocurement transactions with HUD and throughout the
Executive Branch of the Federal Government for a period of 3 years. John and Caridad
Prados allegedly assisted DiPrenda, Mendoza, and others in recruiting and assisting
unqualified borrowers in obtaining FHA-insured mortgages by submitting fraudulent
employment, identity, and other loan documentation. HUD realized losses in excess of
$349,000 after 12 mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    George W. McRee, a mortgage broker at Mortgageworks, Inc.; Martin Rosenthal, a
recruiter for RETI Relocation Services; straw borrowers John O. Bello and Karen
Beckmann; and William Russell Chavis each pled guilty in U.S. District Court,
Atlanta, GA, to conspiracy, wire fraud, false statements to a lending institution, or bank
fraud. Straw borrower Reginald L. Kemp was sentenced to 57 months confinement and
ordered to pay Radian Group, Inc., and Amtrust Mortgage Corporation $475,361 in
restitution for his earlier guilty plea to conspiracy, bank fraud, and money laundering.
The above defendants and others created and submitted false documents to obtain 98
mortgage loans valued at more than $20 million. HUD realized losses of $300,000 after
two FHA-insured loans defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Winston Shillingford, the former president of now-defunct First Funding
Mortgage Bankers, pled guilty to Federal income tax evasion in an information filed in
U.S. District Court, Brooklyn, NY. From 2000 through 2003, Shillingford obtained
more than $300,000 from sales proceeds on FHA-insured flipped properties originated
by First Funding Mortgage Bankers, then failed to report the $300,000 on his Federal
income tax returns.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Barbara Stevenson, a former realtor with IE Investments, Inc., was sentenced in U.S.
District Court, Riverside, CA, to 6 months supervised probation and 1 month home
detention and ordered to pay HUD $33,317 in restitution for her previous guilty plea to
false statements to HUD. Stevenson assisted unqualified borrowers in obtaining
FHA-insured mortgages by providing false or forged loan applications, verifications of
employment, and other documents. HUD realized losses of $246,798 after nine
mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Straw buyers Dennis LeBlanc, Dennis Addison, and Timothy Falls each pled guilty
to making false statements to HUD or aiding and abetting in informations filed in U.S.



20                                                     HUD’s Single-Family Housing Programs
District Court, New Orleans, LA. LeBlanc,
Addison, and Falls provided false information
and inflated appraisals to obtain and later
default on FHA-insured mortgages. HUD
realized losses in excess of $159,800.

         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Frank Pepe, a former AMS Mortgage loan
officer previously sentenced for his earlier
guilty plea in U.S. District Court, Trenton, NJ,
to conspiracy to commit false statements,
was debarred from procurement and
nonprocurement transactions with HUD and
throughout the Executive Branch of the
Federal Government for 19 months. Pepe
purchased, appraised, and flipped
approximately 31 properties and then
conspired with previously sentenced American
Home Loans branch manager/loan officer Kim
Sammartano to create and submit fraudulent
income, employment, and other documents for
unqualified borrowers obtaining FHA-insured
mortgages. HUD realized losses of $145,712                 Copyright, 2006. The Times-Picayune - New
after 18 mortgages defaulted.                                 Orleans, LA. Reprinted with permission.

                                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    James Galloway, a real estate broker at Colorado Classic Properties, was sentenced
in U.S. District Court, Denver, CO, to 12 months and 1 day imprisonment and 36 months
supervised release and ordered to pay HUD $29,359 in restitution for his earlier
conviction of conspiracy, wire fraud, false statements, and misuse of an SSN. Galloway
and others submitted or caused the submission of fraudulent FHA loan files, allowing
unqualified borrowers to obtain FHA-insured mortgages. HUD realized losses of
$94,048 after three mortgages defaulted.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Katrina Arrington and John Kurzel, former loan processors at now-defunct N.J.
Affordable Homes (NJAH); Michael Meehan, a real estate appraiser retained by NJAH;
and Lucesita Santiago, a former investment account manager at NJAH and Woodbridge
Township Housing Authority (WTHA) public housing tenant, each pled guilty in U.S.
District Court, Newark, NJ, to conspiracy to commit wire fraud, conspiracy to create
and submit fraudulent loan documents, or submitting fraudulent claims for HUD rent
reduction subsidies. Arrington and Santiago created fictitious account statements for
use in qualifying borrowers obtaining FHA-insured or conventional mortgages; Kurzel
used the fraudulent investor account statements provided by Santiago to qualify
borrowers obtaining FHA-insured and conventional mortgage loans; Meehan appraised
nominee properties at inflated values, included substantial but fictitious improvements


HUD’s Single-Family Housing Programs                                                              21
in the appraisal documents, then submitted the false appraisals, allowing borrowers to
secure FHA-insured or conventional mortgages; and Santiago failed to report the
income she received for creating fabricated account statements on annual WTHA
certifications and obtained $73,177 in WTHA housing assistance she was not entitled
to receive. HUD losses relating to defaulted FHA-insured mortgages have not yet been
determined.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Shaian Birashk, owner of Global One Mortgage, Inc., was sentenced in U.S. District
Court, Denver, CO, to 36 months probation and ordered to refrain from employment
in the real estate or mortgage industry for his earlier guilty plea to wire fraud. Birashk
and previously indicted or sentenced Farid Bayot; Mehdi "Tim" Ghaemi, owner of Arborz
Real Estate Company; and Hamidullah Sarwary, a former Littleton Housing Authority
(LHA) Section 8 tenant, allegedly conspired to assist Sarwary in obtaining an FHA-
insured mortgage and concealing his property ownership from LHA. HUD realized a
loss of $46,988 after Sarwary defaulted on his FHA-insured mortgage and $3,760 in
LHA housing assistance Sarwary obtained but was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    John Acevedo, a real estate agent at Exclusive Rights Realty, was sentenced in U.S.
District Court, Los Angeles, CA, to 4 months incarceration, 4 months home
detention, and 36 months probation and ordered to pay HUD $41,199 in restitution for
his earlier conviction of wire fraud, conspiracy to commit wire fraud, and aiding and
abetting. Acevedo and others recruited straw buyers, provided downpayment funds,
and obtained fraudulent documents to assist unqualified borrowers in obtaining
FHA-insured mortgages. HUD realized losses of $31,636 after 15 mortgages defaulted.

Identity Fraud and False Social Security Numbers
    Real estate investor Rito Miguel Diaz, Jr., also known as Mike Diaz, and his parents,
Rosemary and Rito Miguel Diaz, Sr., licensed and unlicensed real estate agents at
Familia Realty, Realty World, or Network Realty, were each indicted in U.S.
District Court, Los Angeles, CA, for mail fraud and aiding and abetting. From
September 1998 to January 2002, Mike, Rosemary, and Rito Diaz, Sr., allegedly
provided or created false identification, employment, credit, and other information to
assist unqualified borrowers in obtaining FHA-insured loans. HUD realized losses
exceeding $900,000 after 18 mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Twenty-two undocumented immigrants and former FHA-insured mortgagors were
indicted in Dallas County Judicial District Court, Dallas, TX, for securing execution of
a document by deception. The above defendants allegedly used false SSNs and other
documents to obtain and later default on FHA-insured mortgage loans. In addition,
Martin Cuenca, an undocumented immigrant, was sentenced in U.S. District Court to
36 months probation and ordered to pay HUD $13,151 in restitution for his earlier guilty



22                                                     HUD’s Single-Family Housing Programs
plea to misuse of an SSN. Cuenca used a false SSN and other fraudulent documents to
obtain and later default on an FHA-insured mortgage. Collectively, the above
defendants caused HUD losses in excess of $647,000 after 19 mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Eight undocumented immigrants pled guilty in Johnson County Court, Johnson
County, KS, to making a false writing. The defendants were each sentenced to 5 months
incarceration and 18 months probation and ordered to refinance or eliminate their
FHA-insured mortgages to eradicate approximately $552,000 in FHA-insured
mortgages considered at risk. The above defendants fraudulently obtained
FHA-insured mortgages using false SSNs through an unidentified loan officer.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Jose Antonio Caballero, owner of American International Finance and Mortgage
Services, Inc., pled guilty in U.S. District Court, Dallas, TX, to making a false statement
and agreed to pay HUD $119,520 in restitution prior to his sentencing. Caballero failed
to claim a prior felony conviction on his HUD FHA lender application and provided
undocumented immigrants with false SSNs or Internal Revenue Service employment
identifications, allowing the unqualified applicants to obtain FHA-insured mortgages.
HUD realized losses of approximately $400,000 after 11 mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Lesly Bardales, a self-employed tax preparer, was sentenced in U.S. District Court,
Los Angeles, CA, to 6 months incarceration and 3 years supervised release and ordered
to pay HUD $265,809 in restitution for her previous guilty plea to mail fraud and
unlawful transfer of Social Security cards. Bardales and previously convicted
conspirators Catherine Diaz and Dalila Moreno created and submitted fraudulent loan
documents for unqualified borrowers, obtaining more than 100 FHA-insured
mortgages valued in excess of $1.3 million. HUD realized losses of $135,899 after eight
mortgages defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Louis Ramon Luevano, also known as Ray Luevano, a real estate broker at Harvest
Realty in Denver, CO, and five FHA-insured mortgagors were arrested after criminal
complaints were filed in Colorado District Court, Brighton, CO, charging them with
theft, computer crimes, attempting to influence a public servant, forgery, criminal
impersonation, or offering a false instrument for recording. The above defendants
allegedly provided fraudulent SSNs to obtain and later default on FHA-insured
mortgages, causing HUD losses in excess of $120,000.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Ignacio Juan Jasso, a real estate broker and former loan officer at JR Mortgage, was
indicted in U.S. District Court, Dallas, TX, for false Federal credit institution entries,
reports, and transactions. Jasso allegedly provided or used false SSNs or loan


HUD’s Single-Family Housing Programs                                                    23
documents to assist unqualified undocumented immigrants and others in obtaining
FHA-insured mortgages. HUD realized losses of $77,116 after four mortgages defaulted.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Rudean Cooper pled guilty in Montgomery County Circuit Court, Rockville, MD,
to identity theft. Cooper used the SSN of another to obtain and later default on an
FHA-insured mortgage, causing a HUD loss of $58,742.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Sergio Manuel Torres-Rodriguez was sentenced in U.S. District Court, Athens, GA,
to 12 months and 1 day incarceration for his earlier guilty plea to false statements. Torres-
Rodriguez used the identity of another to obtain and later default on an FHA-insured
mortgage, causing a HUD loss of $40,376.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Real estate speculator Willie Bynum was sentenced in U.S. District Court,
Norfolk, VA, to 4 years probation and 6 months home confinement and ordered to pay
HUD $11,413 in restitution for his earlier guilty plea to conspiracy to make false
statements to HUD. Bynum used a false SSN and employment, income, and credit
information to obtain FHA-insured mortgages on investment or owner-occupied
properties for himself and other unqualified borrowers. HUD realized a loss of $25,000.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Fifteen FHA mortgagors were arrested after criminal complaints were filed in
Colorado State District Court, Golden, CO, charging them with forgery, criminal
impersonation, or offering a false instrument for recording; Maria De Los Angeles
Mendez was arrested in New Mexico after failing to appear. Five of the above
defendants pled guilty to forgery and were each sentenced to 3 years incarceration and
3 years probation. The above defendants allegedly provided fraudulent SSNs or other
forged documents to obtain and later default on FHA-insured mortgages. HUD losses
have not yet been determined.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Francina Valadez, a former loan officer with Visalia Community Bank, and Mari
Oregon, a former realtor with 21 Arrow Realty, each pled "nolo contendere" in Tulare
County Superior Court, Visalia, CA, to false financial statements. Elizabeth del Valle,
Oregon's assistant, was sentenced to 30 days incarceration and 60 months probation
for her earlier conviction of grand theft. From December 2003 to April 2004, Valadez,
Oregon, and del Valle allegedly used fictitious names and SSNs to assist unqualified
borrowers in obtaining FHA-insured mortgages. HUD losses have not yet been
determined.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




24                                                      HUD’s Single-Family Housing Programs
    Alberto and Mabel Gutierrez were arrested after their indictments in U.S. District
Court, Harrison, VA, for making false statements to HUD, misuse of an SSN, and
identity theft. Alberto and Mabel Gutierrez, undocumented immigrants, allegedly used
false SSNs and Immigration and Naturalization resident alien cards to obtain and later
refinance an FHA-insured mortgage.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Dolores Monger was charged in General District Court, Virginia Beach, VA, with
identity fraud and false statements to obtain property or credit. Monger allegedly
assumed the identity of her minor daughter and obtained and later defaulted on an
FHA-insured mortgage. HUD realized no loss when the property was resold.

Bankruptcy Fraud
    Richard Leroy Davis, owner of Foreclosure and Tenant Company Association, was
sentenced in U.S. District Court, Detroit, MI, to 37 months incarceration and ordered
to pay various victims $34,000 for his earlier guilty plea to mail fraud. Davis and
previously convicted conspirators Chris Thomas and Milton Goddard acquired partial
ownership in 600 distressed properties including 120 properties with FHA-insured
mortgages, filed fraudulent bankruptcies to forestall foreclosure proceedings, then
skimmed property equity by diverting monthly payments. HUD realized losses
approximating $2 million after 100 mortgages defaulted.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Mark Neusch and Michael Davis, former owners of M&M Properties; Greg Colledge,
former owner of G&KC Properties, LLC; and Donald Kingston, former owner of DBK
Properties, were each sentenced in U.S. District Court, Salt Lake City, UT, for their
earlier guilty pleas to false bankruptcy declarations, equity skimming, and bankruptcy
fraud. Collectively, the above defendants were sentenced to 33 months incarceration
and 72 months supervised release and ordered to pay HUD $241,789 in restitution.
Neusch, Davis, Colledge, and Kingston obtained quit claim deeds from distressed
homeowners, leased the properties but failed to pay the property mortgage loans, then
filed fraudulent bankruptcies to impede foreclosure proceedings. HUD realized losses
of $936,704 after eight mortgages defaulted.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Donna Renae Woods Lawrence Willis, the former president of Assurety Mortgage
Group, Inc., was arrested after her indictment in U.S. District Court, Atlanta, GA, for
bank fraud, bankruptcy fraud, conspiracy, or witness tampering. Kerwanna Lashon
Bennet Woods, a former loan processor at Assurety Mortgage Group, Inc., and straw
buyer Gwendolyn Reshell Woods each pled guilty to conspiracy or false bankruptcy
declaration. Willis allegedly used a stolen SSN and obtained HUD approval to
originate FHA-insured loans through Assurety Mortgage Group, Inc., fraudulently
eliminated the security interest of prior lenders and received proceeds from multiple
loans on the same properties, then filed five fraudulent bankruptcy petitions to delay



HUD’s Single-Family Housing Programs                                                25
lender foreclosures. Kerwanna and Gwendolyn Woods assisted Willis in filing false
bankruptcies and creating false identities for FHA-insured mortgages. HUD realized
losses greater than $330,000 after five
mortgages defaulted.

         ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


John Cash, also known as Dr. Typon Ra or Baba
Ankh, doing business as Lakeshore Group
Investments, Inc., pled guilty in U.S. District
Court, Chicago, IL, to bankruptcy and wire and
mail fraud. Cash provided false information to
30 FHA-insured, U.S. Department of Veterans
Affairs (VA)-guaranteed, or conventional
mortgagors facing foreclosure; collected $3,500
in upfront fees from each distressed
homeowner; withheld $190,000 in mortgage
loan payments from the bankruptcy court
trustee, lenders, or other creditors; triggered
five FHA-insured, one VA guaranteed, and 24
conventional mortgages to default; and caused
HUD losses of approximately $150,000.                       Copyright, 2006. The Chicago Sun-Times -
                                                              Chicago, IL. Reprinted with permission.
                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Ali Abdul Karim Farhat, Abdulamir Berro, Sami Ahmad Berro, Amira Farhat, Abdul
Karim Akram Berro, and Lina Reda, also known as Lina Berro, were each sentenced in
U.S. District Court, Detroit, MI, for their earlier guilty pleas to conspiracy to violate
the Racketeer Influenced and Corrupt Organization Act, bank fraud, false statements,
or mail fraud. Collectively, the above defendants were sentenced to 29 years
incarceration, 12 years supervised release, and 12 months probation; fined $4,000; and
ordered to perform 200 hours community service, forfeit a business and $72,621 in
cash, and pay Citibank and other credit card companies $823,654 in restitution. The
above defendants engaged in fraudulent credit card transactions, concealed assets in
bankruptcy filings, and obtained three FHA-insured mortgages totaling $368,000 by
submitting false documentation.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Bankruptcy attorneys Edward Varga, Norton Helton, and Lorrie Westerfield and
Wall Street mortgage broker Charlotte Schuett were indicted in U.S. District Court,
Chicago, IL, on multiple counts of bankruptcy fraud, destruction, alteration or
falsification of records in bankruptcy, and mail fraud. Schuett allegedly paid straw
buyers $5,000 to purchased FHA-insured and other distressed properties through
identity-of-interest companies, while Varga, Helton, and Westerfield allegedly filed
Chapter 7 bankruptcy petitions in lieu of Chapter 13 petitions on behalf of the
debtors, withheld property sales information from the bankruptcy court, leased the
properties back to the debtors at inflated rents, and stripped the debtors of property



26                                                      HUD’s Single-Family Housing Programs
                             Copyright, 2006. The Chicago Tribune - Chicago, IL. Reprinted with permission.


ownership and equity. Approximately 10 FHA-insured properties defaulted, but HUD
realized no loss since the FHA loans were cleared after the properties were sold to straw
buyers.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Mordecai Smith, the former chief financial officer of Virginia Beach Public Schools,
was sentenced in U.S. District Court, Norfolk, VA, to 64 months incarceration for his
earlier guilty plea to bankruptcy fraud, aggravated identity theft, and wire fraud. Smith
duped an individual into investing $27,000 for an appraisal and downpayment on a
multifamily Section 8 apartment complex, fraudulently used the SSN of another
person to obtain a conventional mortgage, and filed eight bankruptcies to forestall
foreclosure proceedings against his personal residence.

Other Single-Family Fraud
    Dawn Raimo-Whitemiller, an insurance broker at Raimo Insurance, pled guilty in
U.S. District Court, Chicago, IL, to wire fraud. Steven Lucas, the former sales
coordinator for Dollars Express (DE), an FHA 203K general contractor, and DE office
manager Robert Bronke were each sentenced to 3 years probation and ordered to pay
First Tennessee Bank $349,000 in restitution for their earlier guilty pleas to wire fraud.
The above defendants and others defrauded HUD and First Tennessee Bank by
recruiting straw buyers and falsifying completed work orders to facilitate the release of
contracting escrow funds on more than 70 FHA-insured 203K mortgaged properties.
HUD realized losses in excess of $4.1 million.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    In Buffalo, NY, Washington Mutual Home Loans agreed to pay HUD $363,917 for
violating the terms of its 2001 civil settlement agreement. Washington Mutual Home
Loans submitted seven FHA-insured mortgage claims on loans previously indemnified
causing HUD losses of $264,917.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




HUD’s Single-Family Housing Programs                                                                    27
    Anthony James, a former loan officer at Park Place Mortgage and Top Elite
Financial, pled guilty in Wayne County Circuit Court, Detroit, MI, to false pretenses
greater than $20,000. James personally closed four FHA reverse equity loans of
elderly recipients and retained approximately $209,000 of the loan proceeds.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Stephen White, a school teacher in Long Beach, CA, entered into a civil settlement
agreement with the United States Attorney's Office, Los Angeles, CA, and agreed to
repay HUD $60,000. White purchased a HUD-owned property through the Officer/
Teacher Next Door program (O/TND), falsely certified his residency at the property
and leased the property before reselling the property and realizing a substantial profit.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     John Henry Davis, a licensed real estate agent and lieutenant at Ironwood State
Prison in Blythe, CA, was sentenced in U.S. District Court, Los Angeles, CA, to 5 years
probation and 6 months home confinement, fined $10,000, and ordered to pay trial
expenses for his earlier conviction for attempting to corruptly influence a witness. Davis
hid his nonresidency at the O/TND property and attempted to influence the testimony
of a witness/tenant.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Lamont Harris, a former Norfolk public schools guidance counselor, pled guilty in
U.S. District Court, Norfolk, VA, to making false statements to HUD. Harris
purchased a HUD-owned property through the O/TND program, renovated and leased
the property to others, then falsely certified that the O/TND property was his sole and
principal residence.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Francisco S. Renteria, a former U.S. Border Patrol agent and current Immigration
and Customs Enforcement (ICE) supervisory immigration officer, was indicted in U.S.
District Court, El Paso, TX, for false statements to HUD. Renteria allegedly falsified
his HUD Good Neighbor Next Door (GNND) program application and annual
certifications by failing to claim previously owned residential properties or actual
residency in the GNND property. HUD realized a loss of approximately $57,000.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Real estate consultant Donovan Gilpin, doing business as Pre Amble Properties,
and realtor Rohan A. Johnson, also known as Ato Ra Ajah El, each pled guilty in U.S.
District Court, Central Islip, NY, to theft of government property or conspiracy to
commit mail fraud and convert and convey property owned by HUD without
authority. Gilpin and Johnson, members of an antigovernment Moorish rights group,
filed fraudulent real estate deeds transferring the ownership of three HUD-owned, one
VA-owned, and one bank-owned property to Pre Amble Properties; illegally resided in
two HUD properties; then sold the bank property to an unsuspecting buyer and


28                                                     HUD’s Single-Family Housing Programs
attempted to sell a HUD- and VA-owned property to undercover operatives for
$550,000. The fraudulent deeds prevented HUD from selling its properties to
legitimate buyers and banks from deeding foreclosed properties to HUD.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Nadine Sackor, also known as Nadine Taylor, a former loan officer at USA Home
Mortgage Corporation, was indicted in Cook County Circuit Court, Chicago, IL, for
theft and forgery. Sackor allegedly collected and retained $280,000 in loan origination
fees earmarked for her employer, then used more than $50,000 of the stolen funds to
purchase at least three HUD REO properties.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Byron Fitchpatrick, owner of ABS Rentals, was sentenced in U.S. District Court,
Wichita, KS, to 60 months incarceration and 36 months supervised release, fined $1,000,
and issued a permanent government-wide debarment for his earlier guilty plea to
conspiracy to commit fraud against HUD. Fitchpatrick used proceeds from illicit drug
sales to purchase HUD-owned properties as an owner/occupant through previously
indicted conspirators Shatanya Fitchpatrick (also known as Shatanya Douglas), Manjur
Alam, Kathleen Fitchpatrick, Deverell Jones, or Demond Reed, then stored illegal drugs
at the homes prior to renting or reselling the properties.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Kweku Fortune was sentenced in Kings County State Court, Brooklyn, NY, to 172
months incarceration, fined $45,000, and ordered to pay the State of New York $45,000
in restitution for his earlier conviction of grand larceny. Fortune, impersonating a HUD-
approved real estate broker, attempted to sell HUD-owned and other properties, then
retained $55,000 of prospective buyers' downpayments.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Real estate investor Dariusz Przybylek and former HUD-approved appraiser Erwin
Espe each pled guilty in U.S. District Court, Chicago, IL, to wire fraud. Przybylek
attempted to use a straw buyer to purchase a HUD-owned property for 150 percent of
the HUD-appraised value by submitting an inflated appraisal, fraudulent contractor
affidavits, and false loan documents in an effort to facilitate his receipt of $113,000 for
property rehabilitation through a straw contractor; Espe provided the fraudulent
appraisal for Przybylek.




HUD’s Single-Family Housing Programs                                                    29
       Chapter 2




HUD’s Public and Indian
  Housing Programs
    The U.S. Department of Housing and Urban Development (HUD) provides grants
and subsidies to 2,637 public housing agencies (PHA) nationwide. Many PHAs
administer both public housing and Section 8 programs. HUD also provides assistance
directly to PHAs' resident organizations to encourage increased resident management
entities and resident skills programs. Programs administered by PHAs are designed to
enable low-income families, the elderly, and persons with disabilities to obtain and
reside in housing that is safe, decent, sanitary, and in good repair. (see chapter 8,
page 128)

Audits

            Strategic Initiative 2: Contribute to the Reduction of Erroneous
                              Payments in Rental Assistance
     Key Program Results              Questioned Costs              Funds Put to Better Use
Audit           29 Audits                 $12.8 Million                   $42 Million
                  page 33        - Low Income Housing Tax Credit

  Our             page 33        - Section 8 Housing Choice Voucher Program Activities at
 Focus                              PHAs
                  page 37        - Public Housing Program Activities




       Chart 3.1: Percentage of OIG Public and Indian Housing Audit Reports
                            During this Repoting Period
                                                                                          Region 1
                                                                                         Boston 3%

                                                 Region 5               Region 2
                                                Chicago 17%           New York 3%
                          Region 7-8
                        Kansas City 14%




                                                                                        Region 3
                                                                                    Philadelphia 14%




        Region 9-10                                                         Region 4
      Los Angeles 17%                                                      Atlanta 10%
                                                     Region 6
                                                 Fort Worth 22%




32                                                        HUD’s Public and Indian Housing Programs
Low-Income Housing Tax Credit
     HUD OIG audited HUD's Office of Public and Indian Housing, Washington, DC,
as a followup to previous OIG audit work at a public housing agency, which noted that
low-income housing tax credit projects charged higher rents to tenant-based housing
choice voucher households than to tenants without vouchers. The rents charged for
voucher households also exceeded the rent restrictions established by the Internal
Revenue Service (IRS) for these tax credit projects.

    Consistent with program regulations, HUD allows tax credit project owners to
charge the Housing Choice Voucher program more than $13.5 million annually for rents
that exceed the IRS maximum rent when they lease rent-restricted units to households
with tenant-based housing choice vouchers. However, the same units would be
available to the same households at the lower, IRS-restricted rent if the households had
no vouchers.

    OIG recommended that, for tenant-based vouchers used for units in tax credit
projects that have all of their units rent restricted, HUD change its regulations to cap
Section 8 gross rents to the IRS-restricted rent level that applies set-aside for
households qualifying in the 60 percent area median gross income level. OIG also
recommended that HUD track the overlap of these two affordable housing programs
by capturing the tax credit status of voucher units in its tenant record database.
(Audit Report: 2007-LA-0001)

Section 8 Housing Choice Voucher Program Activities at
PHAs
    Audits of the Section 8 Housing Choice Voucher program were a priority during
this semiannual reporting period. In HUD's fiscal year (FY) 2006 appropriation, the
Congress directed OIG to increase its audit and investigative efforts related to public
housing agencies' administration of this program. Public housing agencies were
selected for audit based on risk analysis and/or hotline complaints. While OIG's
objectives varied by auditee, the majority of the reviews were to determine whether the
units met housing quality standards, whether the PHA managed the program
according to HUD requirements, and whether the eligibility of the tenants was
correctly determined. The following section illustrates the audits conducted in the
Section 8 Housing Choice Voucher program area.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Housing Authority of the Birmingham District's,
Birmingham, AL, Section 8 Housing Choice Voucher program. Of 66 units inspected,
58 did not meet HUD's housing quality standards, and 38 were in material
noncompliance. As a result, tenants lived in units that were not decent, safe, and
sanitary, and that the Authority made housing assistance payments for units that did
not meet standards. Over the next year, the Authority could make housing assistance
payments of more than $10.4 million for units in material noncompliance with housing
quality standards if it does not implement adequate controls.

HUD’s Public and Indian Housing Programs                                             33
    OIG recommended that HUD require the Authority to inspect the 58 units that
did not meet housing quality standards to verify that the owners took appropriate
corrective action; if appropriate actions were not taken, the Authority should abate
the rents or terminate the housing assistance payments contracts. HUD should also
require the Authority to implement internal controls, policies, and procedures to
ensure that units meet housing quality standards and inspections meet HUD
requirements and to develop and implement quality control inspection procedures.
(Audit Report: 2007-AT-1001)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Puerto Rico Department of Housing's, San Juan, PR,
Section 8 Housing Choice Voucher program. Of 66 units inspected, 63 did not meet
minimum housing quality standards, and 23 were in material noncompliance. As a
result, Section 8 program funds were not used efficiently and effectively to provide
units that were decent, safe, and sanitary; and the authority made housing assistance
payments for units that did not meet standards. The authority also overhoused 29
tenants and miscalculated Section 8 assistance.

    OIG recommended that HUD require the authority to inspect all of the units that
did not meet minimum housing quality standards to verify that the landlords took
appropriate corrective actions. If appropriate actions were not taken, the authority
should abate the rents or terminate the tenants' vouchers. In addition, HUD should
require the authority to establish and implement controls to ensure that it follows HUD
requirements so that assistance payments are correct and to prevent an estimated $2.6
million from being spent on units that are in material noncompliance with standards.
(Audit Report: 2007-AT-1005)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Columbus Metropolitan Housing Authority's, Columbus,
OH, Section 8 Housing Choice Voucher program. In administering its Section 8
Project-Based Voucher program, the Authority did not perform environmental reviews,
rent reasonableness determinations, and housing quality standards inspections before
executing housing assistance payments contracts. It paid housing assistance for units
not under housing assistance payments contracts, underpaid housing assistance for
program households, issued duplicate housing assistance payments for three units, and
did not use the proper HUD form to execute housing assistance payments contracts.

    Regarding its Family Self-Sufficiency program, the Authority paid more than
$431,000 in escrow payments to households contrary to Federal requirements. It failed
to complete required forms, include individual training and service plans in the
contract of participation, ensure that participants sought and maintained suitable
employment, ensure that participants identified and met interim goals, ensure that
participants met interim goals before being issued early escrow payments, offer
supportive services, and require participants to meet regularly to ensure that they met
interim and final goals and properly changed goals.




34                                                HUD’s Public and Indian Housing Programs
    The Authority failed to remove from its program households that did not receive
housing assistance payments for 180 days or more and made payments after
households should have been terminated. It did not follow its program administrative
plan regarding households with zero income, which required it to reverify zero-income
households every 180 days. It also did not follow HUD's requirements concerning
special admissions, waiting list reinstatements, third-party verifications, and other
excluded sources of annual income and stated that it would pay owners a household's
portion of unpaid rent.

   OIG recommended that HUD require the Authority to reimburse its program from
nonfederal funds for the improper use of funds, reimburse its Family Self-Sufficiency
program from nonfederal funds for its improper use of contract and program funds,
provide support or reimburse its program from nonfederal funds for the unsupported
housing assistance payments, and implement adequate procedures and controls to
address the issues identified. (Audit Report: 2007-CH-1004)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Housing Authority of the City
of Evansville's, Evansville, IN, Section 8 Housing Choice
Voucher program.

    Of 63 housing units inspected, 48 did not meet HUD's
housing quality standards, and 44 had 230 violations that
existed at the time of the Authority's previous inspections.
Of the 68 household files reviewed, 20 did not contain the
proper documentation to support the Authority's
payment of housing assistance and utility allowances. In
addition, the Authority did not abate 5 of the 25 program
units that failed an annual housing quality standards
inspection and reinspection(s) between January and June
2006 and did not ensure that 138 of the 320 unit
reinspections were performed in a timely manner. It also
allowed four household members to be claimed as
household dependents under both its Section 8 and
public housing programs.

    OIG recommended that HUD require the Authority
to reimburse its program from nonfederal funds for the
improper use of program funds, provide support or
reimburse its program from nonfederal funds for the
unsupported housing assistance and utility allowance
payments and related administrative fees, and implement
adequate procedures and controls to address the issues
identified. These procedures and controls should help             Copyright, 2007. Evansville
                                                                          Courier & Press -
ensure that more than $1.5 million in program funds
                                                                              Evansville, IN.
is spent on payments that meet HUD's requirements.                Reprinted with permission.
(Audit Report: 2007-CH-1003)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○

HUD’s Public and Indian Housing Programs                                                  35
     HUD OIG reviewed the Housing Authority of the County of Santa Clara's, Santa
Clara, CA, Section 8 rent reasonableness determinations for its Section 8 Housing Choice
Voucher program. The Authority did not determine that rents charged to individuals
receiving Section 8 housing assistance were reasonable. Further, it did not administer
the rent reasonableness determinations in accordance with HUD rules and regulations
or its HUD-approved administrative plan.

    OIG recommended that HUD require the Authority to establish adequate
controls and procedures to ensure that it makes Section 8 housing assistance payments
based on reasonable rent determinations, establish and implement policies and
procedures to ensure that Authority specialists have information needed to determine
reasonable rents, and support or reimburse HUD for more than $17,000 in questioned
housing assistance payments. In addition, OIG recommended that HUD recapture
$1.36 million of the administrative fees earned during the audit period for not
performing rent reasonableness in accordance with HUD rules and regulations. (Audit
Report: 2007-LA-1006)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   HUD OIG audited the Lubbock Housing Authority's, Lubbock, TX, Section 8
Housing Choice Voucher program. Of the 61 units inspected, 47 failed inspections,
and 30 were materially noncompliant with housing quality standards. As a result, the
Authority housed families in units that were not decent, safe, and sanitary. If the
Authority does not implement effective management and controls, it could spend more
than $1.2 million in the next 12 months on the estimated 266 units expected to be
materially noncompliant with HUD's housing quality standards.

    OIG recommended that HUD require the Authority to ensure that all 47 units meet
housing quality standards and to implement procedures and controls over its Section 8
inspection process to ensure that all of its units meet housing quality standards.
(Audit Report: 2007-FW-1001)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Housing Authority of Bexar County's, Bexar County, TX,
Section 8 Housing Choice Voucher program. The Authority accurately calculated
assistance and correctly applied its subsidy standards in 151 of 224 vouchers reviewed.
However, it paid excessive assistance on 61 vouchers. For the remaining 12 vouchers,
the Authority incorrectly applied its subsidy standards but did not pay excessive
assistance because the contract rent was below the payment standard applied. In
addition, due to excessive assistance payments during 3 months in 2004 that were used
as the baseline for calculating the 2006 budget and maximum funding, HUD overfunded
the Authority's FY 2006 program budget.

    OIG recommended that HUD require the Authority to (1) correct voucher sizes
and/or payment standards on the 61 vouchers with excessive assistance and repay HUD
for the excessive assistance of almost $108,000 paid through June 30, 2006, and (2)
implement procedures to ensure that it correctly assigns voucher sizes and calculates
assistance using the correct payment standards on future vouchers. OIG estimates


36                                                HUD’s Public and Indian Housing Programs
that the Authority could avoid additional overpayments of almost $133,000 during the
next 3.7 years by implementing such procedures. Finally, OIG recommended that HUD
reduce the Authority's 2006 budget by more than $34,000 due to the excessive
payments during 2004 used as the baseline in the formula for calculating its budget
and funding. (Audit Report: 2007-FW-1005)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   HUD OIG audited the Housing Authority of the County of Contra Costa's,
Martinez, CA, administration of rent reasonableness determinations for units leased
under its Section 8 Housing Choice Voucher program.

    The Authority compared assisted units to units that were vastly dissimilar and,
therefore, provided no support for the contract rent. It did not consider important
factors that could affect the rental price, such as amenities, services provided, age of
units, and square footage. The forms used to document the rent reasonableness
determinations were often missing or incomplete and/or contained erroneous
information. The Authority also improperly used Federal funds to pay for housing
assistance overpayments caused by its delays in processing landlords' rent increase
requests and did not reimburse HUD for those improper payments.

    OIG recommended that HUD require the Authority to (1) support or reimburse
HUD almost $83,000 in unsupported housing assistance payments; (2) follow
HUD-approved policies and procedures when performing rent reasonableness
determinations and ensure that adequate quality control procedures are in place; (3)
reimburse HUD nearly $78,000 in administrative fees; (4) repay HUD more than $5,000
for subsidy overpayments resulting from processing delays; (5) repay additional
subsidies disbursed due to late processing of rent increases from July 1, 2005, to the
present; and (6) develop procedures that ensure the timely processing of rent increase
requests, prevent the use of Federal funds to pay for the Authority's errors or
omissions, and address repayment of funds to HUD for overpayments resulting from
the use of Federal funds to pay for errors or omissions. (Audit Report: 2007-LA-
1004)

Public Housing Program Activities
    HUD OIG audited the Utica Municipal Housing Authority, Utica, NY, to
determine whether the Authority (1) administered its HOPE VI grant program and
activities effectively, efficiently, and economically in accordance with grant agreements
and applicable rules and regulations, (2) complied with applicable procurement
requirements, (3) implemented sufficient disbursement controls over administrative
costs charged to the program, and (4) had a cost allocation plan to adequately account
for and distribute costs to the program.

     The Authority's HOPE VI program is not achieving vital revitalization objectives in
a timely manner or in accordance with program goals and requirements as specified in
its application, revitalization plan, and grant agreement. The Authority did not always
comply with applicable procurement policies for three professional services contracts
when (1) excessive fees were paid for application service, (2) a consulting contract was

HUD’s Public and Indian Housing Programs                                              37
improperly modified, and (3) administrative costs were charged to the program. In
addition, the Authority periodically allocated certain costs such as wages and fringe
benefits but neglected to allocate other indirect costs, and its allocation plan for wages
and fringe benefits was not adequately supported or detailed.

     OIG recommended that HUD instruct the Authority to implement procedures to
ensure that all collateral investments and in-kind services for the HOPE VI project are
documented and quantified, reevaluate the scope of its revitalization plan, and amend
the plan accordingly so that HUD can reassess whether the Authority is able to meet
its primary objective of revitalizing the project neighborhood known as Cornhill. Based
on this reassessment, HUD should determine whether the amended plan is effective
enough to ensure that the remaining $7.47 million in grant funds will be used efficiently.
If the Authority can only achieve certain objectives, HUD should consider reducing
the remaining amount of grant funds proportionately. HUD should also establish
controls to ensure compliance with all applicable Federal, State, and local
procurement policies and regulations; submit supporting documentation to justify all
unsupported costs, so that HUD can make an eligibility determination, and reimburse
the program from nonfederal funds all amounts determined to be ineligible; and
develop and implement a cost allocation plan or establish an indirect cost rate
proposal to ensure that all costs are properly allocated to the benefiting sources.
(Audit Report: 2007-NY-1001)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Montgomery County Housing Authority, Norristown, PA,
The audit objective was to evaluate whether the Authority properly used HUD funds
to purchase, renovate, and maintain its main administrative office. OIG also reviewed
the adequacy of the Authority's administration of its Section 8 Housing Choice Voucher
program.

    The Authority improperly acquired a $1.2 million loan, using HUD assets as
collateral, and improperly used HUD funds to pay the interest and principal on the
loan, which it used to renovate its main office building. It improperly used Public
Housing Homeownership program proceeds and capital funds to purchase, renovate,
and maintain its main office building, much of which either was vacant or the Authority
had been attempting to lease commercially for several years or had leased to the
Redevelopment Authority of Montgomery County. The Authority improperly used
Homeownership program proceeds to pay the utilities of the Redevelopment
Authority, which is a tenant in its building. The Authority's improper use of HUD
funds contributed to a significant increase in its operating expenses and caused it to
delay and cancel needed repairs at public housing units in Montgomery County.

    OIG recommended that HUD notify the Authority that it improperly encumbered
HUD assets and direct it to provide evidence that the financial instruments
encumbering the assets have been changed to exclude the assets and, thereby, put $1.1
million to better use. OIG further recommended that if the Authority does not
withdraw its encumbrances of HUD assets, it should be considered in substantial
default of its annual contributions contract. OIG also recommended that HUD
initiate appropriate sanctions against Authority officials responsible for encumbering

38                                                 HUD’s Public and Indian Housing Programs
                     Copyright, 2006. The Philadelphia Inquirer - Philadelphia, PA. Reprinted with permission.


HUD assets to secure a loan and require the Authority to properly support its use of
almost $976,000 in Homeownership program proceeds or repay the program
unsupported amounts from nonfederal funds, repay to the United States Treasury from
nonfederal funds more than $609,000 in ineligible capital funds, reimburse the
Homeownership program more than $9,000 for improperly paying its tenants' utility
bills, begin paying future debt service on the $1.2 million loan from nonfederal funds,
and provide adequate support for more than $119,000 in interest payments it made on
the loan or repay HUD any unsupported amounts. (Audit Report: 2007-PH-1002)

                                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited Oakland Housing Authority's, Oakland, CA, procurement and
contracting activities in response to a citizen's complaint. The objective was to
determine whether the Authority's procurement and contracting practices were in
compliance with Federal requirements.

   The Authority did not follow HUD's procurement requirements and its own
procurement policy when it awarded, renewed, amended, and made payments on
several legal service contracts. As a result, it made unsupported and excessive
payments totaling more than $2.3 million for these services.

    OIG recommended that HUD require the Authority to (1) provide support for
various expenditures charged for the program, (2) issue a new request for proposal for
eviction legal services to ensure that it obtains competitive prices for the service, (3)
revise its contract monitoring system to ensure that it only pays for goods and services
in accordance with contract terms and performs all future procurement actions in
accordance with applicable requirements, and (4) revise its Moving to Work
agreement so that it requires the Authority to obtain HUD's approval before
executing any professional service contracts and amendments totaling more than
$50,000 for a minimum of 1 year or until HUD is satisfied that the procurements and
contracts meet Federal requirements. (Audit Report: 2007-LA-1005)

                                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   HUD OIG audited the Housing Authority of the City of Wilmington, Wilmington,
NC, to determine whether it inappropriately used Federal funds to support other
programs or entities in violation of requirements.

HUD’s Public and Indian Housing Programs                                                                   39
    Authority management did not implement adequate internal controls to ensure
that program funds were used only for eligible program activities or that costs were
properly allocated and supported. Further, the Authority inappropriately used
operating subsidies to pay expenses of other Federal and nonfederal programs. In
addition, it could not support that it appropriately spent more than $800,000 in
accordance with requirements. Further, it did not follow IRS requirements to deter-
mine and report the value of fringe benefits received by employees from use of
employer-provided vehicles.

   OIG recommended that HUD require the Authority to (1) repay ineligible costs of
almost $745,000; (2) provide support for more than $880,000 in costs; (3) develop
and implement procedures to ensure that program expenditures are eligible and
properly supported, thereby putting an estimated $564,000 to better use; and (4)
develop and implement policies and procedures governing employee use of
Authority-owned vehicles. (Audit Report: 2007-AT-1004)

                            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Housing Authority of the City of Gary's, Gary, IN,
nonprofit development activities to determine whether the Authority effectively and
efficiently used resources subject to its annual contributions contract, other
agreements, or HUD regulations regarding its nonprofit development activities.

    The Authority failed to properly administer refunding savings from the Fifth
Avenue Housing Development Corporation's June 1992 refunding of mortgage revenue
bonds, May 1993 redemption of mortgage revenue refunding bonds, and June 2001
refunding of mortgage revenue refunding bonds. It lacked adequate documentation to
support that it used more than $900,000 in refunding savings from the Corporation's
1992 refunding of mortgage revenue bonds and 1993 redemption of mortgage revenue
refunding bonds to provide affordable, decent, safe, and sanitary housing to very
low-income households. Further, the Authority and HUD were not aware of nearly
$800,000 and at least $260,000, respectively, in refunding savings funds available to
them until OIG brought it to their attention during the audit.

    OIG recommended that HUD require the Authority to provide documentation or
reimburse its refunding savings from nonfederal funds for the unsupported payments;
submit a proposal for HUD's approval regarding the Authority's planned use of the
unused refunding savings for affordable, decent, safe, and sanitary housing for very
low-income households; and implement adequate procedures and controls to ensure
that it uses the refunding savings and submits required certifications and reports in
accordance with its financial adjustment factor refunding agreement with HUD. OIG
also recommended that HUD request The Bank of New York Trust Company, N.A., to
disburse to HUD the remaining refunding savings in the trust account from the
Corporation's refunding of the mortgage revenue refunding bonds in 2001. (Audit
Report: 2007-CH-1005)

                            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




40                                               HUD’s Public and Indian Housing Programs
   HUD OIG audited the Benton Harbor Housing Commission's, Benton Harbor, MI,
public housing program and its home ownership program, funded with Special
Purpose Grant funds from the City of Benton Harbor. The audit was conducted to
determine whether the Commission effectively maintained its program units in
accordance with applicable requirements and appropriately used its program
operating subsidies and the City's Grant funds.

     The Commission did not maintain the program units selected for inspection in good
repair, order, and condition; nor did it always conduct its annual program unit
inspections within 1 year as required. It did not comply with HUD's requirements and
its policies in administering its program's admission and occupancy process and lacked
an effective maintenance process to ensure that program unit deficiencies were
identified and repaired in a timely manner. In addition, it inappropriately received
excess program operating subsidies for units that were vacant for more than 12 months.
It also failed to properly administer its home ownership program in accordance with
its master participation agreement with eight lending institutions and has not used
Grant funds it received from the City for the home ownership program more than nine
years ago or the interest earned on the Grant funds.

    OIG recommended that HUD require the Commission to reimburse its program
from nonfederal funds for the improper use of funds, provide support or reimburse its
program from nonfederal funds for the unsupported payments, and implement adequate
procedures and controls to address the deficiencies identified. OIG also recommended
that HUD require the Commission to reimburse the City $240,000 from its home
ownership program's accounts so the City can use the Grant funds to support housing
rehabilitation, transfer to its general fund nearly $83,000 from its home ownership
program's accounts so it can use the funds to provide housing services in accordance
with the Michigan Complied Laws, and provide support or transfer more than $60,000
from its home ownership program's accounts so it can use the funds to provide housing
services in accordance with the Michigan Compiled Laws. (Audit Report: 2007-CH-
1002)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Newport News Redevelopment and Housing Authority,
Newport News, VA, to determine whether the Authority appropriately used low-rent
public housing funds to support its other programs and whether it purchased goods
and services in compliance with HUD and Federal regulations. OIG also evaluated the
Authority's compliance with HUD regulations for recertifying low-income housing
tenants and its support for drawdowns of HUD funds.

   The Authority generally complied with HUD regulations for recertifying
low-income housing tenants and properly supported its drawdowns for HUD funds.
However, contrary to its consolidated annual contributions contract, the Authority
used low-rent public housing funds to pay expenses of its other HUD and non-HUD
programs and did not settle the balance due to the low-rent public housing fund in a
timely manner. Also, the Authority did not always record financial transactions on its
books in a timely manner. Additionally, contrary to Federal procurement regulations



HUD’s Public and Indian Housing Programs                                            41
and its own procurement policy, the Authority did not always adequately justify
awarding contracts.

    OIG recommended that HUD direct the Authority to repay its low-rent public
housing fund more than $246,000 owed by its other HUD and non-HUD programs
and create and implement policies and procedures to ensure that all transactions are
recorded on the books in a timely manner and that the due-to/due-from account is
reconciled and settled monthly, thereby putting nearly $490,000 in public housing
funds to better use over a 1-year period. Further, OIG recommended that the
Authority develop and implement procedures to ensure that it properly awards
contracts according to established policies and procedures and emphasize to
responsible personnel the need to follow applicable policies and procedures and
provide them training regarding Federal procurement requirements. (Audit Report:
2007-PH-1005)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Lubbock Housing Authority's, Lubbock, TX, financial
relationship with its nonprofits to determine whether the Authority was operating its
nonprofits in accordance with HUD requirements and if not, to determine the extent,
cause, and impact of any violations.

    The Authority made more than $672,000 in inappropriate advances from its low-
rent fund to its two nonprofits. One nonprofit has no assets to repay the nearly $368,000
advanced to it. The second nonprofit still owes more than $304,000 to the Authority's
low-rent program fund and reportedly lacks the resources to repay it.

    OIG recommended that HUD require the Authority to either repay the money
that it advanced to the first nonprofit or seek forgiveness for it and to repay its low-
rent fund for the balance due from the second nonprofit. OIG also recommended that
HUD take applicable administrative actions against the appropriate parties. (Audit
Report: 2007-FW-1002)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   HUD OIG audited the Housing Authority of the County of Beaver's, Beaver, PA,
controls over HUD assets to determine whether the Authority properly used and
maintained control of HUD assets.

    For the most part, the Authority used and maintained control of HUD assets
properly. However, it did not properly support allocations of salary and benefit costs
to its HUD-funded programs and did not properly monitor disbursements. As a
result, it made unsupported expenditures for salary and employee benefit costs of nearly
$293,000 and made ineligible disbursements totaling nearly $47,000.

    OIG recommended that HUD direct the Authority to provide documentation to
support the questioned costs or reimburse that amount from nonfederal funds; repay
the ineligible costs; and develop and implement procedures to ensure that salary and
benefit allocations are properly supported, thereby putting more than $146,000 to


42                                                 HUD’s Public and Indian Housing Programs
better use over a 1-year period, and disbursements of HUD funds are consistent with
the terms of its annual contributions contracts and other Federal regulations, thereby
putting almost $16,000 to better use over a 1-year period. (Audit Report: 2007-PH-
1001)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   HUD OIG audited procurements by the Jacksonville Housing Authority,
Jacksonville, AR. The audit addressed HUD allegations of mismanagement at the
Authority and was conducted to determine whether the Authority complied with its
procurement policy and satisfied HUD-mandated timeframes for the obligation of
program funding.

    Due to its mismanagement of the program, the Authority overstated its
obligations to prevent HUD's recapture of almost $133,000 in funding. Therefore, it
did not satisfy HUD-mandated timeframes for the obligation of funding. In addition, it
did not comply with its procurement policy regarding soliciting bids, documenting
bids, and accepting the work, thereby misspending more than $164,000 of its funding.

     OIG recommended that HUD assist the recently replaced board of commissioners
and the new executive director in establishing board oversight and controls to ensure
that the Authority implements sound funding plans, enters valid obligations in the Line
of Credit Control System, and complies with its procurement policy. This should
result in more than $281,000 being put to better use. HUD also should penalize the
Authority for slow obligation of funding and direct it to either support or repay HUD
for procurements not conducted in conformity with policy and/or supported for which
it spent more than $164,000 in program funding. (Audit Report: 2007-FW-1007)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the East St. Louis Housing Authority, East St. Louis, IL, to
determine whether the Authority followed HUD's regulations and its own policies when
procuring goods and services, granting leave, and managing vehicle operations.

    The Authority improperly procured goods and services, improperly granted leave
to employees at a cost of almost $148,000 in exchange for nonprofit contributions, and
poorly managed its general vehicle operations, incurring more than $29,000 in improper
vehicle allowances.

    OIG recommended that HUD require the Authority to improve its procurement
controls by developing clearly written policies and procedures and repay from
nonfederal sources the funds improperly spent for employee leave. OIG also
recommended that HUD require the Authority to improve its controls over vehicle
operations, dispose of unnecessary vehicles, and repay from nonfederal sources the funds
improperly spent on vehicle allowances. (Audit Report: 2007-KC-1004)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




HUD’s Public and Indian Housing Programs                                             43
     HUD OIG audited the Marion Housing Authority's, Marion, IN, nonprofit
development activities to determine whether the Authority diverted or pledged
resources subject to its annual contributions contract, other agreements, or regulation
for the benefit of non-HUD developments.

    The Authority inappropriately used public housing operating funds to support the
activities of the Affordable Housing Corporation, a nonprofit organization created by
the Authority, without HUD approval. As of November 2006, the Authority owed its
public housing program more than $180,000. It inappropriately used nearly $19,000
in Housing Choice Voucher/Family Self-Sufficiently program coordinators funds from
January 2003 through June 2004 to pay its former family self-sufficiency/housing
counselor's salary and benefits while the former counselor worked on the Corporation's
activities. In addition, the Authority could not provide adequate documentation to
support that its use of more than $25,000 in coordinators funds to pay the former
counselor's salary and benefits during the same period was appropriate.

    OIG recommended that HUD require the Authority to reimburse its public
housing operating and coordinators funds from nonfederal funds for the inappropriate
disbursements and implement adequate procedures and controls to ensure that it uses
public housing program and coordinators funds appropriately. OIG also recommended
that HUD take appropriate action against the Authority. (Audit Report: 2007-CH-
1001)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




44                                                HUD’s Public and Indian Housing Programs
Investigations
    Some of the investigations discussed in this report were conducted jointly with
Federal, State, and local law enforcement agencies. The results of OIG’s more
significant investigations are described below.



            Strategic Initiative 2: Contribute to the Reduction of Erroneous
                              Payments in Rental Assistance
   Key Program             Cases                 $                 Convictions/Pleas/            Admin/Civil
     Results               Closed            Recovered                 Pretrials                   Actions
  Investigations             438            $13 Million                      370                         723
                          page 46        - Public Housing Authority Theft/Embezzlement
                           page 51       - Rental Assistance Fraud
     Our Focus
                          page 69        - Fugitive Felon Initiatives
                           page 71       - Other Fraud Crimes




 Chart 3.2: Percentage of OIG Public and Indian Housing Closed Investigation
                     Cases During this Reporting Period*
                                                                                                        Region 1
                                                                                                       Boston 12%

                                                        Region 5                    Region 2
                                                       Chicago 11%                New York 6%
                             Region 7-8
                           Kansas City 7%




                                                                                                     Region 3
                                                                                                 Philadelphia 15%




      Region 9-10                                                                         Region 4
    Los Angeles 25%                                                                      Atlanta 11%
                                                           Region 6
                                                        Fort Worth 13%

* This does not include cases where funds misused came from Congress for the hurricane relief.
(see chapter 6 for these cases)




HUD’s Public and Indian Housing Programs                                                                            45
Public Housing Authority Theft/Embezzlement
    Raymond Asselin, Sr., the former Springfield Housing Authority (SHA) executive
director; his wife and sons, Janet, James, Christopher, Joseph, and Raymond Asselin, Jr.;
Arthur Sotirion, the former SHA deputy executive director; Francis X. Maroney, a former
SHA purchasing agent; and former SHA contractors Paul A. Bannick, doing business as
Paul A. Bannick Company; John Spano, doing business as Valley Floor Covering, Inc.;
John P. Corcoran, doing business as Corcoran Plumbing, Inc.; and Nicholas Katsounakis,
doing business as Manny's Plumbing, were each sentenced in U.S. District Court,
Springfield, MA, for their earlier guilty pleas to bribery, conspiracy to commit theft
against the government, racketeering, conspiracy to commit racketeering, theft,
obstruction of justice, filing false Federal income tax returns, and/or mail and wire fraud.
Raymond Asselin, Sr., was sentenced to 10 years incarceration and 2 years probation,
fined $75,300, and ordered to pay SHA $87,500 in restitution; collectively, the
remaining defendants were sentenced to 193 months incarceration, 30 months home
confinement, 6 years supervised release, 21 years probation, and 1,000 hours
community service; fined $483,900; and ordered to pay SHA more than $2.1 million in
restitution and forfeit six properties, including a $1.2 million house on Cape Cod,
time-share condo in Aruba, BMW automobile, 23-foot Chaparral boat, and $243,650 in
cash previously seized. The above defendants assisted Raymond Asselin, Sr,. in
embezzling more than $3.5 million from SHA for the personal benefit of Asselin, his
family members, and others.




                             Copyright, 2007. The Republican - Springfield, MA. Reprinted with permission.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Dora Perez, the former San Benito Housing Authority (SBHA) low-rent manager,
pled guilty in U.S. District Court, Brownsville, TX, to embezzlement. From 1998 to
2006, Perez embezzled approximately $273,591 in tenant rents from Palmville I & II,
SBHA senior and disabled housing developments.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




46                                                      HUD’s Public and Indian Housing Programs
    Terry L. Taylor, a former City of Milwaukee Housing Authority (CMHA)
accountant, was sentenced in Wisconsin State Circuit Court, Milwaukee, WI, to 2
years confinement and 5 years probation and ordered to pay the City of Milwaukee
$262,271 in restitution for her earlier guilty plea to theft by fraud over $10,000. Taylor
embezzled CMHA funds by creating a fictitious business known as American League
Insurance (ALI), then submitted fabricated ALI invoices and obtained $262,271 in
CMHA payments.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Marisol Cortez and Flora Cruz, Paterson Housing Authority (PHA) Section 8
caseworkers; Benny Ramos, City of Paterson (Paterson) Section 8 program deputy
director; Elisa Griffin and Marie Rosa, Paterson Section 8 caseworkers; Princess Reaves,
Paterson deputy court administrator; Lee Holland, Javier Nunez, Yolanda Lane, Victor
Ortiz, and Stanley Williams, Paterson employees; Mark Hooks, a City of Passaic
employee; and George Morgan and Robert Schweiderick, Passaic Valley Water
Commission employees, were each arrested and/or charged in U.S. District Court,
Newark, NJ, with soliciting and accepting bribes. The above defendants allegedly
solicited and accepted bribes from an unnamed conspirator in exchange for steering
Section 8 tenants to specific properties, expedited building inspections, or rejected
tenant complaints filed in municipal court. HUD losses have not yet been determined.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Patricia Bobo, the former Gary Housing
Authority (GHA) finance director, was indicted in
U.S. District Court, Gary, IN, for embezzlement and
Federal income tax evasion. From August 2002
through September 2003, Bobo allegedly embezzled
about $120,000 from GHA by creating and cashing
duplicate salary checks for herself, removing the
fictitious earnings checks from GHA records,
prohibiting GHA employees from reconciling GHA
accounts, and then failing to claim the embezzled
funds on her Federal income tax forms.

            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Teresa Thomas, a fictitious Greensboro Housing
Authority (GHA) Section 8 landlord, was sentenced
in U.S. District Court, Greensboro, NC, to 2 months
incarceration and 4 years probation and ordered to
pay GHA $54,000 in restitution for her earlier guilty
plea to mail fraud and aiding and abetting. Thomas
and previously indicted GHA intake specialist Serna   Copyright, 2006. Metropolitan Digest -
Parker and fictitious GHA landlord Vivian Bailey        Gary, IN. Reprinted with permission.
conspired and caused the mailing of 48 fraudulent
GHA housing assistance payment checks totaling more than $70,000.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○

HUD’s Public and Indian Housing Programs                                                 47
    Larry Bell, the former executive director of Mound Bayou Housing Authority
(MBHA), was sentenced in U.S. District Court, Mound Bayou, MS, to 6 months home
confinement and 5 years probation and ordered to pay MBHA $1,000 and Gallagher
Basset Services $5,135 in restitution for his earlier guilty plea to embezzlement. Bell
stole approximately $64,000 in MBHA funds by manipulating MBHA bank records.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Larry J. Caillier, the former Opelousas Police Department chief, was sentenced in
U.S. District Court, Lafayette, LA, to 10 months home confinement and 5 years
probation and ordered to pay HUD $26,300 in restitution for his earlier guilty plea to
filing a false claim. Caillier, under a bicycle patrol contract with Opelousas Housing
Authority (OHA), submitted false time and attendance reports to OHA and obtained
$63,255 in HUD funding he was not entitled to receive.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Gregory Webb, a former manager at the Housing Authority for the City of New
Haven (HACNH), and Corey Newton, a former HACNH employee, were each sentenced
in U.S. District Court, Bridgeport, CT, for their earlier guilty pleas to conspiracy. Webb
was sentenced to 2 years probation, ordered to perform 200 hours of community
service and fined $1000; Newton was sentenced to 6 months incarceration and 2 years
supervised release. Webb and Newton created a fictitious company called Unlimited
Horizons (UH), awarded UH approximately $54,000 in HACNH maintenance and
rehabilitation contracts, then used HACNH employees to complete the contracted
work.




                       Copyright, 2006. The New Haven Register - New Haven, CT. Reprinted with permission.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Faye Nystrom, the former Benson County Housing Authority (BCHA) executive
director, pled guilty to an information filed in U.S. District Court, Fargo, ND, charging
her with embezzling $40,547 in HUD and $23,984 in U. S. Department of Agriculture
(USDA) Rural Development funds; Nystrom agreed to repay BCHA $82,558 in
restitution, including audit costs of $18,000. From 2002 to 2004, Nystrom embezzled
BCHA funds by paying herself excessive wages, issuing payments to relatives for
services not performed, and disbursing funds for fabricated travel expenses.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○



48                                                      HUD’s Public and Indian Housing Programs
                                   Copyright, 2006. Hernando Times - Tampa, FL. Reprinted with permission.


    Betty Chandler Trent, Brooksville Housing Authority (BHA) executive director,
was indicted in U.S. District Court, Tampa, FL, for conspiracy, mail fraud, theft
concerning programs receiving Federal funds, false statements, false claims, and theft
of public money. Joe Ann Bennett, a former BHA project manager, pled guilty to
conspiracy to defraud and commit offenses against the United States. From December
2001 to September 2006, Bennett admittedly and Trent allegedly fabricated BHA
purchases and obtained more than $40,000 in BHA funds. HUD's Enforcement
Center suspended both Trent and Bennett from HUD program participation.

                                ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    James Lozano, a senior project
manager at Honore Construction, a
Housing Authority of New Orleans
(HANO) contractor, pled guilty to
an information filed in U.S. District
Court, New Orleans, LA, charging
him with theft or bribery
concerning programs receiving
Federal funds. Lozano solicited and
accepted more than $40,000 from
individuals seeking subcontracts
from Honore Construction after
Honore Construction received a $13
million HANO contract to build
senior citizen housing.

    ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    George Flemming, a former
Virgin Island Housing Authority
(VIHA) contractor and owner of Mr.
G's Maintenance, was sentenced in
U.S. District Court, St. Croix, VI, to
                                                   Copyright, 2006. The Times-Picayune - New Orleans, LA.
                                                                                Reprinted with permission.

HUD’s Public and Indian Housing Programs                                                               49
24 months incarceration and 3 years probation and was ordered to pay a $15,000 fine
and $3,200 special assessment for his earlier conviction of conspiracy and Federal
program and wire fraud. From June 1998 to September 1999, Flemming paid more than
$30,000 to former VIHA procurement specialist and previously indicted conspirator
Walter John for John's assistance in securing a $1.5 million VIHA public housing
rehabilitation contract. John allegedly provided Flemming preferential treatment and
expedited payments by circumventing VIHA payment procedures. HUD's loss is
estimated at $30,000.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Toni Hart, the former Lawrence County Housing Authority (LCHA) executive
director, pled guilty in U.S. District Court, Lawrenceville, IL, to embezzlement and
making false statements to a Federal agent. Hart used an LCHA credit card and
obtained cash withdrawals used to purchase clothing, jewelry, and personal vacations,
then provided false statements to Federal agents when questioned. HUD's loss is
estimated in excess of $24,000.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    John C. Wolfe, Sr., the former Marionville Housing Authority (MHA) executive
director, pled guilty in Missouri Judicial Circuit Court, Marionville, MO, to stealing
and was sentenced to 5 years supervised probation and ordered to pay MHA $23,117 in
restitution. From April 2003 to August 2004, Wolfe embezzled $23,267 from MHA by
obtaining salary checks not reported to or approved by the MHA board of directors.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Glaister Brooks, the former Fort Pierce Housing Authority (FPHA) executive
director, was sentenced in Nineteenth Judicial Circuit Court, Fort Pierce, FL, for his
earlier conviction of grand theft and official misconduct. Brooks was sentenced to 60
days incarceration, 6 months community control, 4 years probation, and 250 hours
community service and ordered to repay FPHA $13,288 for salary payments he received
during the investigation. Brooks used an FPHA purchase order to obtain tires for his
personal vehicle, but FPHA withheld payment and terminated Brooks after his
conviction

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Frederick Demps, the former Housing Authority of the City of Austin (HACA)
housing manager, was sentenced in U.S. District Court, Austin, TX, to 6 months house
arrest with electronic monitoring and 3 years probation and ordered to pay HUD $7,750
for his earlier conviction of theft from a federally funded program. Demps embezzled
tenant rents and altered HACA accounting documents to hide stolen HACA funds.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Tara Louise Morrow, the former Wilburton Housing Authority (WHA) executive
director, was charged in an information filed in Latimer County District Court,


50                                                HUD’s Public and Indian Housing Programs
Wilburton, OK, with embezzlement. From August 2002 to February 2004, Morrow
allegedly charged personal items to WHA accounts. HUD's loss is estimated at $7,531.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Kasandra Wakeman, a former Flandreau Santee Sioux Housing Authority (FSSHA)
employee, was sentenced in U.S. District Court, Sioux Falls, SD, to 3 months home
detention and 3 years supervised release for her earlier guilty plea to theft in excess of
$1,000 from an Indian tribal organization. Wakeman, while employed at FSSHA,
embezzled FSSHA cash rental payments received from FSSHA housing assistance
recipients; Wakeman repaid FSSHA $7,485 of the stolen funds.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Stacey Yuma, a former Santa Fe Civic Housing Authority (SFCHA) Family
Self-Sufficiency Program (FSS) case manager, was indicted in First Judicial District State
Court, Santa Fe, NM, on numerous counts of fraud and conspiracy to commit fraud.
Sarah Yuma, the previously indicted SFCHA FSS coordinator, and Leonard Tapia, a
previously indicted SFCHA tenant and FSS recipient, each admitted wrongdoing, agreed
to a preprosecution diversion, and were sentenced to 24 months supervised probation;
Tapia was also ordered to pay SFCHA $1,800 in restitution. Sarah Yuma assisted her
sister, Stacey Yuma, who allegedly helped Tapia obtain $3,800 in SFCHA FSS funds he
was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Benita James, a former Housing Authority of the City of New Haven (HACNH)
employee, pled guilty in Connecticut Superior Court, New Haven, CT, to trafficking
in personal identifying information; James was sentenced to 2 years each incarceration
(suspended), supervised release and probation. While employed at HACNH, James
accessed HACNH computer databases, obtained identifying information on another
HACNH employee/Section 8 landlord, and then sold the identification information to
previously indicted Sean Gray. Gray, using the stolen identification information he
purchased from James, allegedly opened residential and cellular telephone accounts in
the name of the victim.

Rental Assistance Fraud
    Shirley Miles, Denise Bertrand, Linnette Stewart, Julia Jackson, Edna Johnson, Estella
Ligon, Ivette Longsworth, Danny Carter, and Darnisha Eason, Inglewood Housing
Authority (IHA) Section 8 recipients, were charged in Los Angeles County Superior
Court, Inglewood, CA, with filing a false/forged instrument, grand theft, and/or
perjury. The above defendants allegedly failed to report employment, income, or
assets on IHA certifications and obtained more than $231,000 in IHA housing
assistance they were not entitled to receive. IHA terminated Bertrand, Stewart, and
Eason from its rental assistance program.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




HUD’s Public and Indian Housing Programs                                                51
    Sheree Dozier, Andrea Greene, Liliana Barranco, Rosa Colon, and Luis Zayas, former
Miami-Dade Housing Agency (MDHA) Section 8 tenants/landlord, were sentenced in
U.S. District Court, Miami, FL, for their earlier guilty pleas to theft of government
funds or conspiracy. Collectively, the defendants were sentenced to more than 12 years
supervised release and 17 months home confinement and ordered to pay HUD $122,199
in restitution. The above defendants failed to report Section 8 subsidies received from
other housing authorities, employment income, actual household composition, or
residency of a landlord on MDHA certifications and obtained $122,199 in MDHA
housing assistance they were not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Donna James, Sheila Wittenberg, Anthony Travis, and Christine Carpenter, former
Housing Authority of the County of San Mateo (HACSM) Section 8 recipients, were
sentenced in U.S. District Court, San Francisco and Sacramento, CA, for their earlier
guilty pleas to false statements to HUD. James was sentenced to 24 months probation
and ordered to pay HUD $29,916 in restitution; Wittenberg was sentenced to 24 months
probation and ordered to pay HUD $25,455 in restitution; Travis was sentenced to 12
months probation and ordered to pay HUD $19,085; Carpenter was sentenced to 6
months home confinement and 3 years probation and ordered to pay HUD $47,124 in
restitution. The above defendants failed to report their receipt of San Francisco
Housing Authority public housing assistance to HACSM and obtained $121,580 in
HACSM housing assistance they were not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Judy Delora Bell, La'Vina Reed, Blondine Wynn, and Johnnie Mae Brooks, former
Greensboro Housing Authority (GHA) Housing Choice Voucher program (HCVP)
participants, pled guilty or were sentenced in U.S. District Court, Greensboro, NC.
Bell pled guilty to false statements to HUD for failing to report her U.S. Postal Service
employment or income on GHA certifications; Reed and Wynn each pled guilty to
false statements to HUD and/or the U.S. Department of Health and Human Services
(HHS) for failing to report employment or income on GHA or Guilford County
Department of Social Services certifications; Brooks was sentenced to 5 years
probation and ordered to pay GHA $16,865 in restitution for her earlier guilty plea to
false statements to HUD. Brooks failed to report income from businesses she owned
on GHA certifications and obtained more than $48,000 in GHA housing assistance she
was not entitled to receive. In addition, Ebony Maness and Lidoris Ross, GHA public
housing or HCVP participants, pled guilty and were sentenced in Guilford County
District Court. Maness pled guilty to financial transaction card fraud, attempted
financial card theft, and larceny and was sentenced to 18 months supervised release;
Ross pled guilty to financial card fraud and was sentenced to 75 hours community
service; Maness and Ross were each ordered to pay the victim $135 in restitution. Maness
and Ross used a victim's debit card and purchased more than $800 worth of clothing,
jewelry, and cellular telephone services. Collectively, the above defendants caused HUD
losses of $116,569; GHA terminated Reid and Wynn from its rental assistance program.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




52                                                 HUD’s Public and Indian Housing Programs
    Josephine Ledbetter and her daughter Rebecca Heath, former City of Chandler
(COC) HCVP participant/landlord, were indicted in Maricopa County Superior Court,
Phoenix, AZ, for fraudulent schemes and forgery. Ledbetter allegedly concealed her
ownership of two properties and her relationship to Heath on COC certifications and
obtained $90,166 in COC housing assistance she was not entitled to receive. Heath
allegedly withheld her relationship with Ledbetter on COC certifications and obtained
$23,808 in COC rental contract payments she was not entitled to receive. HUD
realized losses of $113,974, and COC terminated both Ledbetter and Heath from its
rental assistance program.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Rosaivette Baez-Colon, a former Everett Housing Authority employee and
Metropolitan Boston Housing Partnership (MBHP) Section 8 tenant, was arrested in
Plainville, MA, on outstanding warrants for identity and credit card fraud. Baez-Colon
allegedly used multiple identities and fictitious Social Security numbers (SSN) to
apply for and obtain about $40,000 in MBHP housing assistance she was not entitled
to receive. In addition, David Murray-McCarthy, also a former MBHP Section 8 tenant,
was sentenced in U.S. District Court, Boston, MA, to 18 months incarceration and 3
years supervised release and ordered to pay HUD and others $138,929 in restitution for
his earlier guilty plea to false statements to HUD, the Social Security Administration
(SSA), and the U.S. Department of Education (DOE). Murray-McCarthy assumed a
false identity to obtain an SSN, DOE student loans, and employment; used his true
identity to obtain MBHP housing assistance and SSA disability insurance benefits; failed
to report earned income to either MBHP or SSA; and defaulted on his DOE guaranteed
student loans. Collectively, the above defendants caused HUD losses of $112,609.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Michael and Prudentia Taku, former City of Tucson (COT) HCVP participants,
were charged in U.S. District Court, Tucson, AZ, with fraud against HUD and
conspiracy to commit false statements. Estella, Vincent, Orlando, and Joseph Quihuis;
Daisy and Tasha Harvey; Nelcy Harold; Patricia Tellez; and Sandra Garcia, former COT
public housing or HCVP participants, each pled guilty to fraud against HUD and were
each sentenced to 60 months probation and ordered to collectively pay HUD $95,047
in restitution. From 1999 to 2005, Michael and Prudentia Taku allegedly and the
remaining defendants admittedly concealed income or familial relationships on COT
certifications and obtained $101,896 in housing assistance they were not entitled to
receive. COT terminated the above subjects from its rental assistance program.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Eugene and Wilma Hardney, Cook County Housing Authority (CCHA) Section 8
landlords previously barred from conducting business with HUD after their earlier
convictions of false statements, were indicted in Cook County Circuit Court, Chicago,
IL, on numerous counts of theft, forgery, loan fraud, and deceptive practices. Eugene
and Wilma Hardney allegedly obtained two conventionally financed owner-occupied
properties by providing false information and/or documents, leased the properties to
CCHA, and then collected $4,000 in CCHA housing assistance contract payments


HUD’s Public and Indian Housing Programs                                             53
after one property went into foreclosure and became lender owned. In addition, Terry
Ann Littlepage, a CCHA landlord; Ruby Gethers, a CCHA Section 8 tenant; and
Gregory Pope, a fictitious CCHA landlord, each pled guilty or were sentenced in U.S.
District Court. Littlepage pled guilty to embezzlement of public funds for assisting
her mother, previously indicted CCHA Section 8 tenant Aserine Blevins, conceal
property ownership. Gethers and Pope were each sentenced to 6 months home
confinement and 36 months probation and ordered to pay HUD $69,950, jointly and
severally, for their earlier guilty pleas to theft of government funds. Gethers and Pope
concealed Gethers' ownership of her CCHA-subsidized housing unit. Collectively, the
above defendants caused HUD losses in excess of $101,800.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Takara Madkins, a Cuyahoga County adult probation officer and Cuyahoga
Metropolitan Housing Authority (CMHA) Section 8 landlord, was charged in Cuyahoga
County Court of Common Pleas, Cleveland, OH, with numerous counts of theft,
tampering with records and securing writings by deception. Madkins allegedly
provided false employment and income documentation to purchase 11 properties, then
leased four properties to CMHA and obtained more than $100,000 in CMHA housing
assistance she was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Tina Harring and Barbara Singleton-Pradia, Rochester Housing Authority (RHA)
Section 8 tenants, each pled guilty in U.S. District Court, Rochester, NY, to theft of
government funds. Harring failed to report income on RHA certifications and obtained
approximately $22,000 in RHA housing assistance she was not entitled to receive.
Singleton-Pradia and previously indicted Larry Pradia, an RHA landlord, failed to claim
their joint residency on RHA certifications and obtained $70,000 in RHA housing
assistance they were not entitled to receive. The above defendants caused HUD losses
of $92,000.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Joan Glover, a Las Vegas Housing Authority (LVHA) Section 8 tenant, was charged
in Clark County Justice Court, Las Vegas, NV, with theft. Glover allegedly failed to
report income or actual household composition on LVHA certifications and obtained
$21,540 in LVHA housing assistance she was not entitled to receive. Deonna
Degraffenreid, a former LVHA Section 8 recipient, was sentenced to 12 months
incarceration (suspended), community service for an undetermined period of time, and
probation not to exceed 3 years and ordered to obtain and maintain full-time
employment and pay HUD $14,988 in restitution for her earlier guilty plea to conspiracy
to commit unlawful acts concerning food stamps. Degraffenreid failed to report
income or actual household composition on LVHA or Nevada Welfare certifications
and obtained $65,823 in LVHA housing assistance she was not entitled to receive. The
above defendants caused HUD losses of $87,363.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




54                                                HUD’s Public and Indian Housing Programs
    Kim Carson, a former Santa Monica Housing Authority (SMHA) Shelter Plus Care
Program recipient and an auditor with the U.S. Department of Defense, Defense
Contract Audit Agency, was sentenced in U.S. District Court, Santa Monica, CA, to 60
months supervised release and 250 hours community service and ordered to pay HUD
$44,843 in restitution for her earlier guilty plea to theft of public money. From March
2002 to January 2005, Carson underreported her income by submitting altered
employer earning statements to SMHA and obtained $26,284 in SMHA housing
assistance and $14,100 in SMHA FSS program assistance she was not entitled to
receive. In addition, Blanca Gomez, a SMHA HCVP participant, was sentenced to 60
months probation and ordered to pay SMHA $44,503 in restitution for her earlier
conviction of grand theft in Los Angeles Superior Court. Gomez failed to report
employment or income on SMHA certifications and obtained $44,503 in SMHA
housing assistance she was not entitled to receive. The above defendants caused HUD
losses of $84,887.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Jerome Massey, a convicted felon and Detroit Housing Commission (DHC)
Section 8 landlord, pled guilty in Wayne County Circuit Court, Highland Park, MI, to
larceny, false pretenses, and delivery/manufacture of marijuana. Massey used his son's
SSN to collect $80,000 as a DHC landlord while occupying a DHC-subsidized unit
with a DHC Section 8 tenant and produced and provided marijuana from the DHC-
subsidized unit. Massey was sentenced to 3 years probation and 100 hours community
service and ordered to pay $1,100 in court costs and forfeit property seized as
restitution.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Buck Thomas and his wife Gwenetta Atterberry, Maywood Housing Authority
(MHA) Section 8 landlord/tenant, each pled guilty in Cook County Circuit Court,
Chicago, IL, to theft by deception; Thomas and Atterberry were each sentenced to 30
months probation and ordered to pay HUD $36,000 in restitution. Thomas and
Atterberry failed to report their relationship, residency, employment income, and/or
property ownership on MHA certifications and obtained $72,000 in MHA housing
assistance they were not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Serena L. Priddy, a former Maricopa County Housing Authority (MCHA) Section
8 tenant, was indicted in Maricopa County Superior Court, Phoenix, AZ, for forgery
and fraudulent schemes and practices. In addition, Stephanie M. Williams, a former
MCHA HCVP participant, pled guilty to attempted fraudulent schemes and practices,
and Kathy D. Woods, a former MCHA Section 8 tenant, was sentenced to 12 months
imprisonment and 2 months probation and ordered to pay MCHA $27,638 in
restitution for her earlier guilty plea to attempted forgery. Priddy, allegedly and
Williams and Woods admittedly omitted income on MCHA certifications and obtained
$71,450 in MCHA housing assistance they were not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○



HUD’s Public and Indian Housing Programs                                            55
     Tawanda Gulley, a former Pinellas County Housing Authority (PCHA) Section 8
tenant, was indicted in U.S. District Court, Tampa, FL, for false statements. From
2001 to 2006, Gulley allegedly failed to report ownership of real property on PCHA
certifications and obtained $20,225 in PCHA housing assistance she was not entitled
to receive. In addition, Lamesha Ware, a former PCHA Section 8 tenant, pled guilty to
false statements. Ware obtained two Florida drivers licenses showing different addresses
and then conspired with her mother, previously sentenced Saint Petersburg Housing
Authority (SPHA) Section 8 tenant Mary Martin, to obtain $16,900 in PCHA and
$36,997 in SPHA housing assistance they were not entitled to receive. The above
defendants caused HUD losses of $71,122.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Felicia Tucker and Damaryes Villanueva, former Tampa Housing Authority (THA)
Section 8 or HCVP participants, were charged in Tenth and Thirteenth Judicial Circuit
Courts, Tampa, FL, with theft of government funds, false statements, or public
assistance fraud. Tucker and Villanueva allegedly failed to report income on THA
certifications and obtained $18,358 in THA housing assistance they were not entitled
to receive. La Gloria Timmons, a former THA Section 8 tenant, pled guilty in U.S.
District Court to false statements. Timmons failed to report income to THA and
obtained $19,855 in THA housing assistance she was not entitled to receive. In
addition, former THA Section 8 tenants Qwing Reed, Catrinia Parker, Gloria Dixon,
and Angel Smith were each sentenced for their earlier guilty pleas to public assistance
fraud. Reed was sentenced to 36 months probation, and, collectively, Reed, Parker,
Dixon, and Smith were ordered to pay THA $22,163 in restitution. The above
defendants caused HUD losses of $60,376.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Lucinda Brown and Cheryl and Lasalle Waldrip, Riverside County Housing
Authority (RCHA) HCVP participants, were charged in Riverside County Superior
Court, Riverside, CA, with welfare fraud, perjury, grand theft, and/or possession of
marijuana. Brown allegedly failed to report the unauthorized residency of her adult
son, and Cheryl Waldrip allegedly failed to report her husband's residency or income
on RCHA certifications. In addition, Dionna Isreal, also an RCHA HCVP participant,
pled guilty to welfare fraud and was sentenced to 7 days incarceration and 36 months
probation. Isreal failed to report her previous arrests or the criminal history of an
unauthorized tenant on RCHA certifications. Collectively, the above defendants
obtained more than $59,740 in RCHA housing assistance they were not entitled to
receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     April Oliver, Lillie Jackson, Keyonus Whaley, and Lakita Jones, former Georgia
Department of Community Affairs (GDCA) Section 8 tenants, each pled guilty in U.S.
District Court, Macon, GA, to false statements. Oliver, Jackson, Whaley, and Jones
failed to report income on GDCA certifications and collectively obtained $58,191 in




56                                                HUD’s Public and Indian Housing Programs
GDCA housing assistance they were not entitled to receive. GDCA terminated Whaley
and Jones from its rental assistance program.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Melinda and Carrie Bailey, former Isle of Wight Department of Social Services
(IOW) Section 8 tenants, were each sentenced in U.S. District Court or Isle of Wight
Circuit Court, Smithfield, VA, for their earlier guilty pleas to conspiracy, false
statements, and obtaining money by false pretenses from HUD, SSA, and the Virginia
Department of Social Services. Melinda Bailey was sentenced to 21 years imprisonment
(suspended), 10 years probation, and 200 hours community service and ordered to pay
SSA $134,315 in restitution; Carrie Bailey was sentenced to 22 years incarceration (20
years suspended) and indefinite probation, barred from receiving any public assistance,
and ordered to pay HUD $57,183 and various State and/or Federal agencies $187,875 in
restitution. Melinda and Carrie Bailey falsified household income and composition to
obtain IOW housing assistance, Social Security payments, food stamps, Medicaid, and
other social service benefits. Total loss to the government is estimated at $250,000,
including $57,183 in HUD-funded housing assistance payments.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Sharmeitra Threatt, an Oklahoma Housing Finance Agency (OHFA) Section 8
tenant and U.S. Air Force employee, was charged in Oklahoma State District Court,
Oklahoma City, OK, with obtaining money by false pretenses. Threatt allegedly failed
to report income on OHFA certifications and obtained $22,901 in OHFA housing
assistance she was not entitled to receive. In addition, OHFA Section 8 tenant Kaudet
Reed was convicted of obtaining money by false pretenses; Reed was sentenced to 15
years imprisonment (suspended) and ordered to pay OHFA $31,753 in restitution. From
2001 to 2005, Reed failed to report income on OHFA certifications and obtained $31,433
in OHFA housing assistance she was not entitled to receive. Collectively, the above
defendants caused HUD losses of $54,334.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Denise Darden, a Housing Authority of the County of Los Angeles (HACOLA)
HCVP participant, was charged in Los Angeles County Superior Court, Los Angeles,
CA, with grand theft, welfare fraud, and perjury. From 1998 to 2005, Darden allegedly
failed to report income from her business or ownership of her subsidized unit on
HACOLA certifications and obtained $46,544 in HACOLA housing assistance she was
not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Patricia Bryant, a former City of Pittsburg Housing Authority (CPHA) Section 8
tenant, pled no contest in Contra Costa County Superior Court, Martinez, CA, to grand
theft of personal property. Bryant was sentenced to 270 days imprisonment
(suspended) and 60 months probation, ordered to pay restitution not yet determined,
and fined $200. From October 1997 through November 2001, Bryant allegedly failed



HUD’s Public and Indian Housing Programs                                            57
to report an unauthorized tenant or income on CPHA certifications and obtained
$46,000 in CPHA housing assistance she was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Charlene Philbrook, a former Malden Housing Authority (MHA) public housing
tenant previously indicted in Malden District Court, Malden, MA, for larceny over
$250, was fined $44,995 in a civil judgment. From September 2000 through
September 2005, Philbrook allegedly failed to report income on MHA certifications
and obtained $41,691 in MHA housing assistance she was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Sharon Neely and her daughter, Chelsea Monks, Vancouver Housing Authority
(VHA) Section 8 landlord/tenant, were indicted in Clark County Superior Court,
Vancouver, WA, for theft. From December 2001 through February 2006, Neely
allegedly disguised her ownership of and residency in a VHA-subsidized unit leased to
her daughter; Monks allegedly failed to report her relationship to or Neely's residency
in her VHA housing unit, and together they obtained $40,000 in VHA housing
assistance they were not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Trang Pham, a Fairfax County Department of Housing and Community
Development (FCHCD) HCVP landlord, pled guilty in U.S. District Court,
Alexandria, VA, to false statements and was sentenced to 3 years supervised probation
and ordered to pay FCHCD $37,356 in restitution. Pham hid her ownership of
property leased to her mother, a FCHCD HCVP participant.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Martha Garcia, a former Wichita Housing Authority (WHA) Section 8 tenant, was
sentenced in U.S. District Court, Wichita, KS, to 18 months incarceration and ordered
to pay HUD $35,615 in restitution for her earlier guilty plea to possession and use of
fraudulently obtained documents and theft of Federal funds; Garcia was also ordered
deported to Mexico upon completion of her incarceration. From September 1999 to
June 2006, Garcia used three SSNs to conceal her undocumented immigrant status
and obtained $35,615 in WHA housing assistance she was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Alexandra Triviz and Billy Reed, San Bernardino County Housing Authority
(SBCHA) Section 8 tenants, were both convicted in San Bernardino County Superior
Court, San Bernardino, CA, of fraud to obtain aid; Triviz was sentenced to 36 months
probation and Reed was sentenced to 60 days incarceration and 24 months probation.
Triviz and Reed failed to report unauthorized tenants residing in their SBCHA housing
units and/or lifetime sex offender registrant status and obtained $35,316 in SBCHA
housing assistance they were not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


58                                                HUD’s Public and Indian Housing Programs
    Terri Crawford, a Lee's Summit Housing Authority (LSHA) Section 8 recipient,
pled guilty in Jackson County Court, Kansas City, MO, to theft of government funds;
Crawford was sentenced to 60 months probation and ordered to pay LSHA $6,000 in
restitution. Crawford failed to report income on LSHA certifications and obtained
$33,853 in LSHA housing assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Latrice Carter, a former Clark County Housing Authority (CCHA) Section 8
tenant, pled guilty in U.S. District Court, Las Vegas, NV, to fraud involving HUD
transactions. From 2001 through October 2005, Carter failed to report income or
actual household composition on CCHA certifications and obtained $33,091 in CCHA
housing assistance she was not entitled to receive. Carter repaid the government $33,091
after entering into a civil settlement agreement with the U.S. Attorney's Office.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Emad Duar, a San Francisco Housing Authority (SFHA) Section 8 tenant, was
charged in U.S. District Court, San Francisco, CA, with false statements to HUD. From
October 2001 through November 2003, Duar allegedly failed to report his receipt of
U.S. Department of Veterans Affairs (VA) benefits on SFHA certifications and obtained
approximately $33,000 in SFHA housing assistance he was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Denise Peters, a former Mississippi Regional Housing Authority VII (MRHA)
Section 8 tenant, was indicted in U.S. District Court, Jackson, MS, for false statements,
theft of government funds, and aiding and abetting. Peters allegedly provided false
employment or income information on MRHA certifications and obtained $23,104 in
MRHA housing assistance she was not entitled to receive. In addition, K'Hari Gowdy,
a former MRHA Section 8 tenant, pled guilty in U.S. District Court, Gulfport, MS, to
false statements, aiding and abetting, and theft of government funds. Gowdy reported
false income information on MRHA certifications and obtained $9,069 in housing
assistance she was not entitled to receive. Collectively, the above defendants caused
HUD losses of $32,173.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Wilhermina Rodriguez, also known as Wilhermina Muriel, a former Portland
Housing Authority (PHA) Section 8 tenant, was indicted in Cumberland County Court,
Portland, ME, for theft by deception and unsworn falsifications. From March 2001
through September 2005, Rodriguez allegedly failed to report income to PHA or the
Maine Department of Health and Human Services (DHHS) and obtained approximately
$31,000 in PHA housing assistance and $42,000 in DHHS benefits she was not entitled
to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




HUD’s Public and Indian Housing Programs                                              59
    Kristal Allen, a Worcester Housing Authority (WHA) public housing tenant, was
charged in Worcester District Court, Worcester, MA, with larceny over $250 by false
pretense and presentation of false claims. Allen allegedly failed to report income on
WHA certifications and obtained $30,313 in WHA housing assistance she was not
entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Dorothy Hansen, a former Vermont State Housing Authority (VSHA) Section 8
tenant, was sentenced in U.S. District Court, Burlington, VT, to one year probation
and ordered to pay VSHA $24,552 in restitution for her previous guilty plea to false
statements and theft of government funds. Hansen failed to report income on VSHA
certifications and obtained $24,552 in VSHA housing assistance she was not entitled to
receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Elaine Bradfordt, also known as Robeana Ware, a Cuyahoga Metropolitan Housing
Authority (CMHA) Section 8 landlord, and her son, Samuel Dickerson, the former
managing agent of HCVP Properties, were each sentenced in U.S. District Court,
Cleveland, OH, for their earlier convictions on theft of government funds and false
statements to HUD and SSA. Bradfordt was sentenced to 41 months incarceration and
5 years probation and ordered to pay HUD $20,000 and SSA $100,000 in restitution;
Dickerson was sentenced to 5 years probation and ordered to pay the above restitution
jointly and severally with Bradfordt. Bradfordt and Dickerson used a fictitious name
and SSN to obtain CMHA housing assistance contract payments and SSA benefits they
were not entitled to receive. In addition, former CMHA Section 8 landlord Tonja
Williams, also known as Latonya McKinley, was sentenced to 36 months incarceration
and 5 years supervised release and ordered to pay HUD $3,678, the Federal Emergency
Management Agency (FEMA) $2,823, and Ohio Savings Bank $2,336 in restitution for
her earlier guilty plea to misuse of an SSN, false statements to HUD, and mail and bank
fraud. Williams used aliases and a false SSN to acquire credit cards, bank accounts, and
a Federal Housing Administration (FHA)-insured mortgage on property she leased to
CMHA but used as her personal residence and to file a fictitious nonhurricane storm
damage claim with FEMA. The above defendants caused HUD losses of $23,678.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Raquel Bonifacio, a former Broward County Housing Authority (BCHA) Section 8
tenant and support services technician with the Federal Bureau of Investigations (FBI),
was sentenced in U.S. District Court, Miami, FL, to 6 months incarceration and 36
months supervised release and ordered to pay HUD $23,647 in restitution for her
earlier conviction of theft of government funds and false statements. From January
2003 through December 2005, Bonifacio failed to report her FBI employment or
income on BCHA certifications and obtained $23,647 in BCHA housing assistance she
was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




60                                                HUD’s Public and Indian Housing Programs
    Juanzie Edwards, a Dallas Housing Authority (DHA) Section 8 tenant, admitted to
theft of public money/property in a pretrial diversion agreement with the U. S.
Attorney's Office, Dallas, TX, and agreed to pay HUD $22,842 and DOE $4,800.
Edwards failed to report income on DHA certifications or DOE applications and
obtained $22,842 in DHA housing assistance and $4,800 in DOE educational assistance
she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Kynia Morris, a former North Las Vegas Housing Authority (NLVHA) Section 8
tenant, pled guilty in Clark County Justice Court, Las Vegas, NV, to attempted theft.
From January 2003 through October 2006, Morris allegedly failed to report correct
income or actual household composition on NLVHA and Nevada Welfare
certifications and obtained $22,762 in NLVHA housing assistance she was not entitled
to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Adam Doyle, an Omaha Housing Authority (OHA) Section 8 landlord, pled guilty
in Douglas County District Court, Omaha, NE, to theft of government funds; Doyle
was sentenced to 60 months probation and ordered to pay OHA $22,620 in
restitution. Doyle resided with an OHA Section 8 tenant at his OHA Section 8 leased
property and obtained $22,620 in OHA rental contract payments he was not entitled
to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Awilda Negron, a Hampton Redevelopment and Housing Authority (HRHA)
Section 8 tenant, pled guilty in U.S. District Court, Newport News, VA, to false
statements to HUD; Negron was sentenced to 60 months probation and ordered to
pay HUD $22,340 and the Hampton Department of Social Services (HDSS) $4,427 in
restitution. From April 2002 to May 2006, Negron failed to report income on either
HRHA or HDSS certifications and obtained $22,340 in HRHA housing assistance and
$4,427 in HDSS utility and food stamp assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Charles Woods, a fictitious Chicago Housing Authority (CHA) landlord, was
indicted in Cook County Circuit Court, Chicago, IL, for theft by deception and
forgery. Woods allegedly certified ownership of six properties, supplied fraudulent
ownership certificates and other documents to CHA Section 8 contractor CHAC, Inc.,
then obtained $22,000 in CHA housing assistance contract payments he was not
entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Crystal Humphries and Dawn Maynor, Delaware County Housing Authority
(DCHA) HCVP participants and employees of the VA or IRS, were indicted in
Commonwealth of Pennsylvania District Court, Delaware County, PA, for theft by
deception and theft of services. Humphries and Maynor allegedly failed to report

HUD’s Public and Indian Housing Programs                                           61
income on DCHA certifications and obtained approximately $20,750 in DCHA
housing assistance they were not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Krista Kay James and Mckenzie Rachel Davis, former Davis County Housing
Authority (DCHA) HCVP participants, were arrested after indictments were filed in
Utah State Court, Farmington, UT, charging them with fraudulently obtaining
housing benefits. James and Davis allegedly failed to report unauthorized tenants,
including a registered sex offender, residing in their subsidized units and together
obtained $20,635 in DCHA housing assistance they were not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    James Bell, a former St. Louis Missouri Housing Authority (SLMHA) Section 8
tenant and owner of The Thomas Clinic, was sentenced in U.S. District Court, St. Louis,
MO, to 1 year in prison and ordered to pay HUD and others $753,810 in restitution for
his previous guilty plea to false statements. From 1999 to 2004, Bell failed to disclose
his business ownership or income to numerous agencies, including SLMHA and SSA,
and obtained $753,810 in SLMHA housing assistance, SSA disability, Medicaid, and food
stamps he was not entitled to receive. HUD realized a loss of $20,590.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Darrin Carmouche, a Long Beach Housing Authority (LBHA) Section 8 tenant, was
charged in Los Angeles County Superior Court, Long Beach, CA, with fraud, grand
theft, and perjury. From 2002 to 2004, Carmouche allegedly failed to report income, a
residence in Perris, CA, or the subleasing of his LBHA-subsidized unit on LBHA
certifications and obtained $19,863 in LBHA housing assistance he was not entitled to
receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Ramona Lee Emmett, a former Billings Housing Authority (BHA) Section 8 tenant,
was sentenced in U.S. District Court, Billings, MT, to 12 months incarceration and 3
years probation and ordered to pay BHA $19,382 in restitution, jointly and severally
with previously convicted BHA landlord Kenneth Christenot. Emmett, previously
convicted of false statements and theft of Federal funds, claimed absent children and
failed to declare property ownership or the residency of Christenot on BHA
certifications and obtained $19,382 in BHA housing assistance she was not entitled to
receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Lakisha Day, a former Phenix City Housing Authority (PCHA) HCVP participant,
was indicted in U.S. District Court, Phenix City, AL, for false statements to HUD. Day
allegedly failed to report income on PCHA certifications and obtained $19,168 in PCHA
housing assistance she was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


62                                                HUD’s Public and Indian Housing Programs
    Susie Williams, a former Springfield Housing Authority (SHA) Section 8 tenant,
was indicted in U.S. District Court, Springfield, FL, for theft of government funds.
Williams allegedly failed to report income on SHA certifications and obtained $8,316 in
SHA housing assistance she was not entitled to receive. Lashawn Renee Williams, also
a former SHA Section 8 tenant, pled guilty to theft of government funds. Lashawn
Williams failed to report employment or income on SHA certifications and obtained
$10,252 in SHA housing assistance she was not entitled to receive. Together, the above
defendants caused HUD losses of $18,568.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Loise Hall, a New Castle County Housing Authority (NCCHA) Section 8
Homeownership Program participant, and her husband Ayatta Hall, both employees
of Wilmington Housing Authority (WHA), were indicted in Superior Court,
Wilmington, DE, for theft, conspiracy, and filing a false instrument. Loise Hall
allegedly failed to disclose her husband's residency or income on NCCHA
certifications and obtained $18,000 in NCCHA housing assistance she was not entitled
to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Caroline Gray, a former Housing Authority of Winston-Salem (HAWS) HCVP
participant, pled guilty in U.S. District Court, Greensboro, NC, to false statements to
HUD. From 2002 to 2005, Gray allegedly failed to report income on HAWS
certifications and obtained approximately $18,000 in HAWS housing assistance she
was not entitled to receive. HAWS terminated Gray from its rental assistance
program.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Wilhemenia Jefferson, a former Bucks County Housing Authority (BCHA) HCVP
participant, was charged in Bucks County Court of Common Pleas, Doylestown, PA,
with theft by deception, receiving stolen property, and tampering with public records.
Jefferson allegedly submitted forged employment documents and fraudulent income
amounts to BCHA and obtained $17,406 in BCHA housing assistance she was not
entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Cheryl Davis, a former St. Louis County Housing Authority (SLCHA) Section 8
tenant, was indicted in U.S. District Court, St. Louis, MO, for causing materially false,
fictitious, and fraudulent statements and representations. Davis and others allegedly
conspired to conceal property ownership from SLCHA, and Davis obtained an
undetermined amount of SLCHA housing assistance she was not entitled to receive. In
addition, Janet Buckner, a USDA employee and former SLCHA Section 8 tenant, was
sentenced to 5 months probation and ordered to pay SLCHA and others $33,775 in
restitution for her earlier guilty plea to false statements to HUD, SSA and USDA.
Buckner failed to report income on SLCHA certifications and obtained $16,534 in



HUD’s Public and Indian Housing Programs                                              63
SLCHA housing assistance and more than $109,000 in USDA and SSA benefits she was
not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Nancy Savitch, a former Fall River Housing Authority (FRHA) Section 8 tenant,
pled guilty in U.S. District Court, Boston, MA, to theft of government funds and SSA
fraud. From May 2000 to March 2004, Savitch failed to report income to FRHA or
SSA and obtained $16,411 in FRHA housing assistance and $39,956 in SSA benefits she
was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Cheryl Vaughan, a District of Columbia Housing Authority (DCHA) public
housing tenant, pled guilty in Superior Court, Washington, DC, to fraud and was
sentenced to 180 days confinement and 5 years supervised probation and ordered to
pay DCHA $12,000 in restitution. From 2000 through 2005, Vaughan falsified her
income on DCHA certifications and obtained $16,322 in DCHA housing assistance she
was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Connie Wooten, a former Housing Authority of Kansas City, MO (HAKC), Section
8 tenant and U.S. Postal Service employee, pled guilty in Jackson County Circuit Court,
Kansas City, MO, to stealing by deceit and was sentenced to 40 hours community
service and ordered to pay HAKC $5,000 in restitution. Wooten failed to report
income on HAKC certifications and obtained $16,294 in HAKC housing assistance she
was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Lisa Phillip and Carl Johnson, Housing Authority of the City of Pottsville (HACP)
HCVP participants, were each indicted in U.S. District Court, Scranton, PA, for
conspiracy. Phillip and Johnson allegedly failed to report employment income or
property ownership and rental income on HACP certifications and obtained $15,473 in
HACP housing assistance they were not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Bobbie Smith, a former Fairfield Housing Authority (FHA) HCVP participant, pled
no contest in Solano County Superior Court, Fairfield, CA, to false statements. Smith
allegedly leased a dwelling in Suisun City, CA, failed to report her leased residence or
live in her FHA subsidized unit as her sole residence, and obtained $14,606 of FHA
housing assistance she was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Philomina Shalo, an Olathe Housing Authority (OHA) Section 8 tenant, was charged
in Johnson County Court, Olathe, KS, with stealing. From 2002 to 2006, Shalo


64                                                HUD’s Public and Indian Housing Programs
allegedly failed to report income on OHA certifications and obtained $13,783 in OHA
housing assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Linda L. Romero, a former Jefferson County Housing Authority (JCHA) Section 8
recipient, was sentenced in U.S. District Court, Denver, CO, to 5 years probation and
ordered to pay HUD $20,338 in restitution for her earlier guilty plea to false
statements. From July 2003 to October 2004, Romero earned income using an alias
and false SSN, failed to report the income to JCHA or SSA, and obtained $13,745 in
JCHA housing assistance and $10,968 in SSA disability insurance payments she was not
entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Tien Doan, a Santa Ana Housing Authority (SAHA) Section 8 recipient, was charged
in Orange County Superior Court, Santa Ana, CA, with filing a false/forged
instrument, perjury and grand theft. Doan allegedly failed to disclose his lifetime sex
offender registrant status on SAHA certifications and obtained more than $12,000 in
SAHA housing assistance he was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Tamra Butler and Ray Eugene Jones, former Tooele County Housing Authority
(TCHA) Section 8 tenants, pled guilty in Tooele County District Court, Tooele, UT, to
public assistance fraud. Butler and Jones were each sentenced to 36 months probation
and ordered to pay TCHA $12,000 in restitution, jointly and severally. From 2004 to
2006, Butler failed to report that Jones resided in her TCHA housing unit and obtained
$12,000 in TCHA housing assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Jill Sulser, a Torrance City Housing Authority (TCHA) HCVP participant, was
charged in Los Angeles County Superior Court, Torrance, CA, with welfare fraud and
theft. From 2004 to 2005, Sulser allegedly failed to report self-employment income on
TCHA certifications and obtained more than $11,445 in TCHA housing assistance she
was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Gail Bush, a former Area Housing Authority of the County of Ventura (AHACV)
HCVP participant, pled guilty in Ventura County Superior Court, Thousand Oaks,
CA, to grand theft and perjury. From June 2002 to February 2003, Bush failed to
report income on AHACV certifications and obtained $10,587 in AHACV housing
assistance she was not entitled to receive. AHACV terminated Bush from its rental
assistance program.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




HUD’s Public and Indian Housing Programs                                            65
    Iris Riley, a former Lakeland Housing Authority (LHA) Section 8 tenant, pled guilty
in Polk County Tenth Judicial Circuit Court, Bartow, FL, to public assistance fraud
and was sentenced to 5 years probation and ordered to pay LHA $6,500 in restitution.
From January 2003 to December 2005, Riley failed to report income on LHA
certifications and obtained about $9,975 in LHA housing assistance she was not
entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Alisia Etheridge, a former Norfolk Redevelopment and Housing Authority (NRHA)
Section 8 tenant, pled guilty in U.S. District Court, Norfolk, VA, to making false
statements to HUD and was sentenced to 60 months probation and ordered to pay
HUD $9,744 in restitution. Etheridge failed to report income from her U.S. Postal
Service employment on NRHA certifications and obtained $9,744 in NRHA housing
assistance she was not entitled to receive. NRHA terminated Etheridge from its rental
assistance program.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Tamiko Lockett, a Section 8 tenant through Rental Assistance Corporation (RAC),
a HUD-funded nonprofit, was sentenced in U.S. District Court, Buffalo, NY, to 60
months probation and ordered to pay HUD $9,549 in restitution for her earlier guilty
plea to false statements to HUD. From September 2003 to November 2005, Lockett
failed to report income on RAC certifications and obtained $9,549 in RAC housing
assistance she was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Kathy Frazier, a former Richmond Redevelopment Housing Authority (RRHA)
public housing tenant, was indicted in Richmond Circuit Court, Richmond, VA, for
obtaining money by false pretenses. Frazier allegedly failed to report income on RRHA
certifications and obtained more than $9,300 in RRHA housing assistance she was not
entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Sherry White, a former Fairfield Housing Authority (FHA) Section 8 tenant, was
sentenced in U.S. District Court, Fairfield, AL, to 5 years probation and ordered to pay
FHA $9,115 in restitution for her earlier guilty plea to theft of government funds. From
2003 to 2004, White hid her familial relationship to her FHA landlord and obtained
$9,115 in FHA housing assistance she was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Teresa Reid, a former Franklin Redevelopment Housing Authority (FRHA)
employee and Section 8 recipient, was indicted in Southampton County Court, Franklin,
VA, for forgery. Reid allegedly underreported her FRHA income, forged the signature
of another FRHA employee on employment verification forms, recertified herself on



66                                                HUD’s Public and Indian Housing Programs
FRHA housing assistance certifications and obtained $7,400 in FRHA housing
assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    William M. Foster, a Kentucky Housing Corporation (KHC) Section 8 tenant, was
arrested after his indictment in U.S. District Court, Bullitt County, KY, for wire fraud
and false statements. Foster allegedly claimed a deceased household member on KHC
certifications and obtained $7,196 in KHC housing assistance he was not entitled to
receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Marietta Sims, a former City of Houston Housing Authority (CHHA) Section 8
recipient and U.S. Postal Service employee, was arrested after her indictment in Harris
County District Court, Houston, TX, for theft. From August 2004 to December 2005,
Sims allegedly failed to report income on CHHA certifications and obtained more than
$5,000 in CHHA housing assistance and $1,400 in food stamp benefits she was not
entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Jacqueline Davis, a Pasadena Housing Authority (PHA) Section 8 tenant, was charged
in Los Angeles County Superior Court, Pasadena, CA, with perjury, grand theft and
obtaining money under false pretenses. Davis allegedly failed to report the
unauthorized residency of her brother, a convicted felon and lifetime sex offender
registrant, on PHA certifications and obtained more than $4,700 in PHA housing
assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Catherine M. Schlepp, a Mobridge Housing and Redevelopment Commission
(MHRC) Section 8 tenant, was indicted in U.S. District Court, Sioux Falls, SD, for
false statements. In 2005, Schlepp allegedly failed to report income on MHRC
certifications and obtained $4,622 in MHRC housing assistance she was not entitled to
receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Gloria Dutton, a former Augusta Housing Authority (AHA) Section 8 tenant, was
indicted in Kennebec County Superior Court, Augusta, ME, for aggravated forgery
and theft by deception. Dutton allegedly failed to report her ownership interest in her
AHA subsidized housing unit and obtained $3,028 in AHA housing assistance she was
not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Tariq Ayyad, a former Housing Authority of the City of Napa (HACN) Section 8
landlord, was charged in Napa County Superior Court, Napa, CA, with grand theft.


HUD’s Public and Indian Housing Programs                                             67
From December 2003 through April 2004, Ayyad allegedly failed to report the transfer
of his ownership interest in HACN-subsidized property and obtained $2,780 in HACN
housing assistance he was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Donald Leaper, a North Little Rock Housing Authority (NLRHA) Section 8 tenant
and VA employee, was charged in Pulaski County District Court, Little Rock, AR, with
theft of public benefits. Leaper allegedly failed to report income on NLRHA
certifications and obtained $2,296 in NLRHA housing assistance he was not entitled to
receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Marwan Othman El-Hindi, a public housing tenant at Lucas Metropolitan Housing
Authority (LMHA) previously indicted for theft of public funds, false statements, wire
fraud, and conspiracy, was charged with others in a superseding indictment filed in
U.S. District Court, Cleveland, OH, with conspiring to provide material support to
terrorists, distributing information regarding the manufacture and use of explosives,
and making and using false documents. El-Hindi and others, operating a nonprofit
organization known as Educational Social Foundation Services, Inc. (ESFS), allegedly
applied for and obtained a $40,000 Low Income Taxpayer Clinic Program grant from
the IRS to operate tax clinics and provide Federal income tax services but failed to
operate any clinics and diverted and personally used the grant funds. In addition,
El-Hindi allegedly provided false documents to LMHA and obtained $2,270 in LMHA
housing assistance he was not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Joseph Barbieri, a former Waterbury Housing Authority (WHA) Section 8
landlord, was indicted in Connecticut Superior Court, Waterbury, CT, for larceny and
forgery. Barbieri allegedly obtained about $1,152 in WHA housing assistance contract
payments on property he did not own.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Jeffrey St. Martin, Ayanna Israel, Renita Burke, Shirley Rogers, Carla Phillips,
William C. Daniel, Blue and Son Contracting Co., Nehkayvah Enterprises, Inc., Regency
Title Co., LTD., Dana Capital Group, and Artis D. White, doing business as Avinic
Financial Group and Avinic Investment Group, LLC, were each indicted in Cuyahoga
County Common Pleas Court, Cleveland, OH, for theft by deception, securing
writings by deception, forgery, telecommunication fraud, tampering with records,
receiving stolen property, acting as a mortgage broker or real estate agent without a
license, and/or falsification. The above defendants allegedly provided false information
and forged documents to obtain mortgage loans on overvalued properties, then leased
the properties to Cuyahoga Metropolitan Housing Authority Section 8 or HCVP
participants.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




68                                                HUD’s Public and Indian Housing Programs
    Five New York City Housing Authority (NYCHA) public housing tenants were
arrested on outstanding State warrants charging them with theft and/or grand larceny
at Marcy Green Homes in Brooklyn, NY. The above defendants, allegedly running an
identity theft operation, obtained victims' SSNs, birthdates, and employment
information; activated credit accounts in the victims' names; then used the fraudulent
credit cards for purchases.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    An individual identified as "John Doe" was arrested after his indictment in U.S.
District Court, Worcester, MA, for making a false statement in the application for a
passport and misuse of an SSN. Doe, whose real identity is unknown, allegedly used the
identity of another to obtain a U.S. passport and DOE guaranteed loan while
illegally residing in a Massachusetts Department of Housing and Community
Development-subsidized unit.

Fugitive Felon Initiatives
    Section 903 of Public Law 104-193 is titled "Elimination of Housing Assistance with
Respect to Fugitive Felons and Probation and Parole Violators." Signed into law in
1996, it allows for tenancy termination of public housing recipients who flee to avoid
prosecution or confinement after conviction of a felony or when felons violate parole or
probation conditions imposed under Federal or State laws. This law also authorizes law
enforcement agencies to exchange information and perform data matches.

    HUD assists approximately 4.8 million households through public housing and
rental assistance including Section 8 and Housing Choice Voucher programs.
Reducing overpaid rent subsidies is a HUD management improvement goal as stated in
the President's Management Agenda and an OIG goal as stated in our strategic plan.
The identification and termination of fugitive felons fleeing felony prosecution or
probation and parole violators may impact HUD's housing assistance subsidies.

    OIG continues to support Fugitive Felon Initiatives (FFI) by matching HUD
housing assistance information with crime data from the National Crime Information
Center, U.S. Marshals Service (USMS), and/or participating States. Since the
inception of OIG's FFI, hundreds of cases have been opened and closed, resulting in
more than 988 arrests. In addition, OIG provides tenant records matching USMS wanted
persons lists and participates in "Operation FALCON," a USMS operation designed to
apprehend fugitive felons living in public and assisted housing.

    Operation FALCON (Federal and Local Cops Organized Nationally), a nationwide
fugitive felon apprehension operation coordinated by the USMS, combines Federal,
State, city, and county law enforcement resources in a joint effort to locate and
apprehend criminals wanted for violent crimes. Conducted in most major cities
throughout the United States and its territories, Operation FALCON places a strong
emphasis on violent crimes involving gangs, weapons, homicides, and sexual assaults,
along with crimes against children and the elderly. In addtion to other locales,
Operation FALCON targets wanted felons in public housing. OIG strongly supports


HUD’s Public and Indian Housing Programs                                             69
                              Copyright, 2006. The Boston Globe - Boston, MA. Reprinted with permission.


Operation FALCON in an effort to make HUD-assisted housing a safe place for families
to live.

    OIG participated in "Operation FALCON III," a USMS action initiated to identify,
locate, and apprehend violent fugitives, particularly those charged with sex crimes. As
a result, 2,185 individuals were arrested on outstanding felony warrants in Hartford,
New Haven, Waterbury, and Bridgeport, CT; Tampa, FL; Atlanta and Macon, GA;
Boston, Worcester, Springfield, West Springfield, Holyoke, and Chicopee, MA;
Greensboro, NC; throughout NJ; Lafayette, LA; Gulfport, MS; and the Vermont
counties of Franklin and Chittenden. HUD OIG arrested 240 individuals; 116 of
those arrested resided in HUD-assisted housing.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


70                                                   HUD’s Public and Indian Housing Programs
    In conjunction with a Department of Justice Public Housing Safety Initiative, HUD
OIG participated in an "Operation FALCON" in Baltimore, MD. As a result, 196
individuals were arrested on outstanding felony warrants. HUD OIG arrested 75
individuals; 25 of those arrested resided in HUD-assisted housing.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Chuck Rosenberg, U.S. Attorney for the Eastern District of Virginia; Bob McDonnell,
Attorney General of the Commonwealth of Virginia; and members of the Metro-
Richmond Identity Theft Task Force announced the indictments of 51 individuals on
Federal charges of identity theft and other offenses in a press conference held in
Richmond, VA. During the operation, dubbed "Operation Reconcile," HUD OIG
participated in the arrest of 24 individuals indicted; seven of those arrested resided in
HUD-assisted housing.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Seventeen Aurora Housing Authority (AHA) Section 8 tenants were arrested in
Aurora, CO, on outstanding warrants for failure to appear and/or contempt of court;
five of the above defendants were also issued citations for possession of drugs and/or
drug paraphernalia. Belinda Foreman and Andrea Coleman, AHA Section 8 tenants,
each pled guilty in Aurora Municipal Court to possession of drug paraphernalia and/or
possession of cannabis.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Kaylene Elder, Charlotte Martinex, Michael Omal, Patricia Thompson, Ashlei
Christopher, and Kimberly Shuffet, Salt Lake City Housing Authority public housing
or HCVP participants, were arrested in Salt Lake City, UT, on outstanding warrants
for possession of marijuana, carrying a concealed weapon, failure to appear, or traffic
violations.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Howard Harrell, an unauthorized tenant in a Yonkers Municipal Housing
Authority-subsidized unit and lifetime sex offender, was arrested on an outstanding
State felony warrant in Yonkers, NY, for failing to register.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    As part of a national Fugitive Felon Initiative involving law enforcement personnel
from HUD OIG and the Salt Lake County Sheriffs Office, Loren Johnson, a Salt Lake
City Housing Authority applicant, was arrested in Salt Lake City, UT, on an
outstanding felony warrant issued by the State of Oregon.

Other Fraud/Crimes
   Mary K. Pedlow, also known as Mary Casey Ackerman, an employee of Ackerman
Mechanical Services, Inc., a Buffalo Municipal Housing Authority (BMHA) contractor,
was sentenced in U.S. District Court, Buffalo, NY, to 1 year probation for her earlier

HUD’s Public and Indian Housing Programs                                               71
guilty plea to submitting false documents to HUD. Pedlow and previously sentenced
Eric Ackerman, president of Ackerman Mechanical Services, Inc., falsely certified their
qualification as a Minority Business Enterprise (MBE) and their use and distribution of
contract work to an actual MBE company on BMHA projects, then obtained
approximately $1.75 million in BMHA contracts they were not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Kevin Timochenko, a Reading City Housing Authority (RCHA) landlord and owner
of Metropolitan Management Corporation, was sentenced in U.S. District Court,
Reading, PA, to 15 months incarceration and 36 months supervised release and fined
$75,000 for his earlier guilty plea to theft of utilities from an interstate pipeline.
Timochenko, representing that he paid tenant utilities in his RCHA housing assistance
contract, installed bypass devices on utility meters and pilfered natural gas valued at
approximately $800,000 from UGI Utilities, Inc. HUD debarred Timochenko from
the HCVP.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Forty-seven residential and commercial properties owned by Ida Carson, doing
business as Carson Investments, Puritan Development, Inc., and Wyoming-Fenkell
Investment Corporation, were named in a Federal civil forfeiture action filed in U.S.
District Court, Detroit, MI. Ida Carson and her deceased husband, previously indicted
Clarence Carson, allegedly obtained the above properties with proceeds derived from
illegal narcotic transactions, then leased approximately 28 residential properties to
Section 8 or HCVP participants through the Michigan Housing Development
Authority, Detroit Housing Commission, or other HUD-funded organizations.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Hiram Lewis, owner of section8programs.com, was sentenced in U.S. District Court,
St. Louis, MO, to 18 months supervision and ordered to allow unlimited oversight and
review of his Internet Web site for his previous guilty plea to wire fraud. Lewis
published false and misleading information on his Web site in an effort to solicit and
obtain Internet subscriptions and application fees from HUD clientele and low-income
families attempting to obtain fictional low-income grants.




72                                                HUD’s Public and Indian Housing Programs
    Chapter 3




HUD’s Multifamily
Housing Programs
    In addition to multifamily housing developments with U.S. Department of Housing
and Urban Development (HUD)-held or HUD-insured mortgages, the Department
owns multifamily projects acquired through defaulted mortgages, subsidizes rents for
low-income households, finances the construction or rehabilitation of rental housing,
and provides support services for the elderly and handicapped. In addition to the
audits and investigations described in this chapter, OIG has also conducted numerous
outreach efforts. (see chapter 8, page 124)

Audits

           Strategic Initiative 2: Contribute to the Reduction of Erroneous
                             Payments in Rental Assistance
     Key Program Results             Questioned Costs             Funds Put to Better Use
Audit           6 Audits                 $395,000                        $37 Million

  Our            page 75        - HUD’s Use of Multifamily Residual Receipts
 Focus           page 75        - Owner and Management Agent Operations




       Chart 4.1: Percentage of OIG Public and Indian Housing Audit Reports
                            During this Repoting Period
                                                                                        Region 1
                                                                                       Boston 17%

                                              Region 5                Region 2
                                             Chicago 0%             New York 32%
                         Region 7-8
                       Kansas City 17%




                                                                                       Region 3
                                                                                   Philadelphia 0%




       Region 9-10                                                         Region 4
     Los Angeles 17%                                                      Atlanta 0%
                                                Region 6
                                             Fort Worth 17%




74                                                            HUD’s Multifamily Housing Programs
HUD’s Use of Multifamily Residual Receipts
   HUD OIG reviewed HUD's use of multifamily projects' receipts to determine
whether HUD used multifamily projects' residual receipts to reduce housing assistance
payments.

    HUD did not provide detailed guidance to ensure that project managers and
contract administrators understood that they could use residual receipts in lieu of
subsidy payments. As a result, HUD did not use more than $36 million in available
residual receipts to reduce housing assistance payments for the 10 projects reviewed.

    OIG recommended that HUD provide detailed guidance to its field offices and
contract administrators that will identify when projects have sufficient residual receipts
to fund housing assistance payments and provide and annually update a list of projects
to the field offices and contract administrators that indicates when projects have
sufficient residual receipts to fund subsidy payments. (Audit Report: 2007-KC-0002)

Owner and Management Agent Operations
    Over the past 6 months, OIG has audited owner and management agent operations
with an emphasis on combating equity skimming. While OIG's objectives varied by
auditee, the majority of the reviews were to determine whether the owner and/or
management agent used the project funds in compliance with the regulatory
agreement and HUD requirements. The results of OIG's more significant audits are
described below.

   HUD OIG audited The Associates Group Pioneer Pines Park, located in
Bakersfield, CA, in response to a request from the HUD Departmental Enforcement
Center.

    Pioneer Pines failed to collect more than $195,000 in rental payments from its mobile
home dealers, paid more than $133,000 in unsupported wages, made payments of more
than $373,000 for ineligible expenses, commingled funds and repaid advances while in
a non-surplus-cash position, failed to maintain its vacant spaces in good repair and
condition, and failed to make required mortgage payments.

   OIG recommended that HUD require the owner to repay the uncollected rent and
other ineligible and unsupported expenses. OIG also recommended that HUD pursue
double damages remedies against the owner for the inappropriate disbursements that
were used in violation of the regulatory agreement, pursue action under the Program
Fraud Civil Remedies Act against the owner's president, and impose other civil money
penalties and administrative sanctions against the president and owner. (Audit
Report: 2007-LA-1001)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Peregrine Health Management Company's, Syracuse, NY,
management of the financial operations of Peregrine's Landing Senior Community in
response to a complaint.

HUD’s Multifamily Housing Programs                                                     75
    The agent used almost $117,000 in project funds for items that were ineligible,
unsupported, and/or not necessary or reasonable for project operations. Further,
$50,000 in project funds and more than $35,000 in a bond and associated interest were
held, in addition to a more than $5,000 account payable, to cover non-project-related
legal fees. In addition, the agent collected almost $73,000 in excessive management
fees that could have been avoided and used project funds to pay the salary and benefits
of one of its employees, resulting in ineligible costs of almost $40,000.

     OIG recommended that HUD instruct the owner and agent to develop procedures
to ensure compliance with its regulatory agreement and HUD rules and regulations
and require the owner and agent to (1) reimburse the project for the ineligible and/or
unnecessary costs, (2) submit supporting documentation to justify all unsupported
costs and reimburse the project from nonproject funds all amounts determined to be
ineligible, (3) unencumber the project by removing more than $5,000 in accounts
payable from the project's books and records and take appropriate action to prevent
future payments of non-project-related legal expenses, (4) negotiate a management
fee that is reasonable and commensurate with the services provided, and (5) reimburse
the project from nonproject funds for the excessive supervisory salary paid. (Audit
Report: 2007-NY-1003)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   HUD OIG reviewed operations at Harris Health Center, 016-43106, a 34-bed
nursing home located in East Providence, RI, because the mortgage was delinquent
and final endorsement of a HUD-insured loan was delayed.

    The Center did not ensure that renovations were completed properly. It also paid
unnecessary interest and non-project-related costs and did not properly calculate and
pay fees to its related management agent. As a result, the Center did not receive the full
benefits of its renovations and spent money on unnecessary expenses, all of which
contributed to operating losses and cash flow shortfalls.

    OIG recommended that HUD require the Center's owner to correct the
renovation deficiencies, develop a repayment plan to reimburse the project nearly
$22,000 for unnecessary and non-project-related costs, and establish a consistent
management agent structure and method for computing and paying management agent
fees. (Audit Report: 2007-BO-1004)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited Asbury Square Apartments located in Tulsa, OK, in response to
a request from HUD.

   Sheltering Palms - Tulsa I, LLC, the owner and borrower, and Paramount Property
Group, LLC, the management agent, spent almost $35,000 on ineligible and
unsupported costs.

  OIG recommended that HUD require Sheltering Palms to support or reimburse
HUD's Federal Housing Administration (FHA) insurance fund almost $35,000 and take


76                                                       HUD’s Multifamily Housing Programs
appropriate administrative sanctions against Sheltering Palms and its principals/
officers and Paramount and its owners. (Audit Report: 2007-FW-1006)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG reviewed the management fees claimed by the management agent P.J.
Alizio Realty, Inc., pertaining to six multifamily properties in Mineola, NY. For the
fees tested, the agent generally calculated the management fees in compliance with
applicable HUD requirements and did not claim payments in excess of those specified
in the certifications. However, certifications for two projects were not submitted to
HUD as required.

    OIG recommended that HUD request that the management agent submit the
certifications for the two projects to HUD and implement procedures to ensure that
whenever management fees are revised, a new certification is submitted to HUD.
(Audit Report: 2007-NY-1801)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




HUD’s Multifamily Housing Programs                                                 77
Investigations
    Some of the investigations discussed in this report were conducted jointly with
Federal, State, and local law enforcement agencies. The results of OIG’s more
significant investigations are described below.



            Strategic Initiative 2: Contribute to the Reduction of Erroneous
                              Payments in Rental Assistance
     Key Program           Cases                 $                Convictions/Pleas/             Admin/Civil
       Results             Closed            Recovered                Pretrials                    Actions
  Investigations              49            $1.45 Million                    46                         57
                           page 79       - Theft/Embezzlement
      Our Focus            page 81       - Rental Assistance Fraud
                          page 82        - Other Fraud Crimes




 Chart 4.2: Percentage of OIG Multifamily Housing Closed Investigation Cases
                        During this Reporting Period*
                                                                                                       Region 1
                                                                                                      Boston 6%

                                                        Region 5                    Region 2
                                                       Chicago 13%                New York 4%
                            Region 7-8
                          Kansas City 15%




                                                                                                     Region 3
                                                                                                 Philadelphia 26%




       Region 9-10                                                                        Region 4
     Los Angeles 21%                                                                     Atlanta 2%
                                                           Region 6
                                                        Fort Worth 13%

* This does not include cases where funds misused came from Congress for the hurricane relief.
(see chapter 6 for these cases)




78                                                                       HUD’s Multifamily Housing Programs
Theft/Embezzlement
    David E. Forgy, chief executive officer of RM&G, doing business as Heartland Health
Care Group of Oklahoma, was indicted in U.S. District Court, Oklahoma City, OK, for
equity skimming, false statements, misapplication of health care benefit program funds,
and aiding and abetting. From March 2001 through December 2002, Forgy allegedly
disbursed funds from Heartland Health Care Center (HHCC) project accounts for his
personal benefit while HHCC was in a non-surplus-cash position, then defaulted on
HHCC's HUD-insured mortgage loan and caused HUD losses in excess of $4.4 million.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Larry Lippman, a former managing agent for Republic Management at Eastwood
Terrace Apartments (ETA), a HUD-subsidized multifamily housing complex, pled guilty
in U.S. District Court, Beaumont, TX, to embezzlement. From August 2000 to June
2003, Lippman embezzled ETA funds by manipulating ETA accounts under his
control. HUD realized losses of $347,693.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Herbert Wright, Community Resource Management, Inc., and Ennis Francis Houses
Associates were named in a $3 million civil complaint filed in U.S. District Court, New
York City, NY. The complaint seeks to recover funds and civil damages resulting from
the unauthorized use and misuse of assets and income from a HUD-funded multifamily
property known as Ennis Francis Houses (EFH) located in Harlem, NY. The
defendants allegedly depleted $150,000 in EFH funds for their personal use or political
contributions and certified nonexistent tenants, causing approximately $160,000 in
rent subsidy overpayments. HUD loss is estimated at approximately $310,000.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Wanda Mercado, a former Peabody Properties manager at Schoolhouse 77, a HUD-
subsidized multifamily complex, was sentenced in U.S. District Court, Boston, MA, to
2 years incarceration and 3 years supervised release and ordered to pay Peabody
Properties $82,571 for her earlier guilty plea to bribery. Mercado solicited and received




                        Copyright, 2007. The Brockton Enterprise - Boston, MA. Reprinted with permission.


HUD’s Multifamily Housing Programs                                                                     79
more than $34,000 from unqualified Section 8 applicants seeking Schoolhouse 77
subsidized units. HUD realized losses in excess of $151,478 when 10 unqualified
applicants obtained subsidized housing units they were not entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Patricia Yats, the former site manager at Grange Acres Senior Citizen (GASC)
complex, a HUD-subsidized multifamily housing development, was sentenced in U.S.
District Court, Grand Rapids, MI, to 6 months incarceration and 2 years probation
and ordered to pay HUD $119,233 in restitution for her earlier guilty plea to
embezzlement. Yats embezzled $119,000 from GASC by writing, endorsing and
cashing GASC checks, then used the GASC funds for gambling.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Joel Hernandez, a former contractor for United Housing Management (UHM), a
HUD multifamily Section 8 contractor, pled guilty in U.S. District Court, Boston, MA,
to conspiracy to defraud an agency of the United States. Hernandez solicited and
received $35,700 in bribes from five Section 8 applicants seeking HUD-subsidized
housing units managed by UHM. HUD realized losses of approximately $150,000 when
three unqualified Section 8 applicants obtained subsidized housing units they were not
entitled to receive.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Mary Spruell, the former treasurer of D. Edward Wells Federal Credit Union
(DEWFCU) and owner/manager of Walnut Street Apartments, an FHA-insured
multifamily project, was sentenced in U.S. District Court, Springfield, MA, to 12 months
home confinement with electronic monitoring, 3 years supervised release, and 200 hours
community service and ordered to pay National Credit Union Administration $114,000
in restitution and file an amended Federal income tax return for her earlier guilty plea
to embezzlement, filing a false Federal income tax return, and aiding and abetting.
Spruell embezzled more than $114,000 from DEWFCU, including more than $65,000
from Walnut Street Apartments. Terms of her previous plea agreement include the
forced sale of Walnut Street Apartments to repay HUD for unauthorized distributions,
excessive management fees, and court ordered restitution.




                           Copyright, 2006. The Republican - Springfield, MA. Reprinted with permission.


80                                                           HUD’s Multifamily Housing Programs
Rental Assistance Fraud
    Arinola Ajidele-Parlor, a former Section 8 tenant at Sheridan Gunnerson Apartments,
a HUD-subsidized multifamily housing complex, was sentenced in U.S. District Court,
Chicago, IL, to 6 months home confinement and 3 years probation and ordered to
pay HUD $47,348 in restitution for her previous guilty plea to false statements.
Ajidele-Parlor failed to report income, her purchase of an FHA-insured home and two
FHA-insured refinances, or her nonresidency and business use of the HUD-subsidized
housing unit on annual certifications and obtained $47,348 in housing assistance she
was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Darlean Marcucilli, also known as Darlean Hall, a New York State Division of
Housing and Community Renewal (HCR) Section 8 recipient and New York Police
Department administrative aide, and her husband John Marcucilli, an HCR senior
housing management representative, were each indicted in U.S. District Court, New
York City, NY, on conspiracy and theft of government funds. Darlean Marcucilli
allegedly failed to report her husband's income or residency on HCR certifications and
obtained approximately $37,464 in HCR housing assistance she was not entitled to
receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Eight Section 8 tenants at Park 7 Apartments, a HUD-subsidized multifamily
complex, were arrested on outstanding warrants issued by Johnson County District
Court, Olathe, KS, for false statements. The above defendants allegedly failed to report
income on housing certifications and obtained approximately $32,000 in housing
assistance they were not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Elsa Ondina Herrera-Martinez, a former Section 8 tenant at High Point Village, a
HUD-subsidized multifamily housing complex, was convicted in U.S. District Court,
Boston, MA, of theft of government funds, aggravated identity theft, and illegally
obtaining a Social Security number. Herrera-Martinez and previously charged Rafael
Rosario illegally acquired and used the identity of another to obtain more than $15,000
in housing assistance they were not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Donald Pierce, a former Section 8 tenant at William Woods Apartments, a HUD-
subsidized multifamily housing complex, was sentenced in U.S. District Court,
Portland, ME, to 13 months incarceration and 3 years probation and ordered to pay
HUD $15,000 in restitution for his earlier guilty plea to false statements to HUD. Pierce
falsified assets and income on annual certifications and obtained $15,000 in housing
assistance he was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○



HUD’s Multifamily Housing Programs                                                     81
    Lashanda McLaughlin, Dollie Jamison, and Delores James, former HUD multifamily
Section 8 tenants at Walnut Grove Apartments, each pled guilty in Clay County Court,
Liberty, MO, to stealing. McLaughlin was sentenced to 5 years probation and ordered to
pay HUD $3,006 in restitution, Jamison was sentenced to 24 months probation and
ordered to pay HUD $1,153 in restitution, and James was sentenced to 24 months
probation and ordered to pay HUD $1,560 in restitution. The above defendants failed to
report income on annual certifications and obtained $5,719 in HUD housing assistance they
were not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Dris Mitchell, a Section 8 tenant at Crestview Apartments, a HUD-subsidized
multifamily housing complex, was indicted in U.S. District Court, Jackson, MS, for false
statements and claims. Mitchell allegedly provided false income information on annual
certifications and obtained $3,759 in housing assistance she was not entitled to receive.

Other Fraud/Crimes
    Aaron Dare, a former owner of three FHA-insured multifamily properties, pled guilty in
U.S. District Court, Albany, NY, to wire fraud, false statements to HUD, and conspiracy.
Berne Watkins, the previous owner of the three FHA-insured multifamily properties sold
to Dare, was indicted on conspiracy, wire fraud, false statements to HUD, and aiding and
abetting. In 2000 and 2001, Dare and Watkins allegedly executed two promissory notes,
creating the appearance that Dare held equity worth $2.5 million and, thereby, enabling
him to purchase the above properties from Watkins. Dare used the fraudulent promissory
notes to obtain FHA-insured mortgages on the three properties, then failed to make
mortgage payments as promised. HUD realized losses of $1.9 million after the mortgages
defaulted.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Edward Boppert, a former Section 8 tenant at Stony Crest Towers, a HUD-
subsidized multifamily housing complex, was indicted in Middlesex Superior Court,
Middleton, CT, on possession of child pornography. Boppert allegedly possessed 322
images of child pornography in his HUD-subsidized unit.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   As a result of "Operation Justice," law enforcement personnel from the U.S.
Marshals Service, Fort Worth Police Department, Fort Worth City Marshals, Tarrant
County Sheriff's Office, and HUD OIG arrested 25 individuals on outstanding felony
warrants in Fort Worth, TX; 16 of the individuals arrested resided in HUD-subsidized
multifamily housing units.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Shirzad “Rocky” Mehrrafiee was arrested on outstanding felony warrants charging him
with bank and wire fraud at his grandmother's Section 8 unit in Ashbrooke Apartments, a
HUD-funded multifamily complex located in Kansas City, MO.


82                                                       HUD’s Multifamily Housing Programs
       Chapter 4




HUD’s Community Planning
and Development Programs
    The Office of Community Planning and Development (CPD) seeks to develop
viable communities by promoting integrated approaches that provide decent housing,
suitable living environments, and expanded economic opportunities for low- and
moderate-income persons. The primary means toward this end is the development of
partnerships among all levels of government and the private sector. In addition to the
audits and investigations described in this chapter, The Office of Inspector General
(OIG) has also conducted numerous outreach efforts. (see chapter 8, page 134)

Audits

       Strategic Initiative 3: Contribute to the Strengthening of Communities
     Key Program Results             Questioned Costs          Funds Put to Better Use
Audit          10 Audits                 $5 Million                   $4 Million
                 page 85        - Community Development Block Grant Programs
  Our
 Focus
                 page 87        - Supportive Housing Program Grant
                 page 88        - HOME Investment Partnerships Program




         Chart 5.1: Percentage of OIG Community Planning and Development
                      Audit Reports During this Repoting Period
                                                                                     Region 1
                                                                                    Boston 20%

                                                Region 5           Region 2
                                               Chicago 0%        New York 10%
                         Region 7-8
                       Kansas City 30%




                                                                                    Region 3
                                                                                Philadelphia 10%




       Region 9-10                                                     Region 4
     Los Angeles 20%                                                  Atlanta 10%
                                                  Region 6
                                               Fort Worth 0%




84                                         HUD’s Community Planning and Development Programs
    OIG audits the Community Development Block Grant (CDBG) program,
Supportive Housing Program Grant, and HOME Investment Partnerships Program
(HOME) program. While OIG's objectives varied by auditee, the majority of the
reviews were to determine whether the grant funds were administered for eligible
activities and that they met program objectives. The following section illustrates the
audits conducted in the CPD area.

Community Development Block Grant Programs
     The U.S. Department of Housing and Urban Development (HUD) OIG audited the
City of St. Louis, MO's use of its CDBG funds. OIG did not find any material
deficiencies in the City's allocation of administrative costs to the CDBG program.
However, the City provided loans totaling nearly $4.5 million to 52 of 66 economic
development projects that could not demonstrate that they met HUD's requirements
for creating and retaining jobs. The City also did not require the St. Louis Development
Corporation to properly report the number of jobs it created with the HUD funds it
loaned to projects.

    OIG recommended that HUD require the City to (1) provide sufficient
documentation to show that the 52 projects created or retained at least the minimum
number of jobs or repay $1.7 million in forgivable loans provided to projects and create
additional jobs to offset the $2.8 million in repayable loans that did not properly create
or retain jobs and (2) improve its control structure to ensure that the nearly $1.7
million in underway projects creates the appropriate number of jobs and impose
sanctions against its development corporation if poor performance continues.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     HUD OIG audited the Office of Community Development, City of Chicopee, MA's
administration of its CDBG and HOME programs. The City did not adequately
administer more than $2.2 million in housing rehabilitation contracts funded through
its CDBG and HOME programs. It did not perform the required independent analysis
of cost estimates submitted by developers before awarding rehabilitation contracts,
did not always enforce procurement and financial management contract provisions
included in written agreements with developers, did not adequately address
performance problems on the part of developers identified during reviews performed
by it, and approved final payments for unfinished projects. In addition, it approved
more than $1.2 million in unreasonable and unsupported rehabilitation contract costs.
The $1.2 million is part of the overall $2.2 million, and the City's use of a $700,000
community housing development organization set-aside from the HOME program was
an ineligible use of these funds.

    OIG recommended that HUD require the City to establish written policies and
procedures for both the HOME and CDBG programs that meet HUD requirements for
awarding, administering, and monitoring program funds. OIG also recommended that
the City provide supporting documentation for the $1.2 million in unsupported costs,
including establishing the reasonableness of the costs, or repay the funds and be



HUD’s Community Planning and Development Programs                                      85
directed not to use set-asides on the ineligible project, which will allow $700,000 to be
put to better use for other eligible projects. (Audit Report: 2007-BO-1003)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the operations of the City of Amsterdam, NY, regarding its
administration of a Section 108 loan obtained in May 2002 under HUD's Canal
Corridor Initiative. The grantee did not disburse Section 108 loan proceeds in
accordance with CDBG and Section 108 loan rules and regulations. Specifically, some
loan proceeds were not disbursed in accordance with the loan application, while other
funds were disbursed without adequate support, and there is no evidence of
compliance with labor standards. As a result, the grantee could not demonstrate that
loan proceeds totaling $535,000 were used for proper, reasonable, and eligible costs.

    OIG recommended that HUD instruct the grantee to submit supporting
documentation to justify all unsupported costs, so that HUD can make an eligibility
determination, and reimburse the program from nonfederal funds for all amounts
determined to be ineligible. OIG also recommended that the grantee develop
administrative controls that will ensure compliance with all Section 108 loan guarantee
regulations and requirements for all future CDBG-related funding. (Audit Report:
2007-NY-1002)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited the Gwinnett County, Lawrenceville, GA, CDBG and HOME
programs. The Block Grant and HOME projects reviewed were eligible and met HUD's
national objectives, and the subrecipients operated the projects in accordance with
their contract with the grantee. However, the grantee's subrecipients did not provide
their share of the project funding as required by their contracts. As of October 31,
2006, the subrecipients had not provided more than $278,000 toward the projects.

     OIG recommended that HUD require the grantee to either collect the funds due
from the subrecipients according to the contracts or amend the contracts
appropriately. In the future, if the grantee does not require the subrecipients to
provide funding to the projects, the contracts should not contain this requirement.
Also, the grantee should establish controls to ensure that all contract requirements are
enforced. (Audit Report: 2007-AT-1003)

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG audited HUD's Hartford, CT, Office of Community Planning and
Development (CPD) due to indications of inadequate monitoring identified during a
previous OIG external audit. The Hartford CPD office appeared to ensure that CDBG
funds were used for activities that met one of the three primary national objectives and
were eligible and properly classified. However, it did not always adequately monitor
CDBG program participants or follow HUD requirements. It did not always issue
required monitoring letters in a timely manner, maintain or complete required
documentation, and perform adequate followup. Inadequate monitoring allows
findings and concerns to go uncorrected, placing CDBG funds at unnecessary risk.


86                                    HUD’s Community Planning and Development Programs
Further, the lack of an administrative record and required documentation negatively
impacts HUD and makes enforcing sanctions more difficult.

    OIG recommended that HUD implement additional oversight and a plan to ensure
that (1) the CPD staff are familiar with and understand HUD monitoring requirements;
(2) monitoring letters are prepared and provided to the program participants within
45 days; (3) correct handbook exhibits are used, completed, and prepared
electronically before issuance of the monitoring letter; (4) all correspondence,
documentation, and working papers relating to the monitoring and conclusions are
maintained in the official field office files; (5) adequate followup is performed and
documented; and (6) the director of the Hartford CPD office is complying with the
procedures and policies described in these recommendations. (Audit Report: 2007-
BO-0001)

Supportive Housing Program Grant
    HUD OIG audited the City of Long Beach, CA's Continuum of Care Supportive
Housing Program to determine whether the City (1) monitored its project sponsors
adequately to ensure compliance with HUD regulations, (2) closed out expired grants
in compliance with HUD regulations, (3) provided the proper amount of
administrative fees to its project sponsors, and (4) made timely reimbursements to its
project sponsors.

    The City failed to (1) monitor its project sponsors, which resulted in project
sponsors being unable to support required cash match; (2) close out expired grants in
accordance with HUD requirements; (3) provide at least 50 percent of the
administrative fees to the project sponsors as Congress intended; and (4) make timely
reimbursement payments to its project sponsors. As a result, the City failed to ensure
that HUD funds were spent in the most effective and efficient manner, unnecessarily
overburdened project sponsors, and put HUD funds at risk. Additionally, the City
unnecessarily delayed nearly $2 million in expired grant funds from being deobligated.

    OIG recommended that HUD require the City to comply with HUD's and its own
policies and procedures regarding on-site monitoring of its project sponsors, provide
support for more than $315,000 in cash match or repay HUD for more than $1.1 million
in expended grant funds, immediately close out nearly $637,000 in expired grants so
these funds can be put to better use, and reevaluate its payment process and establish
and implement procedures to reduce the time it takes to reimburse its project
sponsors. (Audit Report: 2007-LA-1003)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   HUD OIG audited the YWCA of Seattle, WA, King and Snohomish Counties, to
determine whether it administered its Supportive Housing Program grants in
accordance with HUD requirements, Office of Management and Budget requirements,
and the grant agreements.

   The YWCA generally administered its Supportive Housing Program grants in
accordance with HUD requirements. However, it received excess funds because it did

HUD’s Community Planning and Development Programs                                  87
not provide a sufficient cash match for one of its grants. It was also unable to support
labor costs charged to its grants.

    OIG recommended that HUD require the YWCA to (1) repay more than $118,000
in grant funds expended without the required cash match, (2) reimburse the grant
and/or repay HUD from nonfederal funds for the nearly $69,000 in unsupported labor
costs unless it can provide adequate supporting documentation, and (3) implement
policies and procedures so that its grants are carried out in accordance with applicable
laws and regulations. (Audit Report: 2007-SE-1001)

HOME Investment Partnerships Program
    HUD OIG reviewed the City and County of Denver, CO's HOME program to
determine whether the City properly established, administered, and accounted for
eligible HOME projects.

    The City did not properly enter its data into the Integrated Disbursements and
Information System, which resulted in its incorrectly reserving $722,000 in HOME
funds. In addition, the City did not have adequate controls over the administration of
its HOME activities and funds. Therefore, HUD lacked assurance that management
properly accounted for or realized maximum benefit from the HOME funds.

    OIG recommended that HUD require the City to implement policies and
procedures to ensure that it accurately and completely enters and maintains all required
information in the HUD system and to ensure effective administration of the HOME
program. (Audit Report: 2007-DE-1001)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    HUD OIG reviewed the HOME program administered by the State of Nebraska's
Department of Economic Development in Lincoln, NE. The audit objective was to
determine whether the State closed HOME-funded projects in accordance with HUD
requirements.

    The State did not close HOME projects in HUD's computer systems in a timely
manner. It has made progress in properly closing several hundred past-due projects,
but many projects remain unresolved.

   OIG recommended that HUD verify that the State has implemented appropriate
controls to ensure that it closes HOME projects in HUD's data systems within the
required timeframes, monitor the State's progress in closing projects currently
exceeding HUD's required timeframes, and ensure that the projects are closed
properly and expeditiously. (Audit Report: 2007-KC-1005)

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




88                                   HUD’s Community Planning and Development Programs
Investigations
    Some of the investigations discussed in this report were conducted jointly with
Federal, State, and local law enforcement agencies. The results of OIG’s more
significant investigations are described below.



      Strategic Initiative 3: Contribute to the Strengthening of Communities
   Key Program             Cases                 $                Convictions/Pleas/              Admin/Civil
     Results               Closed            Recovered                Pretrials                     Actions
  Investigations              34            $1.6 Million                      32                        22
                          page 90        - Theft/Embezzlement
     Our Focus
                          page 95        - Other Fraud Crimes




  Chart 5.2: Percentage of OIG Community Planning and Development Closed
               Investigation Cases During this Reporting Period*
                                                                                                       Region 1
                                                                                                      Boston 26%

                                                        Region 5                     Region 2
                                                       Chicago 9%                  New York 22%
                            Region 7-8
                          Kansas City 13%




                                                                                                      Region 3
                                                                                                  Philadelphia 9%




      Region 9-10                                                                         Region 4
     Los Angeles 9%                                                                      Atlanta 4%
                                                           Region 6
                                                        Fort Worth 9%


* This does not include cases where funds misused came from Congress for the hurricane relief.
(see chapter 6 for these cases)




HUD’s Community Planning and Development Programs                                                                   89
Theft/Embezzlement
    Derrick Earls and Johnnie Wright, board members of HUD-funded Gary Urban
Enterprise Association (GUEA), each pled guilty in U.S. District Court, Hammond,
IN, to conspiracy to commit mail fraud and theft concerning programs receiving
Federal funds. Earls, Wright, and others diverted and personally used more than
$750,000 in GUEA funds.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Patti Buffington, the former
executive director of Genesis
House (GH), a HUD-funded
emergency shelter providing
housing, rehabilitation, and other
services for prostitutes, and
Valerie Lewis, the former GH
chief financial officer, were
arrested and charged in criminal
complaints filed in Cook County
Circuit Court, Chicago, IL.
Buffington was charged with
organizing a continuing financial
crimes enterprise, and Lewis was
charged with theft; together they
were charged with embezzling
HUD CPD and U.S Department
of Health and Human Services
funds. Buffington and Lewis
allegedly embezzled more than
$526,000 in GH funds and then
used the money for vacations and
vehicles and to pay private school                 Copyright, 2006. Chicago Sun Times - Chicago, IL.
tuition and previously assessed                                          Reprinted with permission.
Federal income tax.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Murilda "Chris" Hayes, executive director of Love Social Services Center (LSSC), a
HUD- and U.S. Department of Justice (DOJ)-funded nonprofit, and her husband James
C. Hayes, the former LSSC treasurer, mayor of Fairbanks, AK, and current pastor of
Lily of the Valley Church of God in Christ, were charged in a superseding indictment
filed in U.S. District Court, Fairbanks, AK, with criminal forfeiture of funds up to
$825,000. Murilda and James Hayes were previously indicted for conspiracy, theft,
fraud, misapplication from an organization receiving Federal funds, money laundering,
and engaging in monetary transactions involving criminally derived property. From
2000 to 2005, Murilda Hayes allegedly wrote and negotiated LSSC checks payable to
cash; obtained money orders or cashier checks with the LSSC funds; and in concert


90                                   HUD’s Community Planning and Development Programs
with James Hayes, used LSSC
funds to purchase personal items,
pay for personal expenses, or
provide furnishings and pay for
Lily of the Valley Church of God
in Christ construction and
operating expenses. HUD and
DOJ grant funds embezzled are
estimated to exceed $450,000.

  ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Leroy Brown, a former
financial manager for the Salvation
Army, was sentenced in U.S.
District Court, Newark, NJ, to 37
months incarceration and 3 years
probation and ordered to pay the
Salvation Army $385,760 for his
previous guilty plea to conspiracy
to steal from an organization
receiving Federal funds and           Copyright, 2007. Daily News-Miner - Fairbanks, AK. Reprinted
Federal income tax evasion.                                                       with permission.
Brown embezzled $385,760 from
a Salvation Army bank account,
funded in part with HUD Housing Opportunities for Persons with AIDS (HOPWA)
program funds, by creating fraudulent client files, check request forms, and court
documents to support the issuance of bogus landlord payments to previously indicted
and sentenced Susan Bigelow.

                                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Francis Keough III, the former executive director of Friends of the Homeless (FOH),
a HUD-funded nonprofit, was sentenced in U.S. District Court, Springfield, MA, to 3
years incarceration and 2 years probation, fined $50,000, and ordered to pay FOH and
others $145,000 in restitution and forfeit $145,000 in cash for his previous guilty plea
to extortion, obstruction of justice, false statements, witness tampering, perjury, and
filing a false Federal income tax return. In addition, Angel T. Guzman, the former FOH
operations manager; Michael P. Hallahan, a former FOH intake supervisor; and Daniel J.
McNamee, a former Springfield Housing Authority (SHA) maintenance supervisor, each
pled guilty to mail fraud, conspiracy to commit mail fraud, obstruction of due
administration of justice, and/or filing false Federal income tax returns. Keough lied to
Federal agents while under oath, attempted to persuade witnesses, provided fabricated
jobs or offered no-bid FOH contracts to family members, and diverted and used FOH
inventory while building a personal residence in Rhode Island; Guzman assisted Keough
in falsely certifying FOH unit occupancy information and obtaining approximately
$38,000 in FOH housing assistance for unqualified tenants; Hallahan, while employed
at and during FOH working hours, assisted Keough with the construction of his


HUD’s Community Planning and Development Programs                                              91
                            Copyright, 2007. The Republican - Springfield, MA. Reprinted with permission.

personal residence; and McNamee caused SHA to purchase heating components later
installed in Keough's personal residence. HUD losses are estimated at $145,000.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Theodore LeBlanc, the former Norristown Borough mayor; and Herbert Bagley, a
former insurance broker and contractor for Norristown Borough, were each sentenced
in U.S. District Court, Norristown, PA, for their earlier guilty pleas to mail fraud,
bribery, conspiracy, bank fraud, filing a false Federal income tax return, and/or honest
service mail fraud. LeBlanc was sentenced to 51 months incarceration and 36 months
supervised release, fined $2,000, and ordered to pay HUD $83,000 in restitution; and
Bagley was sentenced to 30 months incarceration and 24 months supervised release,
fined $1,200, and ordered to pay HUD $43,845 in restitution. From 2002 through 2005,
LeBlanc illegally awarded contracts to Bagley and others, allowed Bagley to submit false
invoices for services not performed, ordered Norristown Borough finance department
officials to pay the fraudulent invoices using HUD CDBG funds, and received
approximately $50,000 in bribery payments from Bagley. HUD realized losses of
$126,845.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Chang Sheng Yu, a Chinese national and president of American McKinley Venture
Management, Inc., was sentenced in U.S. District Court, New York City, NY, to 15
months incarceration and 36 months supervised release and ordered to pay Empire
State Development Corporation (ESDC) $118,876 in restitution for his previous guilty
plea to theft of government funds, mail fraud, and submission of false Social Security
numbers. Yu, an undocumented immigrant, was also ordered deported when released
from prison. Yu falsely obtained a Business Recovery Grant and attempted to obtain a
Small Firm Attraction and Retention Grant through ESDC, a HUD-funded nonprofit
established to provide assistance to businesses in lower Manhattan after the
September 11, 2001, terrorist attacks.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○

92                                     HUD’s Community Planning and Development Programs
    Elischa Campbell, the former director of Just-a-Sister-Away House of Texas, Inc.
(JASA), a HUD-funded supportive housing nonprofit, was indicted in State District
Court, Houston, TX, for misappropriation of fiduciary property or property of a
financial institution. Campbell allegedly submitted false documents to support the
use of $47,500 in JASA funding to purchase property, but no property was acquired.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Sharon L. Johnson, a former case manager at United Services Community Action
Agency (USCAA), a HUD-funded organization, was sentenced in U.S. District Court,
Kansas City, MO, to 3 months each incarceration and community confinement and 3
years supervised probation and ordered to pay HUD $24,250 in restitution for her
earlier guilty plea to theft of government funds. Johnson and others obtained $24,250
in USCAA funds by issuing USCAA housing payments to fictitious landlords.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Kemeaka Martin-Thorton, a former program assistant at Athens-Clarke Human
Economic Development (ACHED), a HUD-funded organization, pled guilty in U.S.
District Court, Athens, GA, to theft by deception and was sentenced to 26 consecutive
weekend incarcerations and 15 years probation and ordered to pay Clarke County $16,331
in restitution. Martin-Thorton obtained and personally expended $16,331 in ACHED
funds.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Whitfield Jenkins, president of the Ocala Leased Housing Corporation (OLHC)
board and the unofficial executive director of OLHC, a HUD-funded organization, was
arrested after grand theft charges were filed in Fifth Judicial Circuit Court, Ocala, FL.
Jenkins allegedly obtained and personally used $10,043 in OLHC funds.




                                    Copyright, 2007. Star-Banner - Ocala, FL. Reprinted with permission.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Mark Marcucilli, the former assistant director of housing management for New York
State Division of Housing and Community Renewal (HCR); his father Fred Marcucilli;
and Carmine Carpinone were each sentenced in U.S. District Court, New York City,

HUD’s Community Planning and Development Programs                                                    93
NY, for their earlier guilty pleas to conspiracy, conspiracy to commit mail fraud, mail
fraud, and/or theft of government funds. Mark Marcucilli was sentenced to 1 year and 1
day incarceration and 2 years supervised release and ordered to pay Lower Manhattan
Development Corporation (LMDC) $10,863 in restitution; Fred Marcucilli was
sentenced to 1 year probation; and Carpinone was sentenced to 24 months probation
and ordered to pay South Bridge Towers $15,870 in restitution. Mark and Fred Marcucilli
and Carpinone conspired to obtain LMDC funds by falsely claiming a residence in the
lower Manhattan World Trade Center area. LMDC is a HUD-funded organization
created to coordinate the rebuilding and revitalization of lower Manhattan after the
September 11, 2001, terrorist attacks.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Marilee Jackson, the former community development director of the City of
Paterson, a HUD-funded local government organization, pled guilty in Passaic
County Court, Newark, NJ, to official misconduct, theft by deception, and
misapplication of property. Jackson, in a pretrial
intervention agreement, agreed to pay the City of
Paterson $2,475 and a vendor $350 for misusing
HUD funds and purchasing unapproved merchandise.

             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Anthony Ardolino, the former chief of staff for the
mayor of Springfield, MA, and his brother Chester
Ardolino, a former Springfield police officer, each pled
guilty in U.S. District Court, Springfield, MA, to
conspiracy and filing false Federal income tax returns.
Anthony Ardolino influenced the awarding of HUD
CDBG funds earmarked for the City of Springfield's
Façade program to various businesses, including
businesses owned by Chester Ardolino and other family
members.

             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    John Cushmeer and Larry Radcliff, regional
coordinators for Cleveland Housing Network (CHN), a
HUD-funded organization, and Shiryl Chambers, a
maintenance manager for CHN, were each indicted in
U.S. District Court, Cleveland, OH, for conspiracy and
theft or bribery concerning programs receiving Federal
funds. Cushmeer, Radcliff, and Chambers allegedly
obtained kickbacks from contractors securing CHN
low-income rehabilitation contracts, created fabricated
work orders for contracts never completed, and used
CHN contractors to perform work at their personal
residences. HUD losses have not yet been determined.              Copyright, 2007. The Republican -
                                                                        Springfield, MA. Reprinted
                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○
                                                                                    with permission.
94                                    HUD’s Community Planning and Development Programs
    Joseph McNulty, Sam K. John, and George Thomas each pled guilty in U.S. District
Court, Newark, NJ, to bribery concerning programs receiving Federal funds and
aiding and abetting. From January 2004 to September 2006, McNulty, John, and
Thomas, under rehabilitation contracts with New Brunswick Department of
Community Planning and Economic Development (DCPED), a HUD-funded
organization, paid multiple DCPED employees in exchange for monthly rehabilitation
contracts, expedited and lenient inspections, and accelerated contract payments. HUD
losses have not yet been determined.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


Other Fraud/Crimes
    The Eleventh Circuit U.S. Court of Appeals
(appellate court) affirmed the convictions and
sentencing of Steve Allen LaBrake, Paulette Lynne
LaBrake, and Chester Maurice Luney in Atlanta,
GA. Steve LaBrake, the former City of Tampa
Community Redevelopment Agency (TCRA)
director, his wife Paulette LaBrake, a former TCRA
senior redevelopment counselor, and Luney, the
former chief executive officer of Tampa
Hillsborough Action Plan, a City of Tampa low-
income housing contractor, were previously
convicted of bribery, wire fraud, conspiracy, and
other charges. The appellate court agreed that the
trial evidence was sufficient to prove beyond a
reasonable doubt that the above defendants were
guilty of the above charges and further rejected
the defendants' arguments challenging their
indictment, the district court's conduct at trial,
and Steve LaBrake's sentencing. Steve and Paulette
LaBrake are currently serving 60 and 41 months
imprisonment, respectively, and Luney is serving
33 months incarceration.
                                                          Copyright, 2007. St. Petersburg Times - St.
                                                          Petersburg, FL. Reprinted with permission.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Douglas Hersom was indicted in U.S. District Court, Portland, ME, for maliciously
damaging or destroying a building by means of fire. Hersom and others allegedly set a
fire and destroyed a building under renovation and owned by Greeley Capital, LLC, the
recipient of a $50,000 HUD CDBG loan through the City of Lewiston Economic and
Community Development Office.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




HUD’s Community Planning and Development Programs                                                 95
    James Joyce, a former HUD CPD employee in Manchester, NH, was sentenced in
U.S. District Court, Concord, NH, to pay a $1,000 fine for his earlier guilty plea to
carrying a weapon into Federal space. In August 2004, Joyce transported and
possessed a knife in the Manchester Federal Building. Joyce retired from HUD in
January 2006.




96                                 HUD’s Community Planning and Development Programs
   Chapter 5




Hurricane Relief
  Oversight
             Cases Closed by Program Area During this Reporting Period*




              12                                                           11

              10
                                            8
               8

               6

               4
                              2                              2
               2                                                                            1

               0
                         SF             PIH             MF            CPD            Other



* Total number of hurricane-related cases, some of which may have been worked in different States due to relocation
of evacuees.




98                                                                                   Hurricane Relief Oversight
Introduction and Background
    Since Hurricanes
Katrina, Rita, and Wilma
struck the Gulf Coast, the
U.S. Department of
Housing and Urban
Development (HUD),
Office of Inspector
General (OIG), has
established an audit and
investigative presence in
the disaster area to
combat fraud, waste,
and abuse. HUD has
received supplemental
appropriations          of
approximately $17 billion
that have begun to flow to the States in the form of HUD Community
Development Block Grants (CDBG) for housing and other needs. In addition, $390
million was provided for emergency housing vouchers for households within the
declared disaster area.

     The HUD OIG Office of Audit (OA) responded quickly to establish Hurricane
Katrina oversight to prepare for the long recovery process. The newly created regional
office, Gulf Coast Region, is staffed by seven permanent employees and one additional
auditor detailed from another HUD OIG regional office. As of March 31, 2007, OA has
completed four audits of HUD's emergency disaster funding (two internal and two
external) with a total contract value of $22.8 million. Of this amount, auditors reported
questioned costs of $96 thousand. Currently, auditors are evaluating the control
processes for the two largest contractors of the homeowner grant programs for the
States of Louisiana and Mississippi, respectively.

    The Office of Investigations (OI) created the HUD Headquarters Disaster Relief
Oversight Division (DROD) to perform oversight responsibilities in the detection and
prevention of waste, fraud, and abuse of all HUD funds in the five affected Gulf Coast
States. DROD plays a significant role in monitoring and tracking the HUD disaster
funds from HUD Headquarters program areas to the Gulf States, identifying fraud
weaknesses and potential criminal and civil cases. OI has also established a new Gulf
Region with offices in New Orleans, LA; Baton Rouge, LA; Houston, TX; Arlington, TX;
Jackson, MS; and Hattiesburg, MS. The Gulf Region coordinates investigations with
the U.S. Department of Justice (DOJ) Hurricane Katrina Fraud Task Force (HKFTF).
OI is an active member of HKFTF in Baton Rouge, LA. DROD coordinates public
corruption and contract fraud matters with DOJ. OI continues to provide training,
presentations, and outreach on HUD disaster recovery funding matters to
prosecutors, law enforcement, and State agencies.




Hurricane Relief Oversight                                                            99
Hurricane Financial Profiles of HUD Community
Development Block Grant Funds
    The following provides
a snapshot of the HUD
CDBG disaster funds
appropriated to the five
Gulf States and a summary
of the programs for two
of the five Gulf States,
Mississippi and Louisiana.
These       funds      are
aggressively being tracked
and monitored for waste,
fraud, and abuse, from
HUD to the State Agencies
and to the contractors,
consultants, homeowners, and evacuees by HUD OIG Office of Audit and Office of
Investigations.

Disaster Community Development Block Grant
      - $16.6 billion authorized to five Gulf Coast States (disbursed $1.828 billion)
        - Alabama         $ 95,613,574 (disbursed $1.2 million)
        - Florida         $ 182,970,518 (disbursed $33,000)
        - Louisiana       $ 10,410,000,000 (disbursed $525.4 million)
        - Mississippi     $ 5,481,221,059 (disbursed $1.3 billion)
        - Texas           $ 503,194,849 (disbursed $1.3 million)

State of Louisiana
   The Road Home Program
  (authorized $3.5 billion; disbursed $503.6 million)

    The purpose of The Road Home program is to rebuild Louisiana's impacted
communities. Devastated communities will be subjected to abandoned homes, clouded
land titles, and disinvestments if a large portion of the financial assistance is not
provided to homeowners. Also note that some owner-occupants may choose none of
the basic options to repair, rebuild, or relocate in Louisiana. In these instances, the
State will compensate the homeowner for 60 percent of the home's prestorm value, less
insurance and Federal Emergency Management Agency (FEMA) repair funds. The State
received 119,297 homeowner applications and held 4,373 closings that averaged an award
of $76,900 per homeowner.




100                                                                  Hurricane Relief Oversight
   Housing for Renters
  (authorized $845.9 million; disbursed $3.8 million)

    The Louisiana Recovery Authority (LRA) will allocate funds for the Workforce and
Affordable Rental Programs (by formula) to ensure that those parishes with the most
damaged or destroyed rental housing have adequate resources to replace significant
numbers of affordable rental units.

   Restoration Homeless Support
  (authorized $25.9 million; disbursed $55,200)

   The proposed $25.9 million will support the State's goal to immediately restore
and expand capacity in hurricane-impacted areas and provide permanent supportive
housing and assistance for persons and families who are homeless and persons at risk of
becoming homeless.

   Other Housing Activities
  (authorized $32.1 million; disbursed $0)

   This program is to provide special incentives to attract new mixed-income housing
development to restore both the rental and owner-occupied housing stocks. The plan
proposes several developer incentives, with a special focus on the New Orleans
metropolitan area and other communities with major losses to their housing stock.

    Infrastructure

    The storms severely affected the infrastructure of many of our communities, some
of which continue to suffer from the lack of electricity, telephone, and gas service. The
total impact on roads, bridges, and utilities, including debris removal, is estimated at
$15 to $18 billion.

    - Local Government Emergency Infrastructure
     (authorized $595 million; disbursed $0)

     This program will provide local governments with the required FEMA match for
emergency infrastructure projects. The method of distribution will be on a first come,
first served basis, as public assistance projects are approved by FEMA.

    - State Infrastructure
    (authorized $142.5 million; disbursed $9.3 million)

    Louisiana has developed a process to determine the priorities and timing in
restoring State buildings because it is impossible to repair all 1,528 damaged facilities
at the same time.

   Economic Development
  (authorized $332.5 million; disbursed $3.1 million)

    The economic development programs ($332.5 million) are designed to provide
capital, provide technical assistance, rebuild the customer base and provide trained

Hurricane Relief Oversight                                                            101
employees for existing businesses, and rebuild the base for developing new, higher wage
jobs for both the short-term and long-term economic recovery of Louisiana.

   Public Services
  (authorized $46.7 million; disbursed $0)

   The fully funded program will support an estimated 3,000 units with supportive
housing services. Other HUD programs, such as the McKinney Vento Act,
project-based Section 8 vouchers, and Sections 811 and 202 program funds, may
supplement supportive efforts.

    Supportive services will be provided in 30 percent of the 6,000 to 9,000 rental
units targeted to households with incomes at or below 40 percent of area median
income. To provide that level of services, the State proposes to allocate $46.7 million of
the currently available CDBG funds to help pay for the services. This program
component and use of CDBG funds for supportive services is proposed with the
recognition that the number of supportive housing units that can be developed in
Louisiana over the next few years will be severely limited by the scarcity of public and
private funding for the necessary resident services.

   Planning
  (authorized $9.5 million; disbursed $1.85 million)

    LRA will develop priorities for the use of CDBG Disaster Recovery Assistance funds.
LRA is organized into task forces in the areas of economic development, workforce
development, health, human services, infrastructure, environmental, housing, and
education. The roles of these groups include the development of best practices based
on strategic plans to guide the recovery and rebuilding process and the efficient use of
funds as well as to make recommendations to the LRA board on programs funded
through the CDBG program ($9.5 million).

   Technical Assistance
  (authorized $12.42 million; disbursed $20,900)

    LRA will provide assistance to units of local governments to help plan and
implement long-term recovery strategies. Louisiana's Office of Community
Development will provide preapplication workshops for local governments as well as
implementation workshops. Technical assistance programs will be developed to assist
in areas where it has been determined that a need exists. Training and materials on
various topics will be provided to assist homeowners, inspectors, contractors, etc.
One-on-one technical assistance will be provided to those units of local governments
experiencing performance problems. Currently, $12.4 million is being set aside for
technical assistance activities.

   Administrative Costs
  (authorized $148.6 million; disbursed $3.5 million)

    These funds will be used to pay reasonable administration costs related to
the planning of disaster recovery community development activities. Program


102                                                              Hurricane Relief Oversight
administration costs will include staff and related costs required for overall program
management, coordination, monitoring, reporting, and evaluation. This category
includes both the State's cost of administering the program and units of general local
governments' costs of administering grants awarded by the State. For administration,
$148.6 million is being set aside.

   Restricted Balance
  (authorized $450 million; disbursed $0)

    Funds held in reserve.

   2nd Supplemental Funds
  (authorized $4.2 billion; disbursed $0)

    Plans not yet approved.

State of Mississippi
   Homeowner Grant Assistance Program
  (authorized $3.25 billion; disbursed $878.4 million)

    The purpose of
the Homeowner Grant
Assistance program is
to provide a one-time
grant payment (maximum
$150,000) to eligible
homeowners who had
suffered flood damage to
their primary residence as
of August 29, 2005, from
Hurricane Katrina. The
Homeowner Assistance
program is designed to
provide compensation to
those impacted by the hurricane. The State received 18,465 homeowner applications,
and paid 11,894 grants that averaged an award of $70 thousand per homeowner.

    Also noted - There is no requirement that the homeowner occupy the property
after replacement/rehabilitation work is completed. After certain deductions, the
homeowner has complete discretion of the use of grant funds, as allowable by State and
Federal law, as they work through their personal disaster recovery situation.

    Public Housing
  (authorized $100 million; disbursed $482,600)

    The purpose of this public housing program is to provide funding, in an amount up
to $100 million, to the five housing authorities that suffered damages to their facilities
on August 29, 2005, from Hurricane Katrina.

Hurricane Relief Oversight                                                             103
   Building Permit-Inspections
  (authorized $5 million; disbursed $205,500)

    The Mississippi Development Authority will establish a $5 million grant pool (for
local governments in Hancock, Harrison, Pearl River, and Jackson Counties) for costs
of additional permitting and building inspector officials for 1 year due to the
significant amount of construction taking place on the Mississippi Gulf Coast.

   Gulf Coast Regional Infrastructure Program
  (authorized $31.5 million; disbursed $3.4 million)

    The purpose of the plan is to provide infrastructure (water, sewer, and storm water
utility service) for long-term growth and recovery in Hancock, Harrison, George,
Jackson, Pearl River, and Stone Counties.

   Privately Owned Utilities
  (authorized $440 million; disbursed $420 million)

    The Ratepayer and Wind Pool Mitigation Plan will help utility and gas companies
defray excessive costs associated with damaged infrastructure, provide emergency
response services, and help the Mississippi Windstorm Underwriting Association
offset insurance premium increases.

   Economic Development
  (authorized $500 million; disbursed $0)

    The Economic Development Program is designed to assist local governments
affected by Hurricane Katrina (Pearl River, Stone, George, Hancock, Harrison, and
Jackson Counties) in providing infrastructure to support economic development
(grants or loans to assist companies in creating or retaining jobs - $340 million, a
community revitalization program to rebuild the downtown areas - $150 million, and
$10 million for planning).

   Administrative Costs
  (authorized $169.2 million; disbursed $2.1 million)

   Up to 5 percent (or $169.2 million) of a State's allocation is authorized for planning
and administrative activities.

   Restricted Balance
  (authorized $562.4 million; disbursed $0)

      Funds held in reserve.

   2nd Supplemental Funds
  (authorized $423 million; disbursed $0)

      Plans not yet approved.



104                                                             Hurricane Relief Oversight
Audit
    During this period, OIG issued an audit memorandum, dated December 8, 2006,
regarding HUD's procedures and controls over the Katrina Disaster Housing Assistance
Program (KDHAP) and Disaster Voucher Program (DVP).

Emerging Oversight Trends
   OA is in the process of starting other reviews of the States' (specifically Louisiana,
Mississippi, and Alabama) system of controls over the issuance of the $16.7 billion in
CDBG funding. The following is a list of planned audits:
    - Homeowner Grant Assistance Program (MS)
    - Elevation Grants Program (MS)
    - Local Assistance Grants Program (MS)
    - Fraud Prevention and Investigation Program (MS)
    - Housing Programs - The Road Home, Small Rental Program, Tax Credit
    - Supportive Housing and Predevelopment Loan Program (LA)
    - Infrastructure Programs (LA)
    - Economic Development - Bridge Loan Program (LA)
    - Disaster Relief Program (AL)
    - Restoration of Infrastructure Program (AL)
    - Long-Term Recovery Program (AL)

    Also, on January 30, 2007, the HUD Secretary stated that the Department would
provide $27.3 million in funding to help five Mississippi housing authorities continue
repairing thousands of public housing units damaged by Hurricane Katrina. Last year,
HUD issued additional guidance that allowed eligible public housing authorities (PHA)
to convert regular Housing Choice Voucher (Section 8) program funds to the DVP,
which made voucher program funding available. PHAs were then permitted to use
these funds to repair public housing units. OIG is monitoring the progress of this
rebuilding effort and will schedule a review at the appropriate time.

Final Audit Products
   Evaluation of HUD's Procedures and Controls for the Katrina Disaster Housing
Assistance Program and Disaster Voucher Program:

    HUD OIG audited the KDHAP and DVP programs. HUD and FEMA developed
KDHAP in response to Hurricane Katrina. HUD replaced KDHAP with DVP on
January 31, 2006, and included HUD participants affected by both Hurricanes Katrina
and Rita. KDHAP and DVP provided rent to participants up to the fair market rent
and housing authority payment standard, respectively. The objective was to evaluate
the adequacy of the two programs' operational procedures and controls. HUD OIG
only noticed minor mistakes in the operational procedures and controls review and did


Hurricane Relief Oversight                                                           105
not disclose any major findings. However, the second phase of the review, which
involves recipient eligibility, has initial indications of possible problems. (Audit
Report: 2007-AO-0001-CM)

                            ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




106                                                             Hurricane Relief Oversight
Investigations
    HUD OIG DROD supports the Gulf Region and conducts a variety of
important activities on HUD OIG OI directives and initiatives associated with disaster
assistance and recovery. DROD implemented fraud prevention programs in the
affected States of the Gulf Coast Region. OIG officials have coordinated with State
agencies and their contractors, HUD program officials, and industry groups. HUD OIG
also hosted and participated in law enforcement meetings and conferences held
throughout the Gulf Coast region. HUD OIG continues to be an active member of the
DOJ HKFTF Command Center in Baton Rouge, LA. The Gulf Region consists of 10
special agents (including a Special Agent in Charge), six forensic auditors (including
a Supervisory Forensic Auditor), and one administrative officer. One of the forensic
auditors is assigned full time to the Command Center in Baton Rouge, coordinating
requests for information between HUD OIG and outside agencies.

     During this reporting period, OIG opened 90 and closed 24 investigations in the
Gulf Region Disaster Relief program areas. Judicial action taken on these cases include
41 arrests, 21 indictments/information, 11 convictions/pleas/pretrial diversions, $4,829
in investigative recoveries, and 14 administrative actions.

    Some of the investigations discussed in this report were conducted jointly with
Federal, State, and local law enforcement agencies, including the DOJ HKFTF.
Following the Attorney General's policy of "zero tolerance" for Hurricane Katrina-
related fraud, OIG pursues each allegation of waste, fraud, and abuse in HUD's
Hurricane Katrina, Rita, and Wilma-related benefit programs. The results of various
significant investigations are described below.

Hurricane-Related Benefit Fraud
    Trudy Davis, Naisha Davis, Lawrence Williams, Jerry Davis, Gilbert Gasice, and Larry
McDaniel, Sacramento Housing and Redevelopment Agency (SHRA) public housing,
Housing Choice Voucher program (HCVP), or unauthorized tenants of SHRA housing
assistance recipients, were indicted, arrested, pled guilty, or were sentenced in U.S.
District Court, Sacramento, CA, on various charges including aggravated identity theft,
false claims, false representation of a Social Security number (SSN), theft of
government property, false statements, or mail and wire fraud. Trudy Davis, Naisha
Davis, and Lawrence Williams allegedly applied for FEMA disaster assistance, claiming
they resided in a Louisiana declared disaster area, but actually resided in California during
the storm; Naisha Davis also allegedly used the name and SSN of another when she filed
her FEMA claim. Jerry Davis allegedly applied for and received $4,787 in SHRA public
housing and FEMA disaster assistance, claiming he resided in Monroe, LA, and was
displaced by Hurricane Katrina, but Monroe, LA, was not declared a disaster area.
Gasice, who pled guilty to false statements and wire fraud, claimed he was a Hurricane
Katrina victim, secured lodging and monetary aid from the Red Cross and other
charitable organizations, failed to report that he vacated his SHRA subsidized
residence, and obtained $1,140 in SHRA housing assistance he was not entitled to
receive. McDaniel was sentenced to 36 months probation and 300 hours community
service and ordered to pay FEMA $12,251 in restitution for his earlier guilty plea to

Hurricane Relief Oversight                                                               107
false claims. McDaniel claimed he resided in a Louisiana declared disaster area and
applied for FEMA disaster assistance but actually resided in an SHRA subsidized
housing unit. Collectively, the above defendants caused HUD losses of $5,927.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Phillip A. Winchester and Dominic T. Leperi, Jr., were each indicted in U.S. District
Court, Jackson, MS, for filing fraudulent applications and claims. Winchester and Leperi
allegedly filed fraudulent applications with FEMA, the Small Business Administration
(SBA), and the HUD-funded Mississippi Development Authority (MDA), claiming their
primary residences suffered hurricane damage, and obtained more than $29,992 in
FEMA assistance and SBA disaster loan funding, but neither properties damaged by
Hurricane Katrina were Winchester's or Leperi's primary residences.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Ernestine Lewis, a Mississippi Regional Housing Authority VII (MRHA) Section 8
tenant at Canal Street Apartments (CSA), and Willie Lewis, Willie Blackmon, Jr., Stacey
Lewis, Lisa Lewis, and Claudette Luckett, unauthorized tenants at CSA, were each
indicted in U.S. District Court, Jackson, MS, on false statements, aiding and abetting,
theft of government funds, and mail fraud. The above defendants allegedly filed for
FEMA assistance and claimed residency in separate Biloxi Housing Authority (BHA)
subsidized units during Hurricane Katrina and collectively obtained $25,485 in FEMA
assistance, but none of the defendants were BHA tenants during the storm. In
addition, Ernestine Lewis allegedly falsified household composition and obtained $1,023
in MRHA housing assistance she was not entitled to receive.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Tina Marie Winston was sentenced in U.S. District Court, Belleville, IL, to 48 months
incarceration and ordered to pay FEMA and others $23,982 in restitution for her
earlier guilty plea to mail fraud, misuse of an SSN, aggravated identity theft, false
statements, and concealment of information from the Social Security Administration
(SSA). Winston submitted fraudulent applications to HUD and FEMA, claiming she
lost her New Orleans home, possessions, and two children during Hurricane Katrina,
but Winston resided in Belleville, IL, during the storm and did not have any children.




                                Copyright, 2007. News-Democrat- Belleville, IL. Reprinted with permission.
                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Antoinette Perea, a San Francisco Housing Authority (SFHA) Section 8 tenant;
Kaneshaeia Boyd and Lawana Wyatt, SFHA public housing recipients; Tania Hill, a
former unauthorized Housing Authority of the County of Santa Clara (HACSC)

108                                                                       Hurricane Relief Oversight
Section 8 tenant; and Merolyn Wilson, a Section 8 tenant at All Hallows Garden
Apartments, a HUD-subsidized multifamily housing complex, were each charged in
U.S. District Court, San Francisco, CA, with theft of government funds. The above
defendants allegedly applied for and received FEMA funds after claiming to be
displaced victims of Hurricane Katrina but actually lived in the San Francisco area and
received HUD housing assistance during the storm.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     Jay Landers was indicted in U.S. District Court, New Orleans, LA, on theft of
government funds. Landers, while incarcerated during Hurricane Katrina, allegedly
filed for and obtained $14,750 in FEMA assistance by claiming residency at his mother's
Housing Authority of New Orleans subsidized unit, thus preventing his mother from
obtaining legitimate FEMA evacuee and property damage assistance.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Ashley Clark and Shannon Sylvester, Morgan City Housing Authority (MCHA)
Section 8 tenants, each pled guilty in U.S. District Court, Lafayette, LA, to theft of
public monies. Clark and Sylvester applied for and received $6,665 in FEMA disaster
assistance, but MCHA sustained no damage, nor were MCHA residents evacuated
during any hurricane.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Morris Singleton and Jermaine White were each sentenced in U.S. District Court,
New Orleans, LA, for their earlier guilty pleas to false statements. Singleton was
sentenced to 10 months confinement and 3 years supervised release and ordered to pay
FEMA $2,000 in restitution, and White was sentenced to 6 months incarceration and
2 years supervised release and ordered to pay FEMA $2,000. Singleton and White
applied for and received $2,000 in FEMA assistance by claiming residency in Terrebonne
Parish Housing Authority (TPHA) housing units and Hurricane Katrina evacuee
status, but neither Singleton nor White resided in TPHA housing units, nor did TPHA
suffer any hurricane damage.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Shantelle Griffin, a Section 8 tenant at Himbola Manor Apartments, a HUD-
subsidized multifamily housing complex, was indicted in U.S. District Court, Lafayette,
LA, for wire fraud and false claims. Griffin allegedly filed for and received $2,000 in
FEMA disaster assistance, claiming she sustained personal property damage and
evacuated as a result of Hurricane Katrina, but Himbola Manor Apartments sustained
no hurricane damage, nor were residents forced to evacuate during the storm.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Sheila Davis was sentenced in U.S. District Court, Harrisburg, PA, to 4 months
home detention and fined $350 for her earlier guilty plea to making false statements to
HUD. Davis filed a false application for emergency housing with the Housing
Authority of the County of Dauphin, claiming she was a Hurricane Katrina evacuee

Hurricane Relief Oversight                                                          109
forced to relocate from New Orleans, LA, to Harrisburg, PA, but Davis actually resided
in Harrisburg, PA, and was facing eviction from her apartment during the storm.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Latoya Dunn, a Section 8 tenant at Scotland Square Apartments, a HUD-subsidized
multifamily housing complex, was indicted in U.S. District Court, Baton Rouge, LA,
for making a false statement and submitting a false claim. Dunn allegedly filed a claim
with FEMA requesting $2,000 in FEMA funds as a result of Hurricane Katrina damages
to her personal property, but Scotland Square Apartments suffered no structural
damage, and residents were not forced to evacuate during either Hurricane Katrina or
Rita.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Joy Promise, a Housing Authority of Snohomish County (HASC) Section 8 tenant,
was indicted in U.S. District Court, Seattle, WA, for false statements. Promise
allegedly applied for FEMA assistance, claiming to be a displaced victim of Hurricane
Katrina, but actually lived in HASC subsidized housing during the storm.

Hurricane-Related Outreach
      Louisiana Outreach:
    Deputy Assistant Inspector General for Investigations (DAIGI) Ruth Ritzema and
Special Agent in Charge (SAC) Thomas Luke provided the current status on Louisiana
Road Home Program, multifamily, and Louisiana tax credit efforts and Federal
Housing Administration (FHA) single-family issues facing southeastern Louisiana
during briefings held in New Orleans and Baton Rouge, LA. HUD Departmental
Enforcement Center (DEC) Director and Senior Advisor to the Secretary Stephen B.
Hollingshead, DEC Deputy Director Henry Czauski, Associate Regional Counsel for
DEC Enforcement Programs Sakeena Adams, and DEC Operation Oversight Analyst
Tommy Visage attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC Thomas Luke introduced DEC Director and Senior Advisor to the Secretary
Stephen B. Hollingshead, DEC Deputy Director Henry Czauski, DEC Associate
Regional Counsel for Enforcement Programs Sakeena Adams, and DEC Operation
Oversight Analyst Tommy Visage to Eastern District of the Louisiana U.S. Attorney's
Office (USAO) staff in New Orleans, LA. A round table discussion involving issues
related to civil and criminal prosecutions of HUD violations followed.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   Supervisory Forensic Auditor (SFA) Windell Durant and Hotline Director Robert
Ashworth met with Kathleen Wylie, Director of Law Enforcement Online (LEO) and
HKFTF Hotline personnel at the HKFTF Command Center on the Louisiana State
University campus in Baton Rouge, LA. Hotline Director Ashworth and SFA Durant


110                                                              Hurricane Relief Oversight
reviewed the HKFTF Hotline system, provided recommendations to capture additional
data in hotline complaint forms, and emphasized the need for accurate and timely
referrals to OIG and other Federal law enforcement agencies.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SFA Windell Durant and Special Agent (SA) Aimee Peralta met with Mary Langston,
U.S. Bankruptcy Court Assistant United States Trustee, in New Orleans, LA. SFA
Durant and SA Peralta discussed developing a working relationship with both
Louisiana and Mississippi United States Trustee Offices to identify potential bankruptcy
fraud investigations involving HUD programs.

    Mississippi Outreach:
   SAC Thomas Luke introduced DEC Director and Senior Advisor to the Secretary
Stephen B. Hollingshead, DEC Deputy Director Henry Czauski, DEC Associate
Regional Counsel for Enforcement Programs Sakeena Adams, and DEC Operation
Oversight Analyst Tommy Visage to Southern District of the Mississippi USAO staff in
Gulfport, MS. A round table discussion involving issues related to civil and criminal
prosecutions of HUD violations followed.

    Texas Outreach:
    DROD SAC Larry Amaker and HUD OIG Region VI SAC Daniel Salas provided a
fraud awareness briefing to the Houston HUD Manager and Office of Community
Planning and Development (CPD) staff in Houston, TX. The briefing addressed fraud
concerns relating to $74.5 million in CDBG Disaster Recovery Program and $428.6
million in Hurricane Rita Disaster Recovery funds managed by the State of Texas. SAC
Salas introduced HUD OIG Region VI Assistant Special Agent in Charge (ASAC) Juan
Juarez and indicated that ASAC Juarez was available to work with Houston HUD
personnel in preventing, identifying, and prosecuting fraud related to HUD disaster
funding. DROD Senior Special Agent (SSA) Kevin Whalen assisted with the briefing.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     SACs Larry Amaker and Daniel Salas provided a fraud awareness briefing to
officials of the Texas Department of Housing and Community Affairs (TDHCA) and
Houston/Galveston Area Councils of Government (H/GACOG) in Houston, TX. The
briefing addressed fraud concerns relating to $74.5 million in CDBG Disaster Recovery
Program and $428.6 million in Hurricane Rita Disaster Recovery funds earmarked for
H/GACOG and managed by TDHCA. OIG will work with TDHCA and H/GACOG in
preventing, identifying, and prosecuting fraud related to HUD disaster funding. SSA
Kevin Whalen and ASAC Juan Juarez assisted with the briefing.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   SACs Larry Amaker and Daniel Salas provided a fraud awareness briefing to
Southern District of Texas USAO staff and other Federal law enforcement agencies in
Houston, TX. The briefing addressed fraud concerns relating to $74.5 million in CDBG


Hurricane Relief Oversight                                                           111
Disaster Recovery Program and $428.6 million in Hurricane Rita Disaster Recovery
funds earmarked for H/GACOG and managed by TDHCA. OIG will work with TDHCA,
H/GACOG, and the USAO in preventing, identifying, and prosecuting fraud related to
HUD disaster funding. SSA Kevin Whalen and ASAC Juan Juarez assisted with the
briefing.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SACs Larry Amaker and Daniel Salas provided a fraud awareness briefing to
Eastern District of Texas U.S. Attorney Matthew D. Orwig and his staff in Plano, TX.
The briefing addressed fraud concerns relating to $74.5 million in CDBG Disaster
Recovery Program and $428.6 million in Hurricane Rita Disaster Recovery funds
earmarked for H/GACOG and managed by TDHCA. OIG will work with TDHCA, H/
GACOG, and the USAO in preventing, identifying, and prosecuting fraud related to
HUD disaster funding. SSA Kevin Whalen and ASACs Mike Wilson and Juan Juarez
assisted with the briefing.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SACs Larry Amaker and Daniel Salas provided a fraud awareness briefing to HUD
program personnel in Fort Worth, TX. The briefing addressed fraud concerns relating
to $74.5 million in CDBG Disaster Recovery Program and $428.6 million in Hurricane
Rita Disaster Recovery funds earmarked for H/GACOG and managed by TDHCA. OIG
will work with HUD, TDHCA, H/GACOG, and the USAO in preventing, identifying,
and prosecuting fraud related to HUD disaster funding. SSA Kevin Whalen and ASACs
Mike Wilson and Juan Juarez assisted with the briefing.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC Daniel Salas and ASAC Juan Juarez met with Assistant U.S. Attorney Greg
Costa, Hurricane Fraud Coordinator, and supervisory representatives of the U.S. Postal
Inspection Service and Department of Homeland Security at the USAO in Houston,
TX. SAC Salas and ASAC Juarez described HUD OIG's objectives for hurricane relief
investigations in the Southern District of Texas.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC Daniel Salas and ASACs Juan Juarez and Mike Wilson met with Acting CDBG
Disaster Recovery Program Director Jennifer Molinari and Bill Dally, TDHCA Deputy
Director, in Austin, TX. SAC Salas discussed the coordination of hurricane funding
information, the monitoring of hurricane relief contracts, and outreach and training
efforts to prevent fraud, waste, and abuse.

      Washington, DC, Outreach:
   SAC Larry Amaker and ASAC Kevin Whalen met with HUD Office of Single Family
Asset Management Deputy Director Laurie Maggianno at HUD Headquarters in
Washington, DC. SAC Amaker and ASAC Whalen obtained HUD real estate owned



112                                                              Hurricane Relief Oversight
(REO) portfolio information to proactively identify possible fraud related to HUD REO
properties housing disaster victims in the Gulf Coast area.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC Larry Amaker and ASAC Kevin Whalen met with HUD Deputy Assistant
Secretary (DAS) for Public Housing and Voucher Programs Milan Ozdinec, and Office
of Public and Indian Housing, Housing Voucher Program (HVP), Director David Vargas
at HUD Headquarters in Washington, DC. DAS Ozdinec and HVP Director Vargas
provided a briefing on the current status of public housing in New Orleans, LA, and
other information to proactively identify potential fraud as a result of the Gulf Coast
disasters.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Kevin Whalen met with HUD Compliance Division Director Arthur Orton
and DEC Liaison Officer Douglas Fischer at HUD Headquarters in Washington, DC.
ASAC Whalen provided an overview of OIG Gulf Coast operations and described the
type of investigations for potential referral to HUD DEC. Director Orton and Liaison
Officer Fischer provided a briefing on DEC operations and systems and described DEC
assistance available to HUD OIG when conducting disaster-related investigations.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Kevin Whalen and Disaster Oversight Liaison Director Patrick Bannon met
with Associate Deputy Assistant Secretary (ADAS) Sherone Ivey, Office of Policy
Development and Research (PD&R), Office of University Partnerships, at HUD
Headquarters in Washington, DC. ADAS Ivey provided ASAC Whalen and Director
Bannon an overview of PD&R disaster relief funding before ASAC Whalen and
Director Bannon described OIG Gulf Coast operations and offered OIG assistance in
preventing PD&R disaster funding fraud.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC Larry Amaker and ASAC Kevin Whalen established a Hurricane Fraud
Working Group (HFWG) in Washington, DC. HFWG monthly meetings are held at
the Federal Bureau of Investigation (FBI) headquarters to facilitate the dissemination
of Gulf Coast recovery activities and intelligence information to member agencies. Those
participating in the HFWG include Federal law enforcement managers from DOJ;
the OIGs of the U.S. Department of Labor, Transportation, Homeland Security,
Agriculture; and the Small Business Administration OIG.

Hurricane-Related OIG Hotline
    During this reporting period, the Hotline received and processed 179 complaints
related to Hurricanes Katrina, Rita, and Wilma.




Hurricane Relief Oversight                                                           113
        Chapter 6




 Other Significant HUD
Audits and Investigations/
      OIG Hotline
   In addition to the audits and investigations described in this chapter, OIG has also
conducted numerous outreach efforts. (see chapter 8, pages 136 and 139)

Audit
          Strategic Initiative 4: Contribute to Improving HUD’s Execution and
           Accountability of Fiscal Responsibilities as a Relevant and Problem
                            Solving Advisor to the Department
  Key Program Results           Questioned Costs            Funds Put to Better Use
 Audit          7 Audits                --                        $671 Million
                page 116    - Audit of HUD’s Financial Statements
  Our
 Focus
                page 117    - FHA Financial Statements
                page 118    - Audit of the Government National Mortgage Association's
                              (Ginnie Mae) Financial Statements
                page 118    - Review of HUD Firewall Implementation
                page 118    - Review of HUD's Information Technology Services (HITS)
                              Contracts
                page 118    - Review of HUD's Procurement Systems
                page 119    - Fiscal Year 2006 Review of Information Systems Controls
                              in Support of the Financial Statements Audit



Audit of HUD's Financial Statements
    HUD OIG provided additional details to supplement the Report on HUD's Fiscal
Years (FY) 2006 and 2005 Financial Statements, which is included in HUD's FY 2006
Performance and Accountability Report.

    The financial statements presented fairly, in all material respects, the financial
position of HUD, Washington, DC, as of September 30, 2006 and 2005, and its net
costs, changes in net position, budgetary resources, and reconciliation of net costs to
budgetary obligations for the fiscal years then ended in conformity with accounting
principles generally accepted in the United States of America.

   OIG identified six reportable conditions regarding internal controls relating to the
need to

      -    Comply with Federal financial management system requirements;
      -    Continue improvements made in the oversight and monitoring of subsidy
           calculations and intermediaries’ program performance;



116                             Other Sugnificant HUD Audits and Investigations/OIG Hotline
    -   Further strengthen controls over HUD's computing environment, including the
        enhancement of controls at the Federal Housing Administration (FHA) around
        the user access request (UAR) process and managing the FHA Subsidiary
        Ledger (FHASL) as a mission-critical system;
    -   Improve personnel security practices for access to the Department's critical
        financial systems;
    -   Improve processes for reviewing obligation balances; and
    -   Improve FHA's funds controls processes.

   OIG’s findings also included two instances of noncompliance with applicable laws
and regulations and provisions of contracts and grant agreements:

    -   HUD did not substantially comply with Federal Financial Management
        Improvement Act system requirements and applicable accounting standards,
        and
    -   FHA and certain of its allotment holders did not have an approved funds
        control plan.

    OIG’s report discussed each of these conditions in detail, provided an assessment
of actions taken by HUD to mitigate them, and recommended corrective actions.
Several matters that were not material to the financial statements were separately
communicated to HUD management. (Audit Report: 2007-FO-0003)

FHA Financial Statements
    Urbach, Kahn, and Werlin, LLP, audited the FHA, Washington, DC, financial
statements for the years ended September 30, 2006 and 2005.

    The financial statements presented fairly, in all material respects, FHA's financial
position as of September 30, 2006 and 2005, and its net costs, changes in net position,
budgetary resources, and reconciliation of budgetary obligations to net cost for the
fiscal years then ended in conformity with accounting principles generally accepted in
the United States of America. However, Urbach, Kahn, and Werlin identified three
reportable conditions regarding internal controls:

    -   FHA should improve its funds control processes,
    -   FHA must enhance the controls around the UAR process, and
    -   FHASL needs to be managed as a mission-critical system at HUD’s information
        technology services (HITS) data center.

    and one instance of noncompliance with laws and regulations:

    -   FHA and certain of its allotment holders did not have an approved funds
        control plan as required by HUD policy.

    OIG’s report discussed each of these conditions in detail, provided an assessment
of actions taken by FHA to mitigate them, and recommended corrective actions. Other


Other Sugnificant HUD Audits and Investigations/OIG Hotline                          117
matters that were not material to the financial statements were separately
communicated to FHA management. (Audit Report: 2007-FO-0002)

Audit of the Government National Mortgage Association's
(Ginnie Mae) Financial Statements
    Carmichael, Brasher, Tuvell, and Company audited the Government National
Mortgage Association's (Ginnie Mae), Washington, DC, financial statements for the
years ended September 30, 2006 and 2005.

    The financial statements presented fairly, in all material respects, the financial
position of Ginnie Mae as of September 30, 2006, and September 30, 2005, and the
results of its operations and its cash flows for the fiscal years then ended in conformity
with accounting principles generally accepted in the United States of America. There
were no material weaknesses or reportable conditions in Ginnie Mae's internal controls
and no reportable instances of noncompliance with laws, regulations, and provisions of
contracts. Other matters that were not material to the financial statements were
reported separately to Ginnie Mae's management. (Audit Report: 2007-FO-0001)

Review of HUD Firewall Implementation
    HUD OIG audited the HUD, Washington, DC, deployment and configuration of
firewalls within its network to evaluate the configurations and effectiveness of the
controls surrounding the firewalls. The audit was conducted in conjunction with the
annual audit of HUD's consolidated financial statements and the annual evaluation of
HUD's information system security program and practices required by the Federal
Information Security Management Act of 2002. OIG has determined that the contents
of this report are not appropriate for public disclosure and has, therefore, limited its
distribution to selected officials. (Audit Report: 2007-DP-0001)

Review of HUD's Information Technology Services (HITS)
Contracts
    HUD OIG audited the management and modifications of HUD's information
technology services contracts. OIG examined contract compliance, service-level
agreements, contract modifications, and implementation of information security
controls. OIG has determined that its findings are not appropriate for public
disclosure and has, therefore, limited their distribution to selected officials. (Audit
Report: 2007-DP-0002)

Review of HUD's Procurement Systems
    HUD OIG audited the HUD Procurement System and Small Purchase System to
assess their compliance with Federal financial management and Federal Information
Security Management Act of 2002 requirements. OIG evaluated the systems and
reviewed certain input and processing controls to determine (1) whether the HUD
procurement systems comply with the requirements of the Joint Federal Management


118                             Other Sugnificant HUD Audits and Investigations/OIG Hotline
Improvement Program publication, JFMIP SR-02-02, "Acquisition/Financial Systems
Interface Requirements," and (2) the adequacy of the implementation of information
security responsibilities and information security categorization.

    The HUD Procurement System and Small Purchase System do not adequately
support HUD's efforts to manage and monitor procurement transactions. They do not
(1) adequately monitor the procurement process, (2) have adequate separation of
duties controls, or (3) contain sufficient financial data to effectively manage and
monitor procurement transactions. In addition, HUD did not design or implement
information security controls or ensure that its information security responsibilities
were fulfilled.

     OIG recommended that HUD perform a cost benefit analysis to determine whether
it is more advantageous to modify or replace the HUD Procurement System and Small
Purchase System to comply with Federal requirements. OIG also recommended that
HUD complete, design, and implement the required information security controls.
(Audit Report: 2007-DP-0003)

Fiscal Year 2006 Review of Information Systems Controls
in Support of the Financial Statements Audit
    HUD OIG reviewed general and application controls for selected information
systems as part of the HUD OIG audit of HUD's financial statements for FY 2006. The
review was based on the Government Accountability Office (GAO) "Federal
Information Systems Controls Audit Manual" and information technology guidelines
established by the Office of Management and Budget (OMB) and the National
Institute of Standards and Technology (NIST).

    There were weaknesses and deficiencies in controls that stem from HUD's
noncompliance with (1) requirements for internal controls established by OMB, (2)
guidance for securing information systems issued by NIST, and (3) HUD's own policies
and procedures.

   OIG recommended that HUD take steps to ensure compliance with OMB
requirements, NIST guidelines, and HUD's own internal policies and procedures.
(Audit Report: 2007-DP-0004)

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




Other Sugnificant HUD Audits and Investigations/OIG Hotline                        119
Investigations
      Strategic Initiative 4: Contribute to Improving HUD’s Execution and
       Accountability of Fiscal Responsibilities as a Relevant and Problem
                        Solving Advisor to the Department
  Key Program       Cases            $            Convictions/Pleas/     Admin/Civil
    Results         Closed       Recovered            Pretrials            Actions
  Investigations      33           $4,884                    1                165


    Some investigations were conducted jointly with Federal, State and local law
enforcement agencies. The results of a significant investigation is described below.

    Timothy Eugene Benjamin, a defense witness who testified in the U.S. v. Isaac Woods
trial, pled guilty in U.S. District Court, New Bern, NC, to attempted witness
tampering, conspiracy, and aiding and abetting. Isaac Lee and Regina Bailey Woods,
owners and officers of Woodbai, Inc., a mortgage lender doing business as Unlimited
Financial Resources (UFR), were previously convicted of conspiracy, wire fraud, false
statements, and money laundering for creating phony mortgages, electronically
submitting the bogus mortgages to the secondary mortgage market, and causing the
Government National Mortgage Association to guarantee $1.4 million in counterfeit
investments. Benjamin, prior to the appearance and testimony of a government
witness, telephoned the witness and made false, misleading, and/or threatening
statements in an attempt to influence or prevent the witness from testifying, then
communicated his efforts to Woods. In addition, while testifying on the Woods'
behalf, Benjamin uttered materially false declarations.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




120                            Other Sugnificant HUD Audits and Investigations/OIG Hotline
OIG Hotline
     The HUD OIG Hotline is operational 5 days a week, Monday through Friday, from
10:00 a.m. to 4:30 p.m. The Hotline is staffed by nine full-time OIG employees, who
take allegations of waste, fraud, abuse, or serious mismanagement in HUD or
HUD-funded programs from HUD employees, contractors, and the public and
coordinate reviews with internal audit and investigative units or with HUD program
offices.

   During this reporting period, the Hotline received and processed 10,519
complaints--76 percent received by telephone, 17 percent by mail, and 7 percent by
e-mail. Every allegation received by the Hotline is logged into a database and tracked.

     Of the complaints received, 1,118 were related to the mission of OIG and were
addressed as Hotline cases. Hotline cases are referred to OIG's Offices of Audit and
Investigation or to HUD program offices for action and response. The following
illustration shows the distribution of Hotline case referrals by percentage.


                 Chart 7.1: Hotline Cases Opened by Program Area

                                                OIG Audit
                                             and Investigation
           Other HUD                               16%                   Public and
             Offices                                                       Indian
              5%                                                          Housing
                                                                            58%




  Multifamily
   Housing
     15%

                        Single-Family
                           Housing
                             6%



    The Hotline closed 869 cases this reporting period. The closed Hotline cases
included 134 substantiated allegations. The substantiated allegations resulted in three
administrative sanctions against investors for improprieties involved in the purchase of
a home. The Department also took 131 corrective actions that resulted in $179,820 in
recoveries of losses and more than $2.5 million in HUD funding that could be put to
better use. The recoveries included repayments of overpaid rental subsidies. Some of
the funds that could be put to better use were the result of cases in which tenants were
terminated from public housing or multifamily housing programs for improperly
reporting their incomes or family composition to qualify for rental assistance.



Other Sugnificant HUD Audits and Investigations/OIG Hotline                           121
                    Chart 7.2: Hotline Dollar Impact from Program Offices


                                                                                    $2,267,068
       2,500,000


       2,000,000


        1,500,000


        1,000,000


         500,000                                             $249.138    $172,823
                              $0      $0            $6,997
               0
                         Single-Family               Multifamily           Public and Indian
                            Housing                   Housing                  Housing

                                   Recoveries          Funds Put to Better Use




      Chart 7.3: Substantiated Cases by Type of Complaint Received by Hotline

                           Owner/Occupant
                                                       Other
                             Violations
                                                        2%
                                2%
        Mismanagement
             6%




                                                                                      Rental Fraud and
                                                                                       Improprieties
                                                                                            85%




122                                             Other Significant Audits and Investigations/OIG Hotline
Chapter 7




Outreach
    To foster a cooperative, informative, and mutually beneficial relationship with
agencies and organizations assisting the U.S. Department of Housing and Urban
Development (HUD) in accomplishing its mission, the Office of Inspector General (OIG)
participated in numerous special outreach efforts. The outreach efforts described
below complement routine coordination with Federal, State, and local law enforcement
agencies; various congressional committees and subcommittees; and other OIGs.

Housing Outreach
    Special Agent in Charge (SAC) Barry McLaughlin hosted an Illinois Mortgage Fraud
Working Group Task Force quarterly meeting in Chicago, IL. A representative of
Freddie Mac provided an overview of its roles in mortgage fraud prevention, detection,
and investigation to more than 30 mortgage regulatory and Federal, State, and local law
enforcement personnel in attendance.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC Barry McLaughlin hosted a quarterly meeting of the Illinois Mortgage Fraud
Working Group in Chicago, IL. A guest speaker from Neighborhood Housing Services
provided information on the agency and its role in combating mortgage fraud. More
than 30 individuals from the Illinois Department of Professional Regulation, Illinois
Attorney General's office, U.S. Postal Inspection Service (USPIS), and Federal Bureau
of Investigation (FBI) attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   SAC Peter Emerzian, Assistant Special Agent in Charge (ASAC) Diane DeChellis,
and Special Agent (SA) John Keaney described HUD OIG's mission, priorities, and
several HUD single-family investigations at the Connecticut Mortgage Bankers
Association's annual conference in Cromwell, CT. More than 300 loan originators,
underwriters, brokers, appraisers, and closing attorneys attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Acting SAC Brad Geary described rescue and foreclosure frauds and their affect on
the mortgage industry, the Federal Housing Administration (FHA) insurance fund, and
bankruptcy courts at a meeting held at the Northern District of Florida U. S. Attorney's
Office (USAO) in Tallahassee, FL. Approximately 20 individuals representing the FBI,
Internal Revenue Service (IRS), USPIS, and U.S. Secret Service attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     ASAC Brad Geary provided a presentation on mortgage industry fraud to the
Illinois Association of Mortgage Brokers in St. Charles, IL. ASAC Geary described
rescue fraud, property flipping, and how straw buyers fuel fraudulent schemes. More
than 50 people attended the seminar.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




124                                                                            Outreach
    ASAC Rene Febles and SA Frank Aeillo presented HUD OIG's investigative
process to officials and employees attending an Interstate Management Corporation
(IMC) annual conference in Chester City, PA. SA Aeillo also provided an overview of
recent HUD OIG investigations and prosecutions and hosted a question and answer
forum for IMC officials. IMC, a private real estate management company, oversees HUD
multifamily housing units in Pennsylvania, New Jersey, and Delaware.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Michael Powell and SA Kris Kanakares provided a real estate and mortgage
loan training session at a regional meeting of Kansas City bankruptcy trustees in
Kansas City, MO. ASAC Powell and SA Kanakares described single-family mortgage
loan documentation and provided an overview of the real estate acquisition process to
assist bankruptcy trustees in identifying possible mortgage fraud in bankruptcy
petitions.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Ruth Valdes provided
information on FHA program fraud
at the State of Florida's Office of
Financial Regulation annual training
conference held in Fort Lauderdale,
FL. ASAC Valdes discussed
common FHA fraud schemes,
including property flipping and
equity skimming, and provided
data on Government National
Mortgage Association (GNMA)
mortgage-backed securities fraud.
                                                 ASAC Ruth Valdes speaking at the Office of Financial
More than 100 USAO, USPIS, and                               Regulation annual training conference.
State of Florida Office of Financial
Regulation investigators and/or
analysts attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Brad Geary and a Northern District of Illinois Assistant United States
Attorney (AUSA) provided a fraud presentation at a meeting of the Neighborhood
Housing Services (NHS), a nonprofit organization designed to provide affordable
housing for low- or moderate-income families, in Chicago, IL. ASAC Geary discussed
bankruptcy and rescue fraud schemes, and the AUSA described methods used for fraud
prosecutions. Approximately 50 loan officers, loan processors, and housing counselors
attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




Outreach                                                                                         125
   ASAC George Dobrovic and SAs Patrick Jefferson and George Adams provided
mortgage fraud prevention techniques and discussed current mortgage fraud schemes
and investigations at a Mortgage Society of Ohio meeting held in Independence, OH.
Approximately 25 mortgage loan professionals attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Brad Geary provided a mortgage fraud presentation at a "Bank Safety and
Security Seminar" hosted by the Chicago Police Department in Chicago, IL. ASAC
Geary discussed property flipping, equity theft, and rescue fraud schemes affecting the
banking and mortgage industry. More than 150 detectives and financial institution loss
prevention personnel attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASACs Ray Espinosa and Brad Geary participated in an Illinois Mortgage Bankers
Association mortgage fraud conference entitled "Solutions, Tools, and Strategies for
the Mortgage Industry," in Naperville, IL. ASACs Espinosa and Geary provided
information on rescue and foreclosure fraud and the role of gangs in mortgage fraud
and identity theft, then participated in a panel discussion entitled "Mortgage Fraud
Issues." More than 50 individuals attended the conference.

                                 ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC George Dobrovic and SA George Adams provided loan document due
diligence training at Huntington National Bank in Cleveland, OH. Approximately 20
Huntington National Bank security employees attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Brad Geary provided a presentation on rescue and foreclosure fraud to U.S.
Trustees attending a U.S. Department of Justice (DOJ) National Advocacy Center
training seminar in Columbia, SC. ASAC Geary described the effects of current rescue
and foreclosure frauds on the FHA insurance fund, bankruptcy court, and mortgage
industry. More than 50 trial attorneys and assistant U. S. trustees attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Senior Forensic Auditor (SFA) Tony Putzulu and Forensic Auditor (FA) Jim
Hoogoian spoke at the Western Intergovernmental Audit Forum's (WIAF) Winter
2007 Conference held in Los Angeles, CA. SFA Putzulu and FA Hoogoian provided an
update on HUD OIG forensic auditing and discussed several housing and mortgage
fraud investigations. The WIAF includes audit and accountability organizations at the
Federal, State, and local levels in addition to nonprofit and private sector organizations
in Arizona, California, Hawaii, Nevada, Guam, Samoa, and the Pacific Basin.
Approximately 75 professionals attended the conference.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




126                                                                              Outreach
    SA Heather Yannello, Auditor Patrick Anthony, and AUSA Robert Trusiak hosted
a presentation entitled "Flipping and Fraudulent Flipping of Real Estate" at the Buffalo
Mayor's Anti-Flipping Task Force seminar held at SUNY Erie Community College's
North Campus in Buffalo, NY. The Mayor's Anti-Flipping Task Force was developed
to curb real estate flipping and fraudulent activity in Buffalo, NY. More than 100
participants from the Western New York Bar Association, Buffalo Niagara Board of
Realtors, and Appraisal Institute attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAs Stan Mercer and Chumnan Jim Sangsvang Jr. attended a meeting of North Texas
Housing Association members in Denton, TX. SAs Mercer and Sangsvang provided an
overview of HUD OIG's mission and role and described housing fraud prosecutions to
15 North Texas housing authority representatives.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Frank Grillo participated in a panel discussion entitled "Working with Law
Enforcement to Fight Mortgage Fraud" at a SourceMedia Mortgage Fraud conference
held in Las Vegas, NV. SA Grillo discussed current mortgage fraud trends including
identity theft, property flipping, equity skimming, and fraudulent appraisals. Individuals
from across the country associated with the mortgage industry attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   SA Brandon Gardner met with representatives from the USAO and various Federal
law enforcement agencies in Plano, TX, to discuss mortgage fraud in Collin County,
TX. As a result, a mortgage fraud task force, comprised of investigators from HUD
OIG, the FBI, the U. S. Secret Service, the Federal Deposit Insurance Corporation (FDIC)
OIG, the U.S. Department of Veteran Affairs (VA) OIG, the U.S Postal Service (USPS)
OIG, and USPIS, was formed.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAs Robert Jones, Brandon Gardner, and Stan Mercer provided identity theft and
false Social Security number (SSN) mortgage fraud information and described current
FHA-insured mortgage fraud schemes involving undocumented immigrants at an
Eastern District of Texas Mortgage Fraud Task Force meeting in Plano, TX.
The Eastern District of Texas Mortgage Fraud Task Force members include
representatives from the Eastern District of Texas USAO, IRS, Social Security
Administration (SSA) OIG, Immigration and Customs Enforcement (ICE), U.S. Secret
Service, and HUD OIG.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Malinda Antonik provided a presentation entitled "Single Family Fraud
Awareness" at a West Coast Florida Chapter of the Appraisal Institute (WCFCAI)
training seminar held in Tampa, FL. SA Antonik supplied information on single-family
fraud, the impact and consequences of loan origination and appraisal fraud, and recent


Outreach                                                                               127
FHA reforms and mortgagee letters. Approximately 70 real estate appraisers from
WCFCAI attended the seminar.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Carissa Barnes and Utah State Department of Insurance Fraud Division
Investigators Doug LeDoux and Ken Benson presented FHA and conventional
mortgage fraud information at a meeting of Utah Mortgage Lender's Association
members in Ogden, UT. SA Barnes and Investigators LeDoux and Benson identified
and explained the differences between FHA and conventional mortgage fraud
investigations, provided information on recent investigations and prosecutions, and
offered proactive prevention ideas and fraud reporting information for realtors and loan
officers to implement in their day-to-day operations. Numerous loan officers,
mortgage brokers, and real estate agents attended the presentation.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Scott Savedow provided FHA program fraud training at a South Florida
Mortgage Fraud Task Force meeting in Miami, FL. SA Savedow discussed common
FHA fraud schemes, to include property flipping and equity skimming, to law
enforcement personnel representing the State of Florida Prosecutor Offices; the FBI;
and other Federal, State, and local agencies in attendance.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     SA Carissa Barnes and Utah State Department of Insurance Investigator Doug
LeDoux presented FHA-insured and conventional mortgage fraud information at a
Re/Max real estate sales meeting in Salt Lake City, UT. SA Barnes and Investigator
LeDoux discussed recent fraud investigations, provided proactive prevention ideas, and
described the process for reporting suspected fraud to real estate agents and loan
officers attending.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Kimberly Studerus attended a mortgage fraud task force working group
meeting comprised of representatives from the FBI, the Washington State Department
of Financial Institutions and Department of Licensing, the Seattle Police Department,
U.S. Attorneys, and King County prosecutors held at the King County Prosecutor's
Office in Seattle, WA. During a round table discussion of mortgage fraud in western
Washington, SA Studerus provided an overview of a current HUD OIG and FBI
mortgage fraud investigations.

Public Housing and Rental Assistance Programs
    Bryan Saddler, Counsel to the Inspector General, and Regional Inspector General
for Audit (RIGA) Heath Wolfe gave presentations at the Michigan Housing Directors
Association's Winter Conference in Houghton Lake, MI. RIGA Wolfe presented
information on OIG's common audit findings in Section 8 and public housing
authority (PHA) nonprofit development audits. Counsel Saddler's presentation


128                                                                            Outreach
covered ethics for PHA officials. There were approximately 70 PHA officials in
attendance.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Deputy Assistant Inspector General for Audit (DAIGA) Robert Gwin, and Fred
Smith, Assistant Regional Inspector General for Audit (ARIGA), presented a plaque
signed by Inspector General Donohue to the Denver, CO, Housing Authority. The
plaque was a special recognition award for "Superior service to the Denver community
in providing low-rent affordable housing and administering the Section 8 subsidy
program for low- and moderate-income people in the Denver area." Mr. Gwin presented
the plaque to the Authority's board chairman. Also in attendance were the Authority's
executive director and his staff.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC Joseph Clarke, ASAC Rene Febles, and Senior Special Agent (SSA) Daniel Ellis
presented successful HUD OIG initiatives addressing violent crimes and fraud in
central Pennsylvania public and assisted housing to the director of the Pennsylvania
Commission on Crime and Juvenile Delinquency and Commission members in
Harrisburg, PA. In addition, SSA Ellis discussed subsidized housing programs, public
housing agencies, multifamily property owners, housing program participants'
responsibilities, and recent investigations relating to HUD OIG's Fugitive Felon
Initiative (FFI) and Rental Housing Income Integrity Program (RHIIP) initiative. The
FFI and RHIIP initiatives in Pennsylvania are executed in conjunction with the USAO;
Dauphin County District Attorney's Office; FBI; Drug Enforcement Agency (DEA); U.S.
Department of Alcohol, Tobacco, Firearms, and Explosives (ATFE); Pennsylvania State
Police; Harrisburg Police Department; and Dauphin County Sheriff's Criminal
Investigation Division. Representatives from the Pennsylvania Attorney General's
Office and State, county, and municipal law enforcement personnel attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC James Todak, ASAC Herschell Harvell, and SA John Rodriguez met with
representatives from the San Diego Housing Authority, San Diego County Housing
Authority, Southern District of California USAO, and San Diego District Attorney's
Office and FBI personnel in San Diego, CA. SAC Todak presented HUD OIG's mission,
goals, organizational structure, and investigative focus.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    The HUD OIG Los Angeles field office conducted a PHA Section 8 investigative
training seminar at a Southern California Housing Managers Association meeting hosted
by the City of Long Beach Housing Authority in Long Beach, CA. The training was
designed to give public housing caseworkers, inspectors, investigators, and other
employees an overview of HUD OIG requirements for investigations and prosecutions.
The training also focused on techniques for housing authority staff to use in identifying
fraud during the initial phase of the Section 8 application process. SAC James Todak
provided opening remarks, and RIGA Joan Hobbs discussed HUD OIG's organizational
structure and mission. Additional guest speakers included HUD Los Angeles Acting

Outreach                                                                             129
                                                    Group photo from the Public Housing Authority Section 8
                                                                            Investigative Training Seminar.




       ASAC Herschell Harvell speaking at the
       Southern California Housing Managers
                         Association meeting.


Field Office Director Beverly Kendrick, Public Housing Director Anthony Sprowl, City
of Long Beach Housing Authority Housing Bureau Manager Darnisa Tyler, and San
Bernardino Housing Authority Executive Director Dan Nackerman. Training modules
conducted during the seminar were developed and presented by Los Angeles HUD OIG
ASAC Herschell Harvell and SAs Herminia Neblina, David Carter, John Rodriguez, Mary
Jo Stauner, Matthew Gideon, Ira Long, and Vicky Lawson. Department of Homeland
Security, ICE SA Bruce Kamei provided fraudulent document training. A question and
answer forum concluded the seminar attended by approximately 103 Southern
California housing authority executive directors, attorneys, caseworkers, inspectors,
housing specialists, and investigators.

                                   ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    RIGA Joan Hobbs participated in the Fall Regional National Association of
Housing and Redevelopment Officials (NAHRO) conference held in Tucson, AZ. RIGA
Hobbs spoke on a panel with Stephen Schneller, Director of Public Housing, Region
IX. The topic of the session was "Fraud Detection: Saving Public Dollars and Preserving
Our Assets," and it was attended by housing authority boards of commissioners. One
area of discussion involved ways in which the board can detect fraud without being
involved in the day-to-day activities of the housing authority.

                                  ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Tony Meeks and SAs Neil McMullen and Rene Bardales conducted a fraud
awareness and investigation training session for approximately 20 Inglewood Housing
Authority staff members in Inglewood, CA. ASAC Meeks described HUD OIG's
mission, role, and function; and SA McMullen provided information on all facets of rental
assistance violations and explained methods used to detect and prevent housing
assistance fraud.

                                  ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○

130                                                                                             Outreach
    ASAC Herschell Harvell and SA Herminia Neblina met with Bakersfield/Kern County
Housing Authority (B/KCHA) management staff and representatives from the Kern
County District Attorney's office in Bakersfield, CA. ASAC Harvell discussed HUD
OIG's mission, goals, and resources available to confront housing assistance fraud. The
B/KCHA executive director and chief investigator expressed their commitment to
working with HUD OIG in resolving housing assistance and other fraud issues affecting
their organization. ASAC Harvell and SA Neblina toured all B/KCHA public housing
developments and Sections 8 complexes.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Lori Chan and ARIGA Helen Sparks presented an overview of HUD OIG at a
Northern California/Nevada Executive Directors Association (NCNEDA) quarterly
meeting held in San Francisco, CA. In addition, ASAC Chan provided information on
current housing authority fraud and other investigations and initiatives, and ARIGA
Sparks described auditors' roles and audit procedures during housing authority audits.
ASAC Chan and ARIGA Sparks held a brief question and answer forum following their
presentations for approximately 25 individuals representing various housing
authorities.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASACs Ray Espinosa and Brad Geary provided fraud in assisted housing training
sessions for both Chicago Housing Authority (CHA) and Cook County Housing
Authority (CCHA) personnel in Chicago, IL. Topics included current fraud schemes,
"red flag" indicators, investigations, recommendations, and the roles of both OIG and
housing providers. More than 100 CHA and CCHA supervisors, inspectors, and
caseworkers attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Kathleen Hatcher and SAs Charles Cherry, Linda Cisco, and Daniel Harding
attended the Maryland NAHRO fall conference in Hagerstown, MD. SAs Cherry, Cisco,
and Harding explained HUD OIG's authority, mission, and role; provided information
on detecting, preventing, and reporting public housing fraud; described specific
public housing investigations; and hosted a question and answer forum. More than 70
Maryland public housing authority representatives attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Herschell Harvell and SA Vicky Lawson discussed HUD OIG's mission and
organizational structure, the investigative process and fraud complaint procedures, and
housing assistance applications and "red flag" indicators and identified the benefits of
developing a partnership at a Culver City Housing Authority staff meeting in Culver
City, CA. ASAC Harvell and SA Lawson also hosted a question and answer forum for
approximately 12 housing inspectors, caseworkers, and supervisors in attendance.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




Outreach                                                                             131
    ARIGA Narcell Stamps participated with Region IV's Deputy Regional Director
and Regional Counsel in presenting a training session to about 90 attendees at the
national NAHRO conference held in Atlanta, GA. The presentation covered ethical
issues in public housing with focus on nonprofit housing development corporations.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Louis J. Mancini, Jr., provided an overview of HUD's public housing programs
and HUD OIG's role in public housing fraud at a Monroe County investigators meeting
held in Tannersville, PA. In addition, SA Mancini described subsidized housing
tenant/landlord schemes, provided examples of recent prosecutions, and hosted a
question and answer forum. Investigators in attendance included members of the
Pennsylvania State Police, Stroud Regional Police Department, Pocono Township
Police Department, and the Monroe County District Attorney's office.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAs James Waldron, Michael Catinella, and Matt Nutt presented fraud in
HUD-assisted housing training at a Michigan State Housing Development Authority
meeting in Detroit, MI. Approximately 45 managers, investigators, and other staff
attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     SA Daniel Harding attended a Madison Park and Reservoir Hill Community
meeting in Baltimore, MD, to discuss illegal drug activities and the increase of violence
in the area. Baltimore City Police Department Sergeant Edward Martini provided crime
statistics deriving from Madison Park Apartments, a HUD-subsidized multifamily
complex, and SA Harding joined Sergeant Martini in discussing current efforts to
identify violent criminal offenders and those responsible for housing assistance fraud.
Baltimore City Police Department personnel and members of local churches and
neighborhood associations attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Anthony Troeger provided information on HUD OIG and housing assistance
investigations conducted jointly with varied social service departments at a North
Carolina Program Integrity Investigators meeting held in Greensboro, NC. In
addition, SA Troeger discussed housing assistance, child care, and food stamp fraud
issues appearing in current investigations; provided certification and advisement samples
used to deter housing and welfare fraud; and supplied HUD OIG SA and Hotline
personnel contact information. More than 30 social service and State program fraud
investigators attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Neil McMullen conducted fraud awareness and investigation training for
approximately 15 Pasadena Housing Authority staff members in Pasadena, CA. SA
McMullen provided information on all facets of rental assistance violations and described
steps to detect and prevent housing assistance fraud. At the conclusion of training, and

132                                                                             Outreach
in an effort to limit criminal activity and assist HUD OIG in prosecuting violations, the
Pasadena Housing Authority agreed to revamp and expand its housing assistance
certification forms.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   SA Cortez Richardson met with Tulsa Housing Authority employees in Tulsa, OK.
SA Richardson explained the function of HUD OIG as it relates to housing authorities
and encouraged a working relationship with the HUD OIG Oklahoma field office to
address suspected housing authority fraud.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Anthony Troeger described recent housing assistance, child care, and food stamp
fraud investigations conducted jointly with various social service departments at a North
Carolina Program Integrity Investigators Region III network meeting in Durham, NC.
In addition, SA Troeger offered suggestions to improve applicant certifications and
advisements and provided contact information for HUD OIG's fraud Hotline and North
Carolina SAs. More than 20 program integrity investigators from numerous North
Carolina counties attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   SA Alexander Rosania provided an overview of HUD OIG's mission/priorities and
described successful public and Indian housing fraud investigations at a monthly
meeting of the Section 8 Managers Association held at the Johnston, Rhode Island,
Housing Authority in Johnston, RI. Approximately 26 individuals representing all
Rhode Island public housing authorities attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Anthony Troeger provided information on HUD OIG, housing assistance fraud,
and housing authority corruption at a North Carolina Housing Authority Director's
Association conference in Greensboro, NC. SA Troeger also described tenant fraud
investigations and housing authority employee conduct leading to public corruption
investigations, provided contact information for HUD OIG's SAs and Hotline
personnel, and hosted a question and answer forum for more than 100 North Carolina
PHA executive directors and managers in attendance.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Jorge Reyes, Jr., presented a general overview of HUD OIG's mission and role in
detecting, investigating, and preventing fraud, waste, and abuse to employees of the
Beaumont Housing Authority (BHA) in Beaumont, TX. SA Reyes described how to
identify, investigate, and prosecute fraud cases and provided proactive prevention ideas
for BHA personnel to implement in their day-to-day operations and contacts with
program participants.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○




Outreach                                                                              133
    SA Brian Rymill provided information on HUD OIG, housing assistance fraud, and
housing authority corruption at a meeting of PHA and Department of Social Services
(DSS) investigators and management personnel in Charlotte, NC. SA Rymill described
successful tenant fraud investigations in North Carolina and the importance of PHA
tenant file documents, explained the potential success from a partnership between PHA/
DSS investigators and HUD OIG, and provided contact information for HUD OIG SA
and Hotline personnel. More than 45 PHA/DSS fraud investigators and DSS
management personnel from the western counties of North Carolina attended.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   SA Nicholas Fasciglione met with Randy Thomason, the executive director of
Shawnee Housing Authority (SHA), and Melissa Terrell, the director of SHA housing
operations in Shawnee, OK. SA Fasciglione provided an overview of HUD OIG,
housing assistance fraud, and the avenues available when reporting alleged violations.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Edward Redmond provided information on HUD rental assistance fraud
investigations to approximately 20 New Hampshire housing authority managers
attending a meeting at the University of New Hampshire, in Durham, NH.

                               ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


   SA Charles Grace conducted a fraud awareness briefing and training session for
Portland Housing Authority (PHA) Section 8 staff members in Portland, OR. SA Grace
explained rental assistance violations and described steps in detecting and preventing
housing assistance fraud, while a PHA fraud investigator and Multnomah County deputy
prosecuting attorney conveyed requirements necessary for successful investigations and
prosecutions.

Community Planning and Development
    SAC James Todak,
RIGA Joan Hobbs, and
ASAC Herschell Harvell
met with Los Angeles HUD
Office of Community
Planning and Development
(CPD) Director William
Vasquez and his staff
to explore strategies for
building a collaborative
relationship and identifying
CPD cases involving fraud
in Los Angeles, CA.
Director Vasquez discussed       SAC James Todak and RIGA Joan Hobbs exploring strategies for building a
                                       collaborative relationship and identifying CPD cases involving fraud
                                                                                        in Los Angeles, CA


134                                                                                            Outreach
the CPD process as well as staff responsibilities and interaction with grantees. SAC
Todak and RIGA Hobbs presented HUD OIG's role and mission, and SAC Todak
emphasized HUD OIG's willingness to work with CPD staff in identifying those who
defraud HUD. In addition, CPD staff and HUD OIG discussed solutions to various
issues and building a cohesive relationship to further the mission of both entities and
committed to providing assistance in identifying potential CPD fraudulent activities.
Approximately 20 CPD staff members attended the meeting.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    RIGA Heath Wolfe and SAC Barry McLaughlin made a presentation to 170
members of the Michigan Community Development Association at its annual
conference held in Lansing, MI. Discussed at the conference was the OIG mission, role,
and priorities; the Office of Audit and common audit findings; and the Office of
Investigation and "red-flags" of fraud.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASACs Brad Geary and Ray Espinosa provided a fraud presentation to HUD's CPD
staff in Chicago, IL. ASACs Geary and Espinosa discussed common OIG
misconceptions, "red flag" fraud indicators, and the process for fraud referrals before
describing the investigative process and providing an illustration of a CPD
investigative prosecution. Approximately 20 HUD employees attended the
presentation.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Lori Chan presented an overview of HUD OIG and provided information on
detecting and reporting fraud at a HUD CPD training session entitled "Homelessness
101 Training" in San Francisco, CA. Approximately 85 individuals representing
nonprofit organizations and county governments attended the HUD-sponsored
training.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Michele Simpson and Auditor Jacob Williams provided an overview of HUD
OIG's mission and role in detecting, investigating, and preventing waste, fraud, and abuse
in HUD's Community Development Block Grant (CDBG) programs at a CPD roundtable
discussion held at the HUD office in Houston, TX. The CPD roundtable discussion
provided HUD entitlement grantees and nonprofit subgrantees an overview of HUD
programs and CPD services. Approximately 80 people attended the event.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Malinda Antonik was a guest speaker at the 2007 CDBG Disaster
Implementation Workshop presented by the Florida Department of Community
Affairs, CDBG Disaster Recovery Unit, in Miami, FL. The workshop provided detailed
information on CDBG grants provided to the State of Florida to assist distressed areas
recovering from Hurricanes Katrina and Wilma. SA Antonik provided general


Outreach                                                                               135
information on HUD programs and HUD OIG oversight, along with specific
information on criminal violations, investigations, partnerships with other law
enforcement agencies, and avenues for reporting suspected fraud. Approximately 90
Florida State, county, and local government grantees attended.

Outreach to Law Enforcement Partners
    SAC Peter Emerzian; ASAC Diane DeChellis; and SAs John Keaney, Samuel
Ortiz-Diaz, and Bozena Schrank provided information on HUD programs vulnerable to
fraud and corruption at a Housing Corruption Task Force (HCTF) meeting hosted by
Connecticut U.S. Attorney Kevin O'Connor in New Haven, CT. The HCTF was
initiated in response to a series of high-profile public corruption investigations
involving HUD-funded entities in Connecticut and targets public corruption involving
State and local agencies funded by HUD. Connecticut U.S. Attorney O'Connor; several
AUSAs; and Federal, State, and local law enforcement officials attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC Daniel Salas presented HUD OIG's investigative priorities, described
successful fraud investigations and prosecutions, and expressed his gratitude for law
enforcement supportive efforts at a meeting held in Irving, TX. Approximately 30
Federal law enforcement SACs and prosecutors from the Northern and Eastern
Districts of Texas attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC James Todak met with San Luis Obispo Sheriff Patrick Hedges, San Luis Obispo
Police Department Chief Deborah Linden, District Attorney Gerald Shea, and
approximately 20 local law enforcement supervisors and officials from San Luis Obispo
universities and State correctional facilities in San Luis Obispo, CA. SAC Todak
discussed jurisdictional authority and HUD OIG investigative trends and priorities for
fiscal year (FY) 2007.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC Phyllis Grissom-Robinson and SA Melissa McFadden hosted a Western
District of Missouri and District of Kansas Suspicious Activity Report (SAR) Review
Team monthly meeting in Kansas City, KS. The review team evaluates SARs filed by
financial institutions and coordinates joint investigations resulting from significant
information. Those in attendance included AUSAs from both the Western District of
Missouri and the District of Kansas.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC James Todak met with McGregor W. Scott, U.S. Attorney for the Eastern
District of California, and approximately 20 OIG agency supervisors in Sacramento,
CA. SAC Todak discussed current HUD OIG regional investigative trends in addition
to FY 2007 investigative priorities. SAC Todak expressed his gratitude to U.S.



136                                                                          Outreach
Attorney Scott for providing prosecutive support on recent hurricane Relief-related
fraud investigations.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     SAC Barry McLaughlin, Chairman of the Midwest Regional Inspector General
Council (MRIGC), hosted a semiannual MRIGC meeting in Chicago, IL. During the
meeting, MRIGC SACs discussed criminal justice issues within their jurisdictional
areas, and a Northern District of Illinois AUSA provided current DOJ goals and
initiatives.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


     RIGA John Buck and SAC Joseph Clarke participated in a meeting of the
Philadelphia, PA, Regional Task Force on Procurement/Grant Fraud. The Task Force
is part of a National Procurement Fraud Task Force established by DOJ to attack fraud
in government procurements and grant programs. As Philadelphia is home to many
government agencies and their regional offices, DOJ formed the Task Force to advance
its national effort. Numerous other investigative agencies, regional inspectors general,
and AUSAs were also in attendance to exchange ideas and best practices. The goals of
the Task Force include strategizing about areas of potential fraud, identifying viable
matters for investigation and prosecution, cooperating and deploying resources as
intelligently as possible, developing strategies to streamline investigations and reach
just results, and enhancing these efforts with needed training.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Nadine Gurley and Acting SAC Brad Geary attended a Procurement Fraud
Working Group meeting sponsored by the Northern District of Georgia USAO in
Atlanta, GA. ASAC Gurley and Acting SAC Geary provided brief presentations on the
role of HUD OIG and how HUD funds are misused in procurement fraud schemes. ASAC
Gurley agreed to serve on a "How to Detect Fraud" subcommittee with Department of
Defense (DoD) OIG and FBI personnel. Representatives from more than 17 Federal law
enforcement and prosecutor offices attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASACs Brad Geary and Ray Espinosa provided a fraud presentation for
approximately 20 financial analysts and FBI special agents in Chicago, IL. ASACs Geary
and Espinosa described single-family fraud "red flag" indicators, subsidized housing
landlord/tenant schemes, and recent prosecutions.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Nancy Valencic provided an overview of HUD OIG's mission and explained the
FFI at a Regional Organized Crimes Enforcement Center training conference held in
Houston, TX. More than 400 representatives of various State, local, and Federal law
enforcement agencies attended.

                             ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


Outreach                                                                             137
    SAs Cortez Richardson and Nicholas Fasciglione and Senior Auditor Tamara
Wallinger met with AUSA Phil Pinnell, Affirmative Civil Enforcement Coordinator for
the Northern District of Oklahoma, in Tulsa, OK. SAs Richardson and Fasciglione
discussed various types of criminal cases, and Senior Auditor Wallinger provided
information relating to possible civil actions. AUSA Pinnell expressed an interest in
civil prosecution of HUD OIG cases.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Chumnan Sangsvang, Jr., provided HUD OIG's mission and role at a meeting
with representatives from the Texas Department of Health and Human Services (HHS)
Office of Inspector General in Fort Worth, TX. In addition, SA Sangsvang explained
HUD OIG's role in public and assisted housing and agreed to corroborate investigative
efforts.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Kimberly Studerus participated in a fraud investigators working group meeting
held at the Federal Way Police Department in Federal Way, WA. SA Studerus
discussed fraud trends and possible HUD OIG partnerships with Federal Way Police
Department, Pierce County Sheriff's Office, DEA, Washington State HHS, Seattle
Housing Authority, King County Housing Authority, and Snohomish County Housing
Authority investigators and other law enforcement personnel in attendance.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAs Charles Grace and Kimberly Studerus presented HUD OIG's mission and
function to members of the Lakewood Police Department in Lakewood, WA. In
addition, SAs Grace and Studerus provided information on HUD rental assistance fraud
and a listing of public housing developments within the Lakewood jurisdiction and
described avenues available for help in maintaining the integrity of HUD rental
assistance programs.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SA Jorge Reyes, Jr., provided an overview of HUD OIG's mission, structure, and role
in safeguarding HUD's rental assistance program to members of Richmond Police
Department and Fort Bend County Sheriff's Office in Richmond, TX. SA Reyes also
discussed HUD OIG's investigative process and Section 8 tenant fraud before
proposing a joint Section 8 fraud initiative. Approximately 10 individuals attended the
meeting.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    Cliff Cole, Computer Audit Specialist (CAS) for the Information Systems Audits
Division, wrote an excellent article on OIG's data mining initiatives entitled "Digging
for the Gold" that was published in the Fall/Winter 2006-2007 issue of The Journal of
Public Inquiry. The article discussed the evolution of data mining activities within HUD
OIG and joint efforts with the Office of Investigation and other government
organizations. The results of these efforts led to the location and arrest of about 5,600

138                                                                             Outreach
fugitives and the identification of approximately 3,500 Federal and USPS employees
who may have falsely reported their incomes in order to receive HUD-funded housing
assistance. Also in FY 2006, OIG reported monetary benefits of $432.6 million from
audits in which data mining techniques were used. The article can be found at
http://www.ignet.gov/randp/fw06jpi.pdf.

Outreach to HUD Staff and Others
    During the week February 26 through March 2, Inspector General Kenneth
Donohue, SAC James Todak, and RIGA Joan Hobbs visited the Honolulu, HI, field
office and briefed HUD staff (approximately 25 people) on the mission and
organization of OIG. Meetings were also held with the FBI, USAO, Hawaiian Home
Lands Staff, City Auditor, State Welfare Investigators, State Procurement Officer, and
HHS OIG. In addition, RIGA Hobbs briefed about 15 CPD grantees on the OIG
mission and organization and discussed the areas in which the Office of Audit has found
problems in CPD grant activity in recent audits.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    SAC Rene Febles and SA Joseph Bredehoft were invited guests at an "Ethics in
Government" symposium held at Monmouth University in West Long Branch, NJ. This
symposium addressed methods and strategies used to prevent, detect, and punish
official misconduct and public corruption while maintaining an honest and
accountable government at municipal, county, and State levels. SAC Febles and SA
Bredehoft discussed HUD OIG's role, and Inspector General Donohue's commitment
to investigating public corruption at the municipal, county, State, and Federal levels.
State Attorney General Stuart Rabner was keynote speaker, and other attendees
included State legislators, senators, freeholders, mayors, and council members and
Monmouth County Federal, State, and local law enforcement personnel.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    RIGA Ron Hosking, ARIGAs Carrie Gray and Kim Randall, and CAS Glenn Brock
met with Susan Montee, State Auditor of the State of Missouri, and her Director of
Audit in Jefferson City, MO. The purpose of the meeting was to explain the role of
OIG, develop lines of communication, and discuss joint audits each agency has
conducted in the past and how the two agencies might work together in the future.
The RIGA and ARIGAs talked about mission and staffing; audit planning, selection,
and reporting; and the success of prior joint efforts with the City Auditor of Kansas
City, MO. CAS Brock briefly talked about the Information Systems Audit Division and
described the CAS role, history, and some details of the data retrieval and analysis work
conducted. He also talked about OIG's successes in working with the State of
Missouri, which include data matching that the Division of Employment Security
performed for the income analysis of subsidized housing tenants and data supplied by
the Missouri Housing Development Commission for audit work on multifamily projects.
The door was opened for possible joint efforts in the future regarding CDBG and HOME
Investment Partnerships Program funds and cooperation between the offices in
referring audit leads to each other.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○

Outreach                                                                              139
    RIGA John Dvorak, ARIGA Kevin Smullen, and ASAC Diane DeChellis met with
the State Auditors from Maine on October 25 in Bangor, ME. The objectives of this
meeting were to explain the role of HUD OIG, develop lines of communication, and
provide information on the organizational structure and functions of the Offices of Audit
and Investigation. The top management challenges were also discussed, and recent
relevant HUD OIG audit and investigation results were shared. Additionally, the State
Auditor was provided the OIG's Web site address for OIG external audit reports and
other information. The State Auditors shared information regarding responsibilities of
their offices and the types of audits conducted by their offices. In addition, they
expressed interest in several OIG audits that involved overlapping HUD- and
State-funded programs. This outreach effort provided the opportunity to explore the
possibility of leveraging resources and sharing information between organizations.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    RIGA Joan Hobbs, Regions IX and X, spoke before a group of Region X supervisors
in the Seattle, WA, Regional Office on the topic "Supervising and Managing Staff in
Remote Locations." There were 14 supervisors in attendance.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ASAC Timothy Mowery and SA Brian Rymill attended an annual law enforcement
breakfast meeting sponsored by the Middle District of North Carolina USAO in High
Point, NC. ASAC Mowery described HUD OIG's mission, xpressed HUD OIG's
appreciation to the USAO staff for their continued support, and provided contact
information for the Greensboro HUD OIG office. More than 50 individuals
representing 17 Federal law enforcement and prosecutorial offices throughout North
Carolina attended.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ARIGA Charles Johnson presented the Phoenix, AZ, HUD program office staff
with an overview of HUD OIG audit operations. This included information relating to
the Office of Audit's authority and organizational structure, its relationship with the
OIG Office of Investigation, the audit process, the audit reporting process, and the
audit resolution process. Information relating to one ongoing audit was also provided,
including why the auditee was selected for review, the audit objective, a brief overview
of the work conducted as part of the audit, and a summary of the audit results. About
50 HUD program staff members attended the presentation.

                              ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○ ○


    ARIGA Michael Motulski and Senior Auditor Lloyd Currie spoke at the
Association of Certified Fraud Examiners - Rhode Island Chapter 33 in Warwick, RI,
on the topic "Procurement Fraud." The issues discussed included pricing proposal
audits, incurred cost audits, and schemes by contractors on cost-type contracts to
fraudulently inflate the cost of labor or materials. Also discussed was defective pricing
(postcontract award reviews), which occurs when a contractor does not submit or
disclose cost or pricing data to the government that is current, accurate, and complete


140                                                                             Outreach
before reaching an agreement on
the price on the negotiated sole
source procurements. The final topic
was the False Claims Act and
remedies available for recovery. The
conference was attended by just
under 70 professionals comprised of
certified fraud examiners, other
antifraud specialists, internal and
independent auditors, forensic
accountants, lawyers and law
enforcement personnel, detectives       ARIGA Michael Motulski and Senior Auditor Lloyd Currie
and private investigators, educators,          at the Association of Certified Fraud Examiners.
and other professionals seeking
knowledge of fraud in the
procurement process.




Outreach                                                                                   141
        Chapter 8




Review of Policy Directives
     Reviewing and making recommendations on legislation, regulations, and policy
issues is a critical part of the Office of Inspector General's (OIG) responsibilities under
the Inspector General Act. During this 6-month reporting period, OIG reviewed 99
issuances and testified on a Federal Housing Administration (FHA) legislative proposal.
This chapter highlights some of OIG's prior comments on notices, comments for this
reporting period, and other policy directives.

Proposed Legislation
FHA Modernization
     The U.S. Department of Housing and Urban Development (HUD) has proposed
legislation that would allow increased flexibility in setting insurance premiums based
on risk and reduce downpayment requirements. As noted in the President's FY 2008
budget, through the Expanding Homeownership Act of 2006, HUD has sought to
provide workable solutions for homebuyers who do not qualify for prime financing,
giving them more affordable and safer ways to achieve the "American dream." The key
components of the legislative proposal are to

      -   Eliminate the current statutory 3 percent minimum downpayment.
      -   Create a new, risk-based insurance premium structure for FHA that would
          match the premium amount with the credit profile of the borrower.
      -   Increase and simplify FHA's loan limits.

     On March 15, 2007, the Inspector General testified on the modernization proposal
before the United States Senate, Committee on Appropriations, Subcommittee on
Transportation, Housing and Urban Development, and Related Agencies. OIG remains
concerned about the future solvency of the FHA fund in view of the proposed FHA
modernization. The legislative reform package-which includes risk-based premiums,
zero-downpayment loans, and higher mortgage limits-could bring higher default and
foreclosure risks, as FHA attempts to recover its historic share of first-time homebuyer
and minority markets.

      -   Risk-Based Premiums: Moving to a mixed price premium structure could by
          its very complexity require increased budget authority to make FHA system
          modifications and impose new administrative/cost burdens on originating and
          servicing lenders. FHA reform will also require higher risk borrowers to pay
          higher premiums. Risk-based pricing, therefore, may increase the mortgage
          carrying costs of FHA borrowers who are the least able to afford them.

      -   Zero Downpayment: FHA has experienced higher default and claim rates on
          seller-funded nonprofit downpayment assisted loans. These loans are
          effectively zero downpayment loans (100 percent loan -to value), and as reported
          by the General Accountability Office (GAO), the probability of such loans
          resulting in an insurance claim was 76 percent higher than comparable loans
          without such assistance. It is reasonable to conclude that zero downpayment
          loans would represent a comparable insurance risk.


144                                                               Review of Policy Directives
    -   Higher Mortgage Limits: FHA should determine mortgage loan limits
        consistent with its mission to serve underserved borrowers and communities,
        particularly first-time homebuyers and minorities. Raising the loan limits to
        conforming maximums may serve to attract borrowers who have access to
        conventional financing and do not need a government program to acquire
        homeownership.

    -   Silence on Controls: The proposed reform is silent on strengthening controls
        and enforcement actions and preventing future fraud. Conventional lending in
        the private sector is beginning to use predictive models that screen
        loan applications for fraud at prefunding. FHA needs to move beyond
        postendorsement monitoring and embrace this new technology through policy
        and programmatic changes as part of FHA reform.

Proposed Rules
Seller-Funded Downpayment Assistance
     OIG continues to express concerns that seller-funded nonprofit downpayment
assistance providers inflate real estate prices and increase the risk of default. OIG's
concerns with downpayment assistance from seller-funded nonprofits have been
long-standing and are consistent with concerns raised by others, including GAO. FHA
was not responsive to GAO's and OIG's concerns even after the Internal Revenue
Service (IRS) issued a revenue ruling making it clear that seller-funded downpayment
assistance providers are not charities as they do not meet the requirements of 26 U.S.C.
§501(c)(3). As a result, OIG pressed the Department to issue a proposed rule to
establish specific criteria regarding a borrower's investment in the mortgaged
property when a gift is provided by a nonprofit or other organization. OIG concurs
with the proposed rule which was published in the Federal Register on May 11, 2007.

Condominiums
    OIG objected to a proposed rule related to condominiums in Puerto Rico. OIG
was concerned that the rule would preclude HUD from foreclosing on the properties.
OIG lifted its nonoccurrence after HUD provided evidence that the proposed rule would
not prevent HUD from foreclosing on the properties.

Proposed Notices
Relocation Assistance
     HUD's Office of Community Planning and Development (CPD) proposed a
notice pertaining to relocation assistance under section 104(d) of the Housing and
Community Development Act of 1974. OIG objected to the proposed notice and
continues to await HUD's revised proposal.



Review of Policy Directives                                                         145
Waivers
     Notices Waivers for the State of Louisiana Community Development Block Grant
(CDBG) Disaster Recovery Grant. OIG objected to HUD's proposed notice because
the notice failed to include a provision in the public law. OIG continues to await HUD's
revised proposal.




146                                                            Review of Policy Directives
   Chapter 9




Audit Resolution
     In the audit resolution process, Office of Inspector General (OIG) and U.S.
Department of Housing and Urban Development (HUD) management agree upon the
needed actions and timeframes for resolving audit recommendations. Through this
process, OIG hopes to achieve measurable improvements in HUD programs and
operations. The overall responsibility for assuring that the agreed-upon changes are
implemented rests with HUD managers. This chapter describes significant
management decisions with which OIG disagrees. It also contains a status report on
HUD's implementation of the Federal Financial Management Improvement Act of 1996
(FFMIA). In addition to this chapter on audit resolution, see appendix 2, table B,
"Significant Audit Reports Described in Previous Semiannual Reports in Which Final
Action Had Not Been Completed as of March 31, 2007."

Audit Reports Issued before Start of Period with No
Management Decision as of March 31, 2007
      Office of Housing, Washington, DC

      Issued July 11, 2006. The Inspector General referred this issue to the Deputy
Secretary on December 4, 2006, because agreement could not be reached with the
Office of Housing. The three recommendations relate to the Office of Housing's not
independently determining that mortgage loans insured under the Mutual Mortgage
Insurance Fund met program requirements after paying billions in single-family
insurance claims. During the period October 1, 2003, through June 3, 2005, HUD
received and paid claims on loans for which the lender did not show that the borrower
(1) was able to make the required monthly payments, (2) made the minimum
investment in the property, and (3) was creditworthy. HUD paid the claims and did
not subsequently review the loan files for compliance with the program requirements,
fraud, and/or misrepresentations. HUD relied upon lender certifications that loans
were eligible and contained all required supporting documents, a preendorsement
review of the insurance applications for key documents, and risk-based compliance
testing of recently insured loans. We estimate that final HUD costs for claims that
HUD's files did not support as meeting program requirements during the period
reviewed totaled $356 million on those claims for which all revenues and expenses were
finalized.

     In his February 23, 2007, response, the Deputy Secretary stated support of OIG's
objective and agreed with the overall conclusions reached. The Deputy Secretary
directed the Office of Housing to immediately begin implementing procedures in
conjunction with and acceptable to OIG to effect the recommendations. However, the
Office of Housing did not submit its plan to implement the Deputy Secretary's
directive until March 30, 2007. OIG determined the proposed plan did not meet the
Deputy Secretary's instructions. The Office of Housing's proposal does not provide for
the development of procedures to take appropriate actions for all claims with
inadequate documentation and essentially renders the recommendations ineffective.
The recommendations remain open until the Office of Housing submits a corrective
action plan that accurately reflects the Deputy Secretary's instructions and
demonstrates a good faith effort to implement OIG's recommendations. (Report No.
2006-SE-0001).

148                                                                    Audit Resolution
Significant Management Decision with
Which OIG Disagrees
    Office of Housing, Washington D.C.
      Issued June 14, 2006. While HUD's system controls were effective in preventing
most lenders from originating Federal Housing Administration (FHA) mortgage loans
in areas where their approval had been Credit Watch-terminated, some lenders were
still able to originate loans while they were terminated. As a result, in a 3-year period,
HUD inappropriately insured 58 loans totaling $6.2 million.

     These loans were approved and endorsed for FHA insurance because the Office of
Housing modified the programming of its automated systems to accommodate two
changes to its loan approval policies. It changed its system business rules to allow a
lender to originate streamline refinanced loans in any jurisdiction rather than limiting
the lender to the specific HUD-approved area. A similar change was made for loans
originated through a principal agent. These changes eliminated the system controls
that prevented a Credit Watch-terminated lender from originating loans in the
jurisdiction barred by the Office of Housing. The Office of Housing said that it would
be cost prohibitive to modify the system so that the Credit Watch termination
controls worked 100 percent of the time.

     OIG recommended that HUD take appropriate administrative action against the
lenders for the loans they were not authorized to originate. This action included
requiring the lenders to indemnify HUD against future losses on 47 active loans with
original mortgage amounts totaling about $4.7 million, obtaining reimbursement from
lenders for claims paid and losses incurred on four loans anticipated to be about
$164,000, and/or referring the lenders to the Mortgagee Review Board. No action was
recommended for seven loans that were subsequently paid off.

      The Office of Housing disagreed with the recommendation. It determined that
the loans were originated under business rules established by the Department, paid in
full, or originated during the update of its data system. It maintained that it could not
take administrative action against the lenders because the issue raised in the report is
not fully addressed in any of FHA's regulations, policies, handbooks, or mortgagee
letters. However, it did agree to add language to its termination letter to address the
issues raised in the audit.

      OIG forwarded the disagreed-upon matters to the Deputy Secretary of Housing
for resolution. The Deputy Secretary agreed with the Office of Housing's position. OIG
disagrees with this determination and stands by the conclusion that HUD should hold
the lenders accountable for the ineligible FHA loan originations. (Report No. 2006-
KC-0002).




Audit Resolution                                                                      149
Federal Financial Management
Improvement Act of 1996
     FFMIA requires that HUD implement a remediation plan that will bring financial
systems into compliance with Federal financial management system requirements within
3 years or obtain Office of Management and Budget (OMB) concurrence if more time is
needed.

     FFMIA requires OIG to report in its Semiannual Reports to the Congress instances
and reasons when an agency has not met the intermediate target dates established in its
mediation plan required by FFMIA. In April 1998, HUD determined that 38 of its
systems were not in substantial compliance with FFMIA. At the end of 2006, the
Department reported that 2 of its 41 financial management systems were not in
substantial compliance with FFMIA. These two systems are the HUD Procurement
System (HPS) and Small Purchase System (SPS).




150                                                                    Audit Resolution
    Appendix 1




Audit Reports Issued
Internal Reports
12 Audit Reports
Chief Financial Officer (1 Report)
2007-FO-0003                 Additional Details to Supplement Our Report on HUD's FY 2006 and
                             2005 Financial Statements, 11/14/2006. Better Use: $558,300,000.
Chief Information Officer (3 Reports)
2007-DP-0001                    Review of HUD Firewall Implementation, 10/11/2006.
2007-DP-0002                    Review of HUD's Information Technology Services Contracts,
                                01/18/2007. Better Use: $5,582,000.
2007-DP-0004                    FY 2006 Review of Information Systems Controls in Support of the
                                Financial Statements Audit, 02/22/2007.
Chief Procurement Officer (1 Report)
2007-DP-0003                    Review of HUD's Procurement Systems, 01/25/2007.
Community Planning and Development (1 Report)
2007-BO-0001                    The Hartford CPD Did Not Always Adequately Monitor CDBG
                                Program Participants or Follow HUD Requirements, 02/12/2007.
Government National Mortgage Association (1 Report)
2007-FO-0001                    Audit of the GNMA's (Ginnie Mae) Financial Statements for FY
                                2006 and 2005, 11/07/2006.
Housing (4 Reports)
2007-FO-0002                    Audit of the FHA's Financial Statements for FY 2006 and 2005,
                                11/08/2006. Better Use: $107,176,596.
2007-KC-0001                    HUD Adequately Addressed the Increased Risk Associated with
                                20-year Loans Approved by Automated Underwriting Systems,
                                01/26/2007.
2007-KC-0002                    HUD Can Improve Its Use of Residual Receipts to Reduce Housing
                                Assistance Payments, 01/29/2007. Better Use: $36,692,718.
2007-PH-0001                    HUD Controls Prevented Multiple Sales to Owner-Occupant
                                Purchasers but Did Not Ensure That Owners Occupied Residences
                                as Required, 01/12/2007.
Public and Indian Housing (1 Report)
2007-LA-0001                    Tax Credit Project Owners Are Allowed to Charge Higher Rents for
                                Tenant-Based Section 8 Voucher Households than Non-Voucher
                                Households, 11/08/2006. Better Use: $13,500,000.

Audit-Related Memoranda1
Public and Indian Housing (1 Report)
2007-LA-0801                    Corrective Action Verification of Seattle Housing Authority's MTW
                                Program Audit Report 2004-SE-1004, Seattle, WA, 11/16/2006.

1
 The memorandum format is used to communicate the results of reviews not performed in accordance with generally
accepted government audit standards, to close out assignments with no findings and recommendations, to respond to
requests for information, to report on the results of a survey, to report results, or to report the results of civil actions or
settlements.

152                                                                                                  Audit Reports Issued
External Reports
46 Audit Reports
Community Planning and Development (9 Reports)
2007-AT-1003           Gwinnett County Subrecipients Did Not Provide Funds Required by
                       Their Contracts, Lawrenceville, GA, 01/31/2007. Better Use: $278,418.
2007-BO-1003           The Office of Community Development, City of Chicopee, Did Not
                       Properly Award and Administer CDBG and HOME Funds Used for its
                       Housing Activities, Chicopee, MA, 03/21/2007. Questioned: $1,388,600;
                       Unsupported: $1,105,960; Better Use: $534,066.
2007-DE-1001           The City and County of Denver, CO, Did Not Comply with HOME
                       Investment Partnerships Program Requirements, Denver, CO,
                       10/18/2006. Better Use: $722,000.
2007-KC-1001           The City of St. Louis Did Not Meet HUD's Requirements for Creating
                       and Retaining Jobs, St. Louis, MO, 10/11/2006. Questioned: $1,716,840;
                       Unsupported: $1,716,840; Better Use: $1,662,210.
2007-KC-1005           The State of Nebraska Did Not Close HOME Projects in a Timely
                       Manner, Lincoln, NE, 03/13/2007.
2007-LA-1003           The City of Long Beach Did Not Administer Its Continuum of Care
                       Supportive Housing Program in Compliance with HUD Requirements,
                       Long Beach, CA, 12/12/2006. Questioned: $1,185,740; Unsupported:
                       $1,185,740; Better Use: $636,916.
2007-NY-1002           The City of Amsterdam Needs to Make Improvements in Administering
                       Its Section 108 Loan Guarantee Program, Amsterdam, NY, 12/20/2006.
                       Questioned: $535,000; Unsupported: $535,000.
2007-PH-1004           The City of Baltimore Generally Administered Uses of Block Grant
                       Funds Reviewed in Accordance with Applicable Requirements,
                       Baltimore, MD, 12/20/2006.
2007-SE-1001           The YWCA of Seattle, King and Snohomish Counties, Did Not Properly
                       Administer Its Supportive Housing Program Grants, Seattle, WA,
                       01/12/2007. Questioned: $186,990; Unsupported: $68,783.
Housing (10 Reports)
2007-AT-1002             Pine State Mortgage Company Did Not Always Comply with FHA
                         Underwriting and Quality Control Requirements, Atlanta, GA,
                         11/03/2006. Questioned: $151,687; Unsupported: $85,262; Better Use:
                         $713,495.
2007-BO-1002             Mortgage Amenities Corporation Did Not Comply with Certain HUD
                         Requirements in Administering Its FHA Insured Loan Programs,
                         Lincoln, RI, 12/01/2006. Questioned: $5,850; Better Use: $49,416.
2007-BO-1004             Harris Health Center Did Not Ensure That Renovations Were
                         Properly Completed, Paid $21,729 for Unnecessary and Nonproject
                         Costs, and Did Not Calculate Management Fees Properly, East
                         Providence, RI, 03/22/2007. Questioned: $37,634.
2007-CH-1006             Colony Mortgage Corporation, Supervised Lender, Did Not Always
                         Comply with HUD's Requirements Regarding Underwriting of Loans
                         and Quality Control Reviews, Fairview Park, OH, 03/26/2007.
                         Questioned: $219,229; Unsupported: $20,457; Better Use: $141,774.



Audit Reports Issued                                                                      153
2007-FW-1006        Aberdeen Villa Apartments, Formerly Asbury Square Apartments,
                    FHA #118-35200, Spent Almost $35,000 in Project Funds on Ineligible
                    and Unsupported Costs, Tulsa, OK, 03/07/2007. Questioned: $34,649;
                    Unsupported: $26,568.
2007-KC-1002        Manufactured Home Lending by Wells Fargo Home Mortgage, West
                    Des Moines, IA, 10/25/2006. Questioned: $64,612.
2007-KC-1003        PlainsCapital McAfee Mortgage Did Not Follow HUD Underwriting
                    Requirements and Originated Loans from Unregistered Branch
                    Offices, Lubbock, TX, 11/06/2006. Questioned: $82,604; Better Use:
                    $215,954.
2007-LA-1001        The Associates Group Pioneer Pines Park Did Not Follow the
                    Provisions of the Regulatory Agreement, Bakersfield, CA, 10/20/2006.
                    Questioned: $160,564; Unsupported: $133,049; Better Use: $195,202.
2007-LA-1002        First Magnus Financial Corporation Did Not Comply with HUD
                    Guidelines When Operating and Managing Net Branches, Scottsdale,
                    AZ, 12/12/2006.
2007-NY-1003        Peregrine Health Management Company Used Project Funds for
                    Ineligible, Unsupported, and/or Unnecessary Costs, Syracuse, NY,
                    03/12/2007. Questioned: $161,984; Unsupported: $2,109; Better Use:
                    $126,922.
Public and Indian Housing (27 Reports)
2007-AT-1001        The Housing Authority of the Birmingham, AL District Did Not
                    Ensure That Section 8 Units Were Decent, Safe, and Sanitary,
                    Birmingham, AL, 10/25/2006. Better Use: $10,428,048.
2007-AT-1004        The Wilmington Housing Authority Needs to Improve Internal
                    Controls Over Its Program, Wilmington, NC, 03/09/2007.
                    Questioned: $1,632,505; Unsupported: $887,589; Better Use: $563,908.
2007-AT-1005        The Puerto Rico Department of Housing Did Not Effectively
                    Administer Its Section 8 Housing Program, San Juan, PR, 03/29/2007.
                    Questioned: $5,451; Better Use: $2,616,124.
2007-BO-1001        Lynn Housing Authority & Neighborhood Development Generally
                    Administered its Section 8 Voucher Program in Accordance with HUD
                    Requirements, Lynn, MA, 11/03/2006.
2007-CH-1001        The Marion Housing Authority Improperly Used HUD Funds for
                    Nonprofit Development Activities, Marion, IN, 12/13/2006.
                    Questioned: $225,303; Unsupported: $25,033.
2007-CH-1002        Benton Harbor Housing Commission Did Not Effectively Manage Its
                    Public Housing Program and Has Not Used Special Purpose Grant
                    Funds It Received More Than Nine Years Ago, Benton Harbor, MI,
                    01/25/2007. Questioned: $278,669; Unsupported: $234,716; Better Use:
                    $527,731.
2007-CH-1003        The Housing Authority of the City of Evansville Needs to Improve Its
                    Section 8 Housing Choice Voucher Program Administration,
                    Evansville, IN, 02/13/2007. Questioned: $76,550; Unsupported:
                    $20,716; Better Use: $1,576,512.
2007-CH-1004        The Columbus Metropolitan Housing Authority Failed to Adequately
                    Operate Its Section 8 Housing Choice Voucher Program, Columbus,
                    OH, 03/15/2007. Questioned: $1,971,984; Unsupported: $886,763;
                    Better Use: $196,611.



154                                                                 Audit Reports Issued
2007-CH-1005           The Housing Authority of the City of Gary Lacked Adequate Controls
                       over Refunding Savings, Gary, IN, 03/23/2007. Questioned: $913,365;
                       Unsupported: $913,365; Better Use: $1,054,990.
2007-DE-1002           The Lusk Housing Authority Improperly Awarded Its Administration
                       and Management Contract, Lusk, WY, 02/27/2007.
2007-DE-1003           The Buffalo Housing Authority Improperly Awarded Its
                       Administration and Management Contract, Buffalo, WY, 02/27/2007.
2007-DE-1004           The Cheyenne Housing Authority Improperly Awarded Its
                       Administration and Management Contract, Cheyenne, WY,
                       03/05/2007.
2007-FW-1001           Lubbock Housing Authority's Lack of Management Controls
                       Resulted in Section 8 Units Not Meeting Housing Quality Standards,
                       Lubbock, TX, 10/16/2006. Better Use: $1,205,989.
2007-FW-1002           The Lubbock Housing Authority Inappropriately Advanced Federal
                       Funds to Support Its Nonprofit Entities, Lubbock, TX, 11/28/2006.
                       Questioned: $672,395.
2007-FW-1003           The Lubbock Housing Authority's Lack of Management Controls
                       Resulted in Overhoused Tenants and Miscalculated Assistance
                       Payments, Lubbock, TX, 11/28/2006. Questioned: $15,096; Better Use:
                       $2,479.
2007-FW-1004           Oklahoma City Housing Authority Generally Complied with HUD's
                       Standards, Oklahoma City, OK, 12/08/2006.
2007-FW-1005           The Housing Authority of Bexar County Overhoused Tenants and
                       Paid Excessive Housing Assistance Payments in the Section 8 Housing
                       Choice Voucher Program, San Antonio, TX, 02/22/2007. Questioned:
                       $107,658; Better Use: $166,828.
2007-FW-1007           The Jacksonville Housing Authority Mismanaged Public Housing
                       Capital Fund Program Funding, Jacksonville, AR, 03/30/2007.
                       Questioned: $164,203; Unsupported: $164,203; Better Use: $281,462.
2007-KC-1004           The Housing Authority of East St. Louis Improperly Used Public
                       Housing Funds, East St. Louis, IL, 01/12/2007. Questioned: $177,029;
                       Better Use: $58,285.
2007-LA-1004           The Housing Authority of the County of Contra Costa Did Not
                       Adequately Determine and Support Section 8 Rents, Martinez, CA,
                       12/15/2006. Questioned: $165,892; Unsupported: $82,659.
2007-LA-1005           Oakland Housing Authority Did Not Comply with Procurement and
                       Contracting Requirements, Oakland, CA, 02/14/2007. Questioned:
                       $2,370,531; Unsupported: $2,370,531.
2007-LA-1006           The Housing Authority of the County of Santa Clara Did Not
                       Adequately Determine and Support Section 8 Rents, San Jose, CA,
                       03/16/2007. Questioned: $1,379,992; Unsupported: $4,827.
2007-NY-1001           Utica Municipal Housing Authority Needs to Make Improvements in
                       Administering Its Hope VI Revitalization Program, Utica, NY,
                       11/02/2006. Questioned: $318,533; Unsupported: $316,598; Better Use:
                       $7,540,777.
2007-PH-1001           The Housing Authority of the County of Beaver Needed to Improve
                       Controls over HUD Assets, Beaver, PA, 10/31/2006. Questioned:
                       $339,493; Unsupported: $292,576; Better Use: $161,927.




Audit Reports Issued                                                                    155
2007-PH-1002                    The Montgomery County Housing Authority Improperly Used HUD
                                Funds to Purchase, Renovate, and Maintain Its Main Office,
                                Norristown, PA, 12/13/2006. Questioned: $1,713,659; Unsupported:
                                $1,095,039; Better Use: $1,615,730.
2007-PH-1003                    The Housing Authority of the City of Weirton Needed to Improve Its
                                Administration of Its HUD-Funded Programs, Weirton, WV,
                                12/18/2006.
2007-PH-1005                    The Newport News Redevelopment and Housing Authority Did Not
                                Always Follow HUD Requirements, Newport News, VA, 02/20/2007.
                                Questioned: $246,254; Better Use: $489,522.

Audit-Related Memoranda2
Housing (1 Report)
2007-NY-1801                    Management Agent Fees Claimed by P.J. Alizio Realty, Inc., Mineola,
                                NY, 01/29/2007.




2
 The memorandum format is used to communicate the results of reviews not performed in accordance with generally
accepted government audit standards, to close out assignments with no findings and recommendations, to respond to
requests for information, to report on the results of a survey, to report results, or to report the results of civil actions or
settlements.

156                                                                                                  Audit Reports Issued
Appendix 2




  Tables
                                 Table A
Audit Reports Issued Prior to Start of Period with No Management
                   Decision at March 31, 2007
        * Significant Audit Reports Described in Previous Semiannual Reports
Report Number        Reason for Lack of                           Issue Date/Target
& Title              Management Decision                           for Management
                                                                           Decision


                             See Chapter 9, page 147




158                                                                            Tables
                                 Table B
     Significant Audit Reports Described in Previous Semiannual
        Reports Where Final Action Had Not Been Completed
                          as of 03/31/2007
    Report        Report Title                  Issue        Decision      Final
    Number                                      Date          Date        Action
1997-CH-1010   Major Mortgage Corporation,      09/17/1997   01/06/1998      Note 2
               Section 203(K) Rehabilitation
               Home Mortgage Insurance
               Program, Livonia, MI
2000-KC-0002   Housing Subsidy Payments        09/29/2000 02/21/2001         Note 2
2001-CH-1007   Detroit Housing Commission,     05/16/2001    09/13/2001 06/30/2011
               Hope VI Program, Detroit, MI
2001-FW-1005   Supportive Housing Program,     08/27/2001    12/21/2001 08/03/2007
               Harmony House, Inc.,
               Harrison, AR
2002-BO-1003   Newport Resident Council,       04/30/2002 09/16/2002 01/15/2008
               Inc., Newport, RI
2002-KC-0002   Nationwide Survey of HUD’s      07/31/2002 11/22/2002 03/31/2008
               Office of Housing Section 232
               Nursing Home Program
2002-FW-1003   New Mexico Public Interest      09/30/2002    03/31/2003      Note 1
               Education Fund, Outreach
               and Training Assistance
               Grant and Public Entity
               Grant, Albuquerque, NM
2002-PH-1005   Philadelphia Regional Alliance 09/30/2002     03/31/2003 04/01/2008
               of HUD Tenants, Outreach
               and Training Assistance
               Grant and Intermediary
               Technical Assistance Grant,
               Philadelphia, PA
2003-SE-1002   Tenants Union, Outreach and 12/02/2002 03/31/2003             Note 2
               Training Assistance Grant
               and Intermediary Training
               Assistance Grant, Seattle, WA
2003-AT-1001   Northwestern Regional           01/09/2003 06/02/2003 08/15/2007
               Housing Authority, Public
               Housing Programs, Boone, NC
2003-FW-1001   Low Rent Program, Housing       02/21/2003 06/20/2003      12/31/2011
               Authority of the City of
               Morgan City, LA




Tables                                                                             159
      Report      Report Title                 Issue       Decision      Final
      Number                                   Date         Date        Action
2003-DE-0001   HUD Offices of Multifamily     03/31/2003   03/31/2003      Note 1
               Housing Assistance
               Restructuring’s Oversight of
               the Section 514 Program
               Activities
2003-NY-1005   Empire State Development       09/30/2003 01/28/2004        Note 2
               Corporation, CDBG Disaster
               Assistance Funds, New York,
               NY
2004-KC-1001   East Meyer Community           11/24/2003 03/29/2004 07/17/2007
               Association, Kansas City, MO
2004-BO-1004   Danbury Housing Authority,     12/05/2003 04/05/2004 12/01/2008
               Capital Fund Program,
               Boston, MA
2004-FO-0003   HUD Financial Statements       12/19/2003 07/20/2004 10/15/2007
               FY 2003 and 2002
2004-AT-0001   Public Housing Agency          01/13/2004 05/20/2004 04/20/2007
               Development Activities
2004-AO-0001   Award and Administration of 02/06/2004 06/30/2004 08/01/2007
               Lead-Based Paint Hazard
               Reduction Grants
2004-DP-0002   Application Control Review     02/25/2004 07/14/2004 01/30/2008
               of the Tenant Rental
               Assistance Certification
               System
2004-PH-1008   Safe Haven Outreach            06/03/2004 08/31/2004 06/29/2007
               Ministry, Incorporated,
               Washington, DC
2004-AT-1012   Housing Authority of the       08/02/2004 11/29/2004 12/31/2020
               City of Durham, NC
2004-CH-1803   Somerset Point Nursing         08/09/2004 08/09/2004     12/31/2007
               Home, Multifamily Equity
               Skimming, Shaker Heights,
               OH
2004-CH-1008   Cornerstone Mortgage Group, 09/10/2004 01/05/2005           Note 2
               Limited Non-Supervised Loan
               Correspondent, Inverness, IL
2004-PH-1012   Mortgage America Bankers,      09/10/2004 01/06/2005 09/27/2007
               LLC, Non-Supervised Loan
               Correspondent, Kensington,
               MD
2004-FW-1009   Mays Property Management,      09/17/2004 02/23/2005 05/15/2008
               Inc., Multifamily
               Management Agent, Little
               Rock, AR
160                                                                          Tables
    Report         Report Title                   Issue       Decision    Final
    Number                                        Date         Date      Action
2004-LA-1008   United States Veterans            09/27/2004 03/31/2005 04/15/2013
               Initiative, Inc., Inglewood, CA
2005-CH-1001   Prestige Mortgage Group,          10/27/2004 10/29/2004   10/17/2007
               Inc., Non-Supervised Loan
               Correspondent, Springfield,
               OH
2005-AT-1004   Housing Authority of the          11/19/2004 03/15/2005   03/15/2015
               City of Durham, NC
2005-CH-1003   Royal Oak Township Housing        11/29/2004 03/29/2005   10/31/2007
               Commission, Public Housing
               Program, Ferndale, MI
2005-PH-1004   Corrective Action Verification    12/21/2004 04/20/2005 04/30/2007
               Review of the Housing
               Authority of Baltimore City,
               MD, Section 8 Certificate and
               Voucher Programs, Audit
               Report Number 2001-PH-
               1003
2005-AT-1005   Pan American Financial            01/27/2005 05/17/2005 05/31/2007
               Corporation, Non-Supervised
               Direct Endorsement Lender,
               Guaynabo, PR
2005-FW-1004   American Property Financial,      01/28/2005 05/27/2005 05/31/2007
               Non-Supervised Loan
               Correspondent, San Antonio,
               TX
2005-LA-1002   Housing Authority of              03/14/2005   07/11/2005 08/31/2007
               Maricopa County, Mixed
               Finance Development
               Activities, Phoenix, AZ
2005-AT-1007   Interstate Financial Mortgage     03/15/2005 08/04/2005 12/30/2007
               Group Corporation, Non-
               Supervised Direct
               Endorsement Lender, Miami,
               FL
2005-PH-0001   Criteria Governing Local     03/29/2005 07/27/2005            Note 2
               Government Participation in
               HUD’s Single Family Property
               Disposition Discount Sales
               Program
2005-PH-1009   Richmond Redeveloment and 04/08/2005 07/28/2005 04/30/2007
               Housing Authority Did Not
               Always Properly Use HUD
               Funds, Richmond, VA
2005-BO-1003   Milford Housing Authority,        04/25/2005 10/07/2005 04/17/2007
               Selected Programs, Milford,
               CT
Tables                                                                            161
      Report       Report Title                Issue       Decision      Final
      Number                                   Date         Date        Action

2005-DE-1004   Aspen Home Loans, American 05/06/2005 08/31/2005 08/31/2007
               Fork, UT
2005-DE-0001   HUD’s Controls Over FHA        05/12/2005 09/09/2005        Note 2
               Claims Payments
2005-LA-1003   First Source Financial USA,    05/12/2005 09/08/2005 05/31/2007
               Henderson, NV
2005-FW-1010   Broad Street Mortgage        05/26/2005 07/13/2006 07/16/2007
               Company, Subsidiary of
               Fieldstone Mortgage Company,
               San Antonio, TX
2005-NY-1005   The Housing Authority of the 05/26/2005 09/23/2005 07/31/2007
               City of Newark, Bond
               Financing Activities and
               Section 8 Housing Choice
               Administrative Fee Reserves,
               Newark, NJ
2005-LA-1006   Maricopa Home Consortium       07/28/2005   11/22/2005 08/31/2007
               Home Program, Mesa, AZ
2005-BO-1004   Housing Choice Voucher and     07/29/2005   11/25/2005 05/24/2007
               Low-Income Public Housing
               Program Deficiencies at the
               Bridgeport Housing
               Authority Resulted in $3.8
               Million in Questioned Costs,
               Bridgeport, CT
2005-CH-1012   Savanna Trace Apartments       08/04/2005 12/28/2005 02/29/2008
               Multifamily Equity
               Skimming, Kalamazoo, MI
2005-CH-1013   Ivan Woods Senior              08/05/2005 12/28/2005 02/29/2008
               Apartments Multifamily
               Equity Skimming, Lansing,
               MI
2005-BO-1006   The Hartford Housing           09/06/2005 01/03/2006     01/31/2008
               Authority Improperly Used
               $3.7 Million in Public
               Housing Operating Subsidies
               for Its State and Other
               Federal Programs, Hartford,
               CT
2005-LA-0001   Single Family Preforeclosure   09/13/2005 01/10/2006        Note 2
               Sale Program
2005-AT-1013   Corporacion Para el Fomento 09/15/2005      01/11/2006   07/11/2007
               Economico de la Ciudad
               Capital Did Not Administer
               Its Independent Capital Fund
               in Accordance with HUD
               Requirements, San Juan, PR
162                                                                          Tables
    Report         Report Title                  Issue       Decision      Final
    Number                                       Date         Date        Action
2005-NY-1007    Security Atlantic Mortgage      09/16/2005   01/13/2006      Note 2
                Company, Inc., Did Not
                Always Comply with HUD/
                FHA Loan Origination
                Requirements, Edison, NJ
2005-SE-1007    City Bank Puyallup, WA          09/16/2005 12/20/2005 06/20/2007
2005 -SE-1008   Idaho Housing and Finance       09/16/2005 03/31/2006        Note 2
                Association, Boise, ID
2005-CH-1017    Flint Housing Commission,       09/23/2005 01/20/2006 01/20/2016
                Section 8 Housing Program,
                Flint, MI
2005-FW-1018    The Housing Authority of the 09/27/2005 01/24/2006        12/31/2007
                City of Houston Violated
                HUD Regulations Concerning
                Section 8 Housing Choice
                Voucher Tenants and Units,
                Houston, TX
2005-NY-1008    Lower Manhattan                 09/27/2005 08/22/2006        Note 2
                Development Corporation,
                CDBG Program Disaster
                Assistance Fund, New York,
                NY
2005-AT-1015    The Municipality of San Juan    09/29/2005 01/12/2006 09/30/2007
                Housing Authority Did Not
                Properly Administer its
                Section 8 Housing Choice
                Voucher Program, San Juan,
                PR
2005-CH-1020    Housing Authority of the        09/29/2005 01/25/2006     12/31/2052
                City of Gary, Section 8
                Housing Program, Gary, IN
2005-BO-0002    HUD Did Not Conduct a         09/30/2005 12/20/2005       12/31/2007
                Front-End Risk Assessment
                and, Therefore, Fully
                Implement Controls for the
                Public Housing Mortgages
                and Security Interest Program
2005-KC-1009    Washington Mutual Bank          09/30/2005   01/11/2006      Note 2
                Did Not Follow HUD
                Regulations When
                Underwriting Six Loans,
                Seattle, WA
2006-BO-1001    The Division of Grants          10/07/2005 02/02/2006 06/30/2007
                Management, City of
                Hartford, Paid $1,039,296 for
                Ineligible CDBG Activities
                and Failed to Return Income
                to the Program, Hartford, CT
Tables                                                                             163
      Report      Report Title                  Issue     Decision      Final
      Number                                    Date       Date        Action

2006-LA-1001   Ryland Mortgage Company         10/31/2005 07/13/2006 07/16/2007
               Did Not Follow HUD
               Requirements in the
               Origination of Insured Loans,
               Tempe, AZ
2006-CH-0001   Real Estate Assessment          11/30/2005 01/10/2006   11/30/2008
               Center’s Physical Condition
               Assessment Was
               Compromised
2006-PH-1003   The Franklin Redevelopment      11/30/2005 03/28/2006 10/30/2007
               and Housing Authority Did
               Not Adequately Administer
               Its Section 8 Program,
               Franklin, VA
2006-PH-0001   HUD Did Not Properly            12/07/2005 08/25/2006 06/30/2007
               Award FY 2004 Healthy
               Homes and Lead Hazard
               Control Grants
2006-FW-1002   Baytown Housing Authority       12/13/2005 04/07/2006 04/07/2007
               Improperly Advanced,
               Transferred, and Encumbered
               Its Public Housing Funds,
               Baytown, TX
2006-CH-1005   Fairfield Metropolitan          12/30/2005 04/28/2006 04/27/2007
               Housing Authority Used
               Annual Contributions
               Contract Funds for
               Development Activities
               Outside Its Annual
               Contributions Contract,
               Lancaster, OH
2006-PH-1005   The Housing Authority of the    01/10/2006 04/28/2006 05/01/2007
               County of Butler Used HUD
               Assets Improperly to Develop
               and Support Its Nonfederal
               Entities, Butler, PA
2006-AT-1002   The Housing Authority of the    01/11/2006 05/11/2006 05/11/2007
               City of Prichard’s Controls
               Over the Sale of Affordable
               Housing Units, Use of Sales
               Proceeds, and Expenditure of
               Low-Income Funds Were
               Inadequate, Prichard, AL
2006-AT-1004   The Housing Authority of the    01/13/2006 04/25/2006   12/31/2008
               City of Prichard Did Not
               Ensure Section 8 Subsidy
               Payments Were for Eligible
               Units, Tenants, and
               Landlords, Prichard, AL

164                                                                         Tables
    Report        Report Title                 Issue       Decision    Final
    Number                                     Date         Date      Action
2006-KC-1004   Major Mortgage Improperly      01/20/2006 05/08/2006 05/08/2007
               Submitted Late Requests for
               Endorsement of FHA Loans,
               Cheyenne, WY
2006-FW-1004   K Hovnanian American           01/26/2006   5/25/2006 05/15/2007
               Mortgage, LLC, Violated
               Underwriting Requirements
               and Did Not Meet All Quality
               Control or Branch
               Requirements, Plano, TX
2006-SE-1001   Idaho Housing and Finance      01/26/2006 05/23/2006   12/31/2008
               Association Did Not Monitor
               Subsidized Multifamily
               Projects in Accordance with
               Regulations or Its Annual
               Contributions Contract with
               HUD, Boise, ID
2006-DP-0003   Vulnerability Assessment of    01/31/2006 04/19/2006 06/30/2008
               HUD’s Computer Network
2006-NY-1002   WomenRising, Inc., Did Not     01/31/2006 05/11/2006 04/30/2007
               Always Comply with HUD’s
               Supportive Housing Program,
               Jersey City, NJ
2006-NY-1003   The Housing Authority of the   02/14/2006 08/17/2006   12/31/2008
               City of Newark’s Controls
               Over Bond Financing
               Activities, Obtaining
               Supporting Documentation,
               and Legal Settlements
               Require Improvement,
               Newark, NJ
2006-NY-1004   Mount Vernon Urban             02/16/2006 06/23/2006 06/20/2007
               Renewal Agency, Section 8
               Housing Choice Voucher
               Program, Has Administrative
               and Financial Management
               Weaknesses, Mount Vernon,
               NY
2006-AT-1006   The Municipality of San Juan   02/23/2006 05/15/2006 05/15/2007
               Housing Authority Did Not
               Ensure Section 8 Assisted
               Units Were Decent, Safe, and
               Sanitary, San Juan, PR
2006-LA-1009   Fontana Native American        03/03/2006 03/17/2006      Note 2
               Indian Center Did Not
               Adequately Administer Its
               Supportive Housing Program
               Grant, Fontana, CA


Tables                                                                         165
      Report      Report Title                 Issue     Decision     Final
      Number                                   Date       Date       Action

2006-LA-1010   The Owner and Agent of       03/03/2006 06/23/2006 05/01/2007
               Holiday Apartments, LA PRO
               30, and Two Worlds II
               Mismanaged Project Finances
               and Operations, Los Angeles,
               CA
2006-BO-1005   Hartford Housing Authority     03/10/2006 07/07/2006 04/30/2007
               Had Housing Choice Voucher
               Program Deficiencies
               Resulting in More Than $2.6
               Million in Costs Exceptions,
               Hartford, CT
2006-CH-1007   Huntington National Bank,      03/15/2006 09/18/2006 08/10/2008
               Supervised Lender, Generally
               Complied with Requirements
               Regarding Submission of Late
               Requests for Endoresement
               and Underwriting of Loans,
               Columbus, OH
2006-PH-1009   The Housing Autority of the    03/23/2006 05/24/2006 05/24/2007
               City of Annapolis Did Not
               Adequately Administer Its
               Section 8 Waiting List,
               Annapolis, MD
2006-FW-1006   America’s Mortgage Resource, 03/28/2006 07/14/2006    10/31/2007
               Inc., Branch Manager Formed
               an Identity-of-Interest Entity
               That Provided Gift Funds;
               and Did Not Always Meet
               HUD Loan Origination and
               Quality Control Plan
               Requirements. Metairie, LA
2006-AT-1007   The Housing Authority of the 03/30/2006 07/20/2006    07/31/2011
               City of Winston-Salem Used
               More Than $4.9 Million in
               Operating Subsidies for Other
               Programs, Winston-Salem,
               NC
2006-CH-1008   US Bank NA, Supervised         03/31/2006 09/18/2006 08/14/2008
               Lender, Did Not Always
               Comply with HUD’s
               Requirements Regarding Late
               Requests for Endorsements
               and Underwriting of Loans,
               Minneapolis, MN
2006-FW-1007   BSM Financial LP Originated    03/31/2006 08/18/2006 10/01/2007
               Loans on Overvalued
               Properties to Less Than
               Creditworthy Borrowers,
               Putting Borrowers and HUD
               at Risk, Allen, TX
166                                                                       Tables
    Report        Report Title                  Issue     Decision      Final
    Number                                      Date       Date        Action
2006-CH-1009   The Youngstown               04/18/2006 08/16/2006 07/30/2007
               Metropolitan Housing
               Authority Did Not Use Public
               Housing Operating Funds
               Effectively and Efficiently,
               Youngstown, OH
2006-PH-1010   The Housing Authority of the 04/20/2006 08/18/2006 08/01/2007
               County of Butler Needed to
               Improve Administration of Its
               Section 8 Housing Choice
               Voucher Program, Butler, PA
2006-FW-1010   Deer Creek Apartments’          05/11/2006 05/11/2006 05/11/2007
               Previous Management Agent
               Paid Itself Unsupported Fees,
               Houston, TX
2006-AT-1009   The Metropolitan                05/18/2006 08/04/2006 04/30/2007
               Development and Housing
               Agency Did Not Ensure
               Section 8-Assisted Units
               Were Decent, Safe and
               Sanitary, Nashville, TN
2006-CH-1010   The Benton Harbor Housing       05/18/2006 09/08/2006 10/01/2007
               Commission Lacked
               Supporting Documentation
               and Did Not Follow
               Procurement Requirements
               Regarding Its Public Housing
               Capital Fund Program,
               Benton Harbor, MI
2006-AT-1010   The Orlando Housing             05/31/2006 09/21/2006 04/03/2007
               Authority Did Not Ensure
               That All Section 8 Units Met
               Housing Quality Standards
               and Paid Excessive Subsidies
               for Some Units, Orlando, FL
2006-PH-0002   HUD Improperly Admitted         05/31/2006 10/24/2006 06/30/2007
               the Housing Authority of
               Baltimore City into the MTW
               Demonstration Program,
               Baltimore, MD
2006-NY-0001   HUD’s Controls Over the         06/08/2006 01/08/2007   10/31/2007
               Reporting, Oversight, and
               Monitoring of the Housing
               Counseling Assistance
               Program Were Not Adequate




Tables                                                                          167
      Report      Report Title                  Issue     Decision      Final
      Number                                    Date       Date        Action

2006-FW-1011   Premier Mortgage Funding,       06/16/2006 12/20/2006 07/31/2007
               Inc. and Its Sponsor,
               JPMorgan Chase, Did Not
               Comply with HUD
               Underwriting Requirements
               and Did Not Meet All Quality
               Control Requirements,
               Austin, TX
2006-KC-0003   HUD Did Not Ensute That         06/19/2006 09/13/2006 09/30/2008
               the Omaha Housing
               Authority Repaid Its Public
               Housing Programs $2.7
               Million, Omaha, NE
2006-NY-1007   First Suffolk Mortgage          06/19/2006 09/14/2006 07/31/2007
               Corporation Did Not Always
               Comply with HUD
               Underwriting Requirements,
               North Babylon, NY
2006-LA-1012   The Housing Authority of the 06/20/2006     10/11/2006 05/31/2007
               City of Los Angeles Did Not
               Adequately Determine and
               Support Section 8 Tenant
               Eligibility, Los Angeles, CA
2006-AT-1012   The Miami Dade Housing          06/28/2006 10/04/2006 06/25/2007
               Agency Paid Housing Choice
               Voucher Program Funds for
               Some Overhoused Tenants,
               Miami, FL
2006-KC-1011   The Owner of Wellston           06/29/2006 09/06/2006 10/30/2007
               Townhouses in St. Louis
               County Violated Its
               Regulatory Agreement,
               Wellston, MO
2006-KC-1012   The Owner of HDC                06/29/2006 08/31/2006 10/30/2007
               Retirement Village in St.
               Louis Violated Its Regulatory
               Agreement, St. Louis, MO
2006-BO-1008   Hall Commons Inc. Did Not    06/30/2006 10/25/2006 04/25/2007
               Administer Its $4.1 Million
               Section 202 Capital Advance
               Construction Grant in
               Accordance With Federal
               Requirements, Bridgeport, CT
2006-NY-1008   The Freeport Housing            06/30/2006 12/01/2006   10/31/2007
               Autority Has Financial and
               Management Control
               Weaknesses, Freeport, NY



168                                                                         Tables
    Report        Report Title                 Issue       Decision      Final
    Number                                     Date         Date        Action
2006-BO-1009   The Rhode Island Housing     07/06/2006 10/24/2006 12/01/2009
               and Mortgage Finance
               Corporation Incorrectly Made
               More Than $1.8 Million in
               Section 8 Subsidy Payments
               and Released More Than
               $900,000 from Restricted
               Residual Receipts Accounts,
               Providence, RI
2006-CH-1011   The Columbus Metropolitan 07/06/2006 11/02/2006          12/31/2007
               Housing Authority Did Not
               Effectively Operate Its Section
               8 Housing Program,
               Columbus, OH
2006-BO-0001   HUD Incorrectly Approved       07/11/2006   10/13/2006 10/01/2008
               $42 Million in Operating
               Subsidies for Phase-Down for
               Demolition Add-On Funding
2006-CH-1012   The Housing Authority of the 07/11/2006 11/06/2006       03/31/2017
               County of Cook Needs to
               Improve Its Section 8 Housing
               Program Administration,
               Chicago, IL
2006-CH-0002   PIH is Taking Action to        07/13/2006 07/13/2006     12/31/2009
               Oversee the Section 202
               Mandatory Conversion
               Program, Washington, DC
2006-LA-1013   The Child Abuse Prevention     07/17/2006 11/09/2006     11/08/2007
               Council of Sacramento Did
               Not Adequately Administer
               Its Healthy Homes Initiative
               Grant, North Highlands, CA
2006-DE-1004   Juniper Communities Did        07/18/2006 10/04/2006 05/17/2007
               Not Comply with Its
               Regulatory Agreement or
               HUD Regulations in
               Managing Its FHA-Insured
               Projects, Bloomfield, NJ
2006-LA-1015   Institute for Urban Research   07/19/2006   11/16/2006   11/16/2007
               and Development Did Not
               Properly Administer Its
               Supportive Housing Program
               Grants, El Monte, CA
2006-CH-0003   The Congressional Grants     07/21/2006     11/16/2006 10/20/2007
               Division’s Oversight of
               Economic Development
               Initiative-Special Purpose
               Grants Needs to be Improved,
               Washington, DC

Tables                                                                           169
      Report      Report Title                  Issue       Decision      Final
      Number                                    Date         Date        Action

2006-CH-1013   The Ann Arbor Housing           07/21/2006   11/15/2006   12/31/2016
               Commission’s
               Administration of Its Section
               8 Housing Choice Voucher
               Program Needs to be
               Improved, Ann Arbor, MI
2006-LA-1017   The Housing Authority of the    07/21/2006 11/09/2006     11/30/2007
               City of Las Vegas Did Not
               Comply with Contracting
               and Grant Use Requirements,
               Las Vegas, NV
2006-FW-1013   The Housing Authority of the 07/26/2006 11/08/2006 04/30/2007
               City of Denton Made Subsidy
               Calculation Errors and
               Overhoused Tenants, Denton,
               TX
2006-AT-1015   The Municipality of Bayamon     07/27/2006   11/17/2006 06/30/2007
               Housing Authority Did Not
               Ensure Section 8-Assisted
               Units Were Decent, Safe, and
               Sanitary, Bayamon, PR
2006-AT-1016   The Municipality of Humacao 07/28/2006       11/17/2006 07/01/2007
               Did Not Administer Its
               CDBG in Accordance with
               HUD Requirements,
               Humacao, PR
2006-CH-1014   National City Mortgage          07/31/2006   01/31/2007 07/31/2007
               Company, Nonsupervised
               Lender Did Not Comply with
               HUD’s Requirements
               Regarding Underwriting of
               Loans and Quality Control
               Reviews, Miamisburg, OH
2006-NY-1009   First Residential Mortgage      08/14/2006 12/12/2006 08/31/2007
               Services Corporation Did Not
               Always Comply with HUD/
               FHA Loan Origination
               Requirements, Englewood
               Cliffs, NJ
2006-SE-0002   The Office of Single Family     08/16/2006 03/30/2007 06/30/2007
               Housing Expanded Late
               Endorsement Eligibility
               Without Studying Associated
               Risks




170                                                                           Tables
    Report        Report Title                 Issue       Decision      Final
    Number                                     Date         Date        Action
2006-BO-1011   The Portland Housing         08/28/2006     12/19/2006 06/19/2007
               Authority Did Not Use
               Reserve Funds or Properly
               Allocate Employee Costs,
               Resulting in Questioned
               Costs of More Than $850,000,
               Portland, ME
2006-AT-0001   The Procurement Office Did     08/29/2006 12/22/2006 06/30/2007
               Not Maintain Complete
               Contract Files
2006-KC-1013   The Columbus Housing           08/30/2006   10/17/2006   12/31/2007
               Authority Improperly
               Expended and Encumbered
               Its Public Housing Funds,
               Columbus, NE
2006-DE-1006   Nexgen Lending, Inc.’s     08/31/2006       11/08/2006 08/31/2007
               Lakewood Branch Did Not
               Follow HUD Requirements in
               Underwriting Two Insured
               Loans, Lakewood, CO
2006-DP-0005   Review of HUD’s Information    08/31/2006   11/17/2006   11/30/2007
               Technology Contingency
               Planning and Preparedness
2006-FW-1015   The Housing Authority of the   09/01/2006 02/01/2007 07/01/2007
               City of Austin Overhoused
               Tenants and Paid Excessive
               HAPs in the Section 8
               Housing Choice Voucher
               Program, Austin, TX
2006-AT-1019   The Municipality of Tao Baja   09/06/2006   12/11/2006 08/07/2007
               Did Not Administer Its
               Section 108 Loan Guarantee
               Assistance Program in
               Accordance with HUD
               Requirements, Tao Baja, PR
2006-LA-1019   The City of Modesto Did Not    09/07/2006 02/12/2007     01/31/2008
               Always Administer Its CDBG
               in Compliance with
               Government Regulations,
               Modesto, CA
2006-PH-1013   The Commonwealth of            09/18/2006   01/16/2007   01/11/2008
               Virginia Did Not Ensure
               HOME Funds Were
               Disbursed and Used in
               Accordance with Federal
               Regulations, Richmond, VA




Tables                                                                           171
      Report       Report Title               Issue        Decision      Final
      Number                                  Date          Date        Action

2006-NY-1010   Orange City Housing           09/20/2006    01/18/2007 07/31/2007
               Authority Has Weakness in
               Its Housing Choice Voucher
               Program, Orange, NJ
2006-NY-1011   Orange City Housing            09/20/2006   01/18/2007 07/31/2007
               Authority Incorrectly Paid the
               City’s Street Lighting Costs
               and Improperly Wrote-off a
               Receivable, Orange, NJ
2006-DP-0802   Assessment of HUD’s           09/21/2006 11/24/2006 10/30/2007
               Compliance with OMB
               Memorandum M-06-16,
               “Protection of Sensitive
               Agency Information”
2006-NY-1012   The Housing Authority of the 09/22/2006     01/19/2007   12/31/2007
               City of Passaic Has
               Allegations of
               Mismanagement That Need
               to be Addressed, Passaic, NJ
2006-PH-1014   The Housing Authority of the 09/25/2006 01/22/2007       01/15/2014
               City of McKeesport Needed to
               Improve Its Low-Rent
               Housing Maintenance
               Program, McKeesport, PA
2006-CH-1016   Pickaway Metropolitan         09/26/2006    12/18/2006 10/01/2007
               Housing Authority
               Improperly Used
               Homeownership Sales
               Proceeds to Fund Its
               Nonprofit Development
               Activities, Circleville, OH
2006-CH-1017   Community Cantral Bank,      09/26/2006 03/12/2007 03/31/2009
               Supervised Lender, Generally
               Complied with HUD’s
               Requirements Regarding
               Underwriting of Loans but
               Not Its Quality Control
               Reviews, Mount Clemens, MI
2006-KC-1014   The Columbus Housing        09/27/2006      01/11/2007   01/31/2008
               Authority Improperly Spent
               and Encumbered Public
               Housing Funds for Its Non-
               HUD Development Activities,
               Columbus, NE
2006-CH-1018   Saginaw Housing               09/28/2006    01/19/2007   12/31/2021
               Commission Improperly
               Used Public Housing Funds
               to Purchase Property,
               Saginaw, MI

172                                                                          Tables
    Report            Report Title                 Issue       Decision      Final
    Number                                         Date         Date        Action
2006-CH-1019      Lucas Metropolitan Housing 09/29/2006 12/07/2006 06/01/2007
                  Authority Did Not Effectively
                  Operate Its Section 8 Housing
                  Choice Voucher Program,
                  Toledo, OH
2006-CH-1020      Rockford Housing Authority     09/29/2006 01/25/2007 09/30/2052
                  Needs to Improve Its
                  Controls Over Program
                  Housing Assistance and
                  Utility Allowance Payments,
                  Rockford, IL
2006-CH-1021      Housing Authority of the       09/30/2006 01/26/2007 09/30/2037
                  County of Cook Had Weak
                  Controls Over Its Section 8
                  Housing Choice Voucher
                  Program, Chicago, IL




   AUDITS EXCLUDED:                             NOTES:

   39 audits under repayment plans              1 Management did not meet the
                                                  target date. Target date is over
   31 audits under formal judicial                1 year old.
   review, investigation, or legislative
   solution                                     2 Management did not meet the
                                                  target date. Target date is under
                                                  1 year old.

                                                3 No Management decision.




Tables                                                                                173
                                                Table C
           Inspector General Issued Reports with Questioned and
                   Unsupported Costs at March 31, 2007
                                                    (Thousands)
 Audit Reports                                        Number of              Questioned          Unsupported
                                                    Audit Reports              Costs                Costs
A1     For which no management                               47                   63,410                 32,392
       decision had been made by the
       commencement of the reporting
       period

A2 For which litigation, legislation                         12                   30,312                 18,652
   or investigation was pending at
   the commencement of the
   reporting period
A3 For which additional costs were                            -                     281                    26
   added to reports in beginning
   inventory

A4 For which costs were added to                              0                      0                      0
   non-cost reports

B1     Which were issued during the                          33                   18,707                 12,174
       reporting period

B2     Which were reopened during                             0                      0                      0
       the reporting period

                             Subtotals (A+B)                 92                   112,710                63,244
C      For which a management                               591                   68,715                 35,214
       decision was made during the
       reporting period

       (1) Dollar value of disallowed
           costs:
          - Due HUD                                         232                   45,038                 19,893
          - Due program participants                        40                    22,535                 14,714
       (2) Dollar value of costs not                         123                   1,142                  607
           disallowed
D      For which management decision                         11                   28,022                 17,182
       had been made not to determine
       costs until completion of
       litigation, legislation or
       investigation
E      For which no management                               22                    15,973                 10,848
       decision had made by the end of                     < 68 >4              < 14,260 >4             < 9,754 >4
       the reporting period
1 41 audit reports also contain recommendations with funds be put to better use.
2 7 audit reports also contain recommendations with funds due program participants.
3 9 audit reports also contain recommendations with funds agreed to by management.
4 The figures in brackets represent data at the recommendation level as compared to the report level.
  See Explanations of Tables C and D.

174                                                                                                             Tables
                                               Table D
     Inspector General Issued Reports with Recommendations That
             Funds be Put to Better Use at March 31, 2007
                                                    (Thousands)
 Audit Reports                                                       Number of                     Dollar
                                                                    Audit Reports                  Value
 A1 For which no management decision had                                     34                     271,079
    been made by the commencement of the
    reporting period
 A2 For which litigation, legislation or                                     10                     117,298
    investigation was pending at the
    commencement of the reporting period

 A3 For which additional costs were added to                                  -                          23
    reports in beginning inventory

 A4 For which costs were added to non-cost                                    0                           0
    reports

 B1 Which were issued during the reporting                                   32                     755,015
    period

 B2 Which were reopened during the reporting                                  0                           0
    period

                                            Subtotals (A+B)                  76                    1,143,415
 C     For which a management decision was                                   491                    675,955
       made during the reporting period
       (1) Dollar value of recommendations that
           were agreed to by management:
          - Due HUD                                                          152                    571,513
          - Due program participants                                         32                     83,823
       (2) Dollar value of recommendations that                              113                        20,619
           were not agreed to by management
 D     For which management decision had been                                 9                     116,946
       made not to determine costs until
       completion of litigation, legislation or
       investigation

 E     For which no management decision had                                  18                     350,514
       made by the end of the reporting period                             < 29 >4                < 241,722 >4

1 41 audit reports also contain recommendations with questioned costs.
2 1 audit report also contains recommendations with funds due program participants.
3 8 audit reports also contain recommendations with funds agreed to by management.
4 The figures in brackets represent data at the recommendation level as compared to the report level.
  See Explanations of Tables C and D.




Tables                                                                                                           175
Explanations of Tables C and D
     The Inspector General Act Amendments of 1988 require Inspectors General and
agency heads to report cost data on management decisions and final actions on audit
reports. The current method of reporting at the "report" level rather than at the
individual audit "recommendation" level results in misleading reporting of cost data.
Under the Act, an audit "report" does not have a management decision or final action
until all questioned cost items or other recommendations have a management decision
or final action. Under these circumstances, the use of the "report" based rather than the
"recommendation" based method of reporting distorts the actual agency efforts to
resolve and complete action on audit recommendations. For example, certain cost items
or recommendations could have a management decision and repayment (final action)
in a short period of time. Other cost items or nonmonetary recommendation issues in
the same audit report may be more complex, requiring a longer period of time for
management's decision or final action. Although management may have taken timely
action on all but one of many recommendations in an audit report, the current "all or
nothing" reporting format does not take recognition of their efforts.

    The closing inventory for items with no management decision on Tables C and D
(Line E) reflects figures at the report level as well as the recommendation level.




176                                                                                Tables
Appendix 3




  Index
                            Index
 State                  Page Numbers

 Alabama                33, 62, 66, 105
 Arizona                11, 17, 53, 55, 130, 140
 Arkansas               43, 68
 California             15, 16, 18, 19, 20, 22, 23, 24, 28, 36, 37, 39, 51, 52, 55,
                        56, 57, 58, 59, 62, 64, 65, 67, 75, 87, 107, 109, 126, 129,
                        130, 131, 132, 134, 135, 136
 Colorado               15, 16, 17, 18, 21, 22, 23, 24, 65, 71, 88, 129
 Connecticut            48, 51, 68, 70, 82, 86, 124, 136
 Delaware               63
 District of Columbia   33, 64, 112, 113, 116, 117, 118
 Florida                19, 49, 50, 52, 56, 60, 63, 66, 70, 93, 124, 125, 127, 128,
                        135
 Georgia                9, 14, 20, 24, 25, 56, 70, 86, 93, 95, 132, 137
 Hawaii                 139
 Illinois               14, 16, 26, 27, 29, 43, 50, 53, 55, 61, 81, 90, 108, 124,
                        125, 126, 131, 135, 137
 Indiana                35, 40, 44, 47, 90
 Iowa                   11
 Kansas                 19, 23, 29, 58, 64, 81, 136
 Kentucky               67
 Louisiana              21, 48, 49, 70, 99, 104, 106, 108, 109, 110, 112
 Maine                  59, 67, 81, 95, 140
 Maryland               24, 71, 131, 132
 Massachusetts          18, 46, 53, 58, 60, 64, 69, 70, 79, 80, 81, 85, 91, 94
 Michigan               16, 25, 26, 28, 41, 55, 72, 80, 128, 132, 135
 Mississippi            48, 59, 70, 82, 99, 105, 108, 111
 Missouri               16, 50, 59, 62, 63, 64, 72, 82, 85, 93, 125, 139
 Montana                62
 Nebraska               61, 88
 Nevada                 54, 59, 61, 127
 New Hampshire          96, 134
 New Jersey             17, 20, 21, 47, 70, 91, 94, 95, 139
 New Mexico             51
 New York               14, 20, 27, 28, 29, 38, 54, 66, 69, 71, 75, 77, 79, 81, 82,
                        86, 92, 94, 127
 North Carolina         14, 40, 47, 52, 63, 70, 120, 132, 133, 134, 140
 Ohio                   10, 34, 54, 60, 68, 94, 126



178                                                                           Index
 State            Page Numbers

 Oklahoma         51, 57, 76, 79, 133, 134, 138
 Oregon           134
 Pennsylvania     9, 19, 38, 43, 61, 63, 64, 72, 92, 110, 125, 129, 132, 137
 Puerto Rico      34
 Rhode Island     11, 76, 133, 140
 South Carolina   126
 South Dakota     51, 67
 Texas            10, 22, 23, 28, 36, 37, 42, 46, 50, 61, 67, 79, 82, 93, 99,
                  110, 112, 127, 133, 135, 136, 137, 138
 Utah             25, 62, 65, 71, 128
 Vermont          60
 Virginia         24, 25, 27, 28, 41, 57, 58, 61, 66, 71
 Virgin Islands   49
 Washington       58, 87, 110, 128, 138, 140
 Wisconsin        47




Index                                                                      179
HUD OIG Operations
 Telephone Listing
Office of Audit
Headquarters Office of Audit, Washington, DC                      202-708-0364
Region 1             Boston, MA                                   617-994-8380
                     Hartford, CT                                 860-240-4800
Region2              New York, NY                                 212-264-4174
                     Albany, NY                                   518-464-4200
                     Buffalo, NY                                  716-551-5755
                     Newark, NJ                                   973-622-7900
Region 3             Philadelphia, PA                             215-656-0500
                     Baltimore, MD                                410-962-2520
                     Pittsburgh, PA                               412-644-6372
                     Richmond, VA                                 804-771-2100
Region 4             Atlanta, GA                                  404-331-3369
                     Miami, FL                                    305-536-5387
                     Greensboro, NC                               336-547-4001
                     Jacksonville, FL                             904-232-1226
                     Knoxville, TN                                865-545-4369
                     San Juan, PR                                 787-766-5202
Region 5             Chicago, IL                                  312-353-7832
                     Columbus, OH                                 614-469-5745
                     Detroit, MI                                  313-226-6190
Region 6             Fort Worth, TX                               817-978-9309
                     Houston, TX                                  713-718-3199
                     Oklahoma City, OK                            405-609-8606
                     San Antonio, TX                              210-475-6898
Regions 7/8          Kansas City, KS                               913-551-5870
                     St. Louis, MO                                 314-539-6339
                     Denver, CO                                    303-672-5452
Regions 9/10         Los Angeles, CA                              213-894-8016
                     Phoenix, AZ                                  602-379-7250
                     San Francisco, CA                            415-489-6400
                     Seattle, WA                                  206-220-5360
Gulf Coast Region                                                 504-671-3715




182                                            HUD OIG Operations Telephone Listing
Office of Investigation
Headquarters Office of Investigation, Washington, DC   202-708-0390
Region 1                Boston, MA                     617-994-8450
                        Hartford, CT                   860-240-4800
                        Manchester, NH                 603-666-7988
Region 2                New York, NY                   212-264-8062
                        Buffalo, NY                    716-551-5755
                        Newark, NJ                     973-776-7347
Region 3                Philadelphia, PA               215-656-3410
                        Baltimore, MD                  410-962-4502
                        Pittsburgh, PA                 412-644-6598
                        Richmond, VA                   804-882-4890
Region 4               Atlanta, GA                     404-331-3359
                       Miami, FL                       305-536-3087
                       Greensboro, NC                  336-547-4000
                       Knoxville, TN                   865-545-4000
                       San Juan, PR                    787-766-5868
                       Tampa, FL                       813-228-2026
Region 5                Chicago, IL                    312-353-4196
                        Cleveland, OH                  216-522-4421
                        Columbus, OH                   614-469-6677
                        Detroit, MI                    313-226-6280
                        Indianapolis, IN               317-226-5427
                        Minneapolis-St. Paul, MN       612-370-3130
Region 6                Arlington, TX                  817-652-6980
                        Houston, TX                    713-718-3196
                        Oklahoma City, OK              405-609-8601
                        San Antonio, TX                210-475-6819
Region 7/8             Kansas City, KS                 913-551-5866
                       St. Louis, MO                   314-539-6559
                       Denver, CO                      303-672-5276
                       Billings, MT                    406-247-4080
                       Salt Lake City, UT              801-524-6090
Region 9/10             Los Angeles, CA                213-894-0219
                        San Francisco, CA              415-489-6683
                        Phoenix, AZ                    602-379-7255
                        Sacramento, CA                 916-930-5691
                        Las Vegas, NV                  702-366-2144
                        Seattle, WA                    206-220-5380
Gulf Coast Region                                      202-402-8414



HUD OIG Operations Telephone Listing                              183
Report fraud, waste, and mismanagement
  in HUD programs and operations by:


    Calling the OIG Hotline: 1-800-347-3735

     Faxing the OIG Hotline: 202-708-4829

       Sending written information to:
   Department of Housing and Urban Development
          Inspector General Hotline (GFI)
                 451 7th Street, SW
              Washington, DC 20410

 Emailing the OIG Hotline: hotline@hudoig.gov

                   Internet:
 http://www.hud.gov/complaints/fraud_waste.cfm



     All information is confidential,
    and you may remain anonymous.
Semiannual Report to Congress
October 1, 2007, through March 31, 2007

www.hud.gov/offices/oig

No. 57    HUD-2007-02-OIG
